APPENDIX

APPENDIX A
REVISED December 20, 2019
FILED December 18, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
___________
No. 19-10011
___________
STATE OF TEXAS; STATE OF ALABAMA; STATE
OR ARIZONA; STATE OF FLORIDA; STATE OF
GEORGIA; STATE OF INDIANA; STATE OF KANSAS; STATE OF LOUISIANA; STATE OF MISSISSIPPI, by and through Governor Phil Bryant; STATE
OF MISSOURI; STATE OF NEBRASKA; STATE OF
NORTH DAKOTA; STATE OF SOUTH CAROLINA;
STATE OF SOUTH DAKOTA; STATE OF TENNESSEE; STATE OF UTAH; STATE OF WEST VIRGINIA; STATE OF ARKANSAS; NEILL HURLEY;
JOHN NANTZ,
Plaintiffs – Appellees,
v.
UNITED STATES OF AMERICA; UNITED STATES
DEPARTMENT OF HEALTH; HUMAN SERVICES;
ALEX AZAR, II, SECRETARY, U.S. DEPARTMENT
OF HEALTH AND HUMAN SERVICES; UNITED
STATES DEPARTMENT OF INTERNAL REVENUE;
CHARLES P. RETTIG, in his Official Capacity as
Commission of Internal Revenue,
Defendants – Appellants,
(1a)

2a
STATE OF CALIFORNIA; STATE OF CONNECTICUT; DISTRICT OF COLUMBIA; STATE OF DELAWARE; STATE OF HAWAII; STATE OF ILLINOIS;
STATE OF KENTUCKY; STATE OF MASSACHUSETTS; STATE OF NEW JERSEY; STATE OF NEW
YORK; STATE OF NORTH CAROLINA; STATE OF
OREGON; STATE OF RHODE ISLAND; STATE OF
VERMONT; STATE OF VIRGINIA; STATE OF
WASHINGTON; STATE OF MINNESOTA,
Intervenor-Defendants – Appellants.
_____________________
Appeals from the United States District Court
for the Northern District of Texas
_____________________
Before KING, ELROD, and ENGELHARDT, Circuit
Judges.
JENNIFER WALKER ELROD, Circuit Judge:
The Patient Protection and Affordable Care Act
(the Act or ACA) is a monumental piece of healthcare
legislation that regulates a huge swath of the nation’s
economy and affects the healthcare decisions of millions of Americans. The law has been a focal point of
our country’s political debate since it was passed
nearly a decade ago. Some say that the Act is a muchneeded solution to the problem of increasing
healthcare costs and lack of healthcare availability.
Many of the amici in this case, for example, argue that
the law has extensively benefitted everyone from
children to senior citizens to local governments to
small businesses. Others say that the Act is a costly
exercise in burdensome governmental regulation that
deprives people of economic liberty. Amici of this perspective argue, for example, that the Act “has deprived

3a
patients nationwide of a competitive market for affordable high-deductible health insurance,” leaving
“patients with no alternative to . . . skyrocketing premiums.” Association of American Physicians & Surgeons Amicus Br. at 15.
None of these policy issues are before the court.
And for good reason—the courts are not institutionally
equipped to address them. These issues are far better
left to the other two branches of government. The
questions before the court are far narrower: questions
of law, not of policy. Those questions are: First, is
there a live case or controversy before us even though
the federal defendants have conceded many aspects of
the dispute; and, relatedly, do the intervenor-defendant states and the U.S. House of Representatives have
standing to appeal? Second, do the plaintiffs have
standing? Third, if they do, is the individual mandate
unconstitutional? Fourth, if it is, how much of the rest
of the Act is inseverable from the individual mandate?
We answer those questions as follows: First, there
is a live case or controversy because the intervenordefendant states have standing to appeal and, even if
they did not, there remains a live case or controversy
between the plaintiffs and the federal defendants. Second, the plaintiffs have Article III standing to bring
this challenge to the ACA; the individual mandate injures both the individual plaintiffs, by requiring them
to buy insurance that they do not want, and the state
plaintiffs, by increasing their costs of complying with
the reporting requirements that accompany the individual mandate. Third, the individual mandate is unconstitutional because it can no longer be read as a tax,
and there is no other constitutional provision that justifies this exercise of congressional power. Fourth, on
the severability question, we remand to the district

4a
court to provide additional analysis of the provisions of
the ACA as they currently exist.
I.
On March 23, 2010, President Barack Obama
signed the ACA into law. See Patient Protection and
Affordable Care Act, Pub. L. No. 111-148, 124 Stat. 119
(2010). The Act sought to “increase the number of
Americans covered by health insurance and decrease
the cost of health care” through several key reforms.
See Nat’l Fed’n of Indep. Bus. v. Sebelius (NFIB), 567
U.S. 519, 538 (2012).
Some of those reforms implemented new consumer
protections, aiming primarily to protect people with
preexisting conditions. For example, the law prohibits
insurers from refusing to cover preexisting conditions.
42 U.S.C. § 300gg-3. The “guaranteed-issue requirement” forbids insurers from turning customers away
because of their health. See 42 U.S.C. §§ 300gg, 300gg1. The “community-rating requirement” keeps insurers from charging people more because of their preexisting health issues. 42 U.S.C. § 300gg-4. 1 The law
also requires insurers to provide coverage for certain
The ACA features a few other consumer-protection reforms of
note. For example, the Act requires insurance companies to allow
young adults to stay on their parents’ health insurance plans until they turn 26; prohibits insurers from imposing caps on the
value of benefits provided; and mandates that the insurance plans
cover at least ten “essential health benefits,” including emergency
services, prescription drugs, and maternity and newborn care. See
42 U.S.C. §§ 300gg-14 (young adults), 300gg-11 (restriction on
benefit caps), 18022 (essential health benefits). The ACA also
requires employers with at least fifty full-time employees to pay
the federal government a penalty if they fail to provide their employees with ACA-compliant coverage. 26 U.S.C. § 4980H.

1

5a
types of care, including women’s and children’s preventative care. 42 U.S.C. § 300gg-13(a)(3)–(4).2
Other reforms sought to lower the cost of health insurance by using both policy “carrots” and “sticks.” 3
On the stick side, the individual mandate—which
plaintiffs challenge in the instant case—requires individuals to “maintain [health insurance] coverage.” 26
U.S.C. § 5000A(a). If individuals do not maintain this
coverage, they must make a payment to the IRS called
a “shared responsibility payment.”4 Id.; see also King
v. Burwell, 135 S. Ct. 2480, 2486 (2015).
The women’s preventative care provision was at issue in a trio
of recent Supreme Court cases. See Zubik v. Burwell, 136 S. Ct.
1557 (2016); Wheaton College v. Burwell, 573 U.S. 958 (2014);
Burwell v. Hobby Lobby Stores, Inc., 573 U.S. 682 (2014); see
also California v. U.S. Dep’t of Health & Human Servs., No. 1915072, 2019 WL 5382250 (9th Cir. Oct. 22, 2019); Pennsylvania
v. President United States, 930 F.3d 543 (3d Cir. 2019), as
amended (July 18, 2019); DeOtte v. Azar, 393 F. Supp. 3d 490,
495 (N.D. Tex. 2019).

2

Some opponents of the ACA assert that the goal was not to lower
health insurance costs, but that the entire law was enacted as part
of a fraud on the American people, designed to ultimately lead to a
federal, single-payer healthcare system. In a hearing before the
House Committee on Oversight and Government Reform, for example, Representative Kerry Bentivolio suggested that Jonathan
Gruber, who assisted in crafting the legislation, had “help[ed] the
administration deceive the American people on this healthcare
act or [told] the truth in [a] video . . . about how [the Act] was a
fraud upon the American people.” Examining Obamacare Transparency Failures: Hearing Before the H. Comm. on Oversight and
Government Reform, 113th Cong. 83 (2014) (statement of Rep.
Kerry Bentivolio).

3

The Act exempts several groups of people from the shared responsibility payment. Specifically, the Act provides that “[n]o
penalty shall be imposed” on those “who cannot afford [insurance]

4

6a
The individual mandate was designed to lower insurance premiums by broadening the insurance pool.
See 42 U.S.C. § 18091(2)(J) (“By significantly increasing . . . the size of purchasing pools, . . . the [individual
mandate] will significantly . . . lower health insurance
premiums.”). When the young and healthy must buy
insurance, the insurance pool faces less risk, which, at
least in theory, leads to lower premiums for everyone.
See 42 U.S.C. § 18091(2)(I) (positing that the individual mandate will “broaden the health insurance risk
pool to include healthy individuals, which will lower
health insurance premiums”). The individual mandate thus serves as a counterweight to the ACA’s protections for preexisting conditions, which push riskier,
costlier individuals into the insurance pool. Under the
protections for consumers with preexisting conditions,
if there were no individual mandate, there would arguably be an “adverse selection” problem: “many individuals would,” in theory, “wait to purchase health
insurance until they needed care.” Id.5
coverage,” on “[t]axpayers with income below [the] filing
threshold,” on “[m]embers of Indian tribes,” on those who had only
“short coverage gaps,” or on anyone who, in the Secretary of
Health and Human Services’ determination, has “suffered a
hardship.” 26 U.S.C. § 5000A(e).
Opponents of the ACA, however, argue that the Act goes too far
in limiting individuals’ freedom to choose healthcare coverage.
For example, at a House committee hearing, Representative Darrell Issa argued that one of the “false claims” that the Obama
administration made in passing the Act was that “[i]f you like
your doctor, you will be able to keep your doctor, period. . . . [And
i]f you like your [insurance] plan, you can keep your plan.” Examining Obamacare Transparency Failures: Hearing Before the H.
Comm. on Oversight and Government Reform, 113th Cong. 2
(2014) (statement of Rep. Darrell Issa, Chairman, H. Comm. on
Oversight and Government Reform).

5

7a
The Act also sought to lower insurance costs for
some consumers through policy “carrots,” providing
tax credits to offset the cost of insurance to those with
incomes under 400 percent of the federal poverty line.
See 26 U.S.C. § 36B; 42 U.S.C. §§ 18081, 18082. The
Act also created government-run, taxpayer-funded
health insurance marketplaces—known as “Exchanges”—which allow customers “to compare and
purchase insurance plans.” King, 135 S. Ct. at 2485;
see also 42 U.S.C. § 18031. Opponents of the law argue that the law has led to unintended subsidies to
keep plans afloat and insurance companies in the
black. Texas points in its brief, for example, to a Congressional Budget Office study estimating that federal
outlays for health insurance subsidies and related
spending will rise by about 60 percent over the next ten
years, from $58 billion in 2018 to $91 billion by 2028.
CBO, The Budget and Economic Outlook: 2018 to 2028
at 51 (April 2018), available at https://tinyurl.com/CBOBudgetEconOutlook-2018-2028; State
Plaintiffs’ Br. at 13–14.
The ACA also enlarged the class of people eligible
for Medicaid to include childless adults with incomes
up to 133 percent of the federal poverty line. 42 U.S.C.
§§ 1396a(a)(10)(A)(i)(VII), 1396a(e)(14)(I)(i); NFIB,
567 U.S. at 541–42. The ACA originally required each
state to expand its Medicaid program or risk losing “all
of its federal Medicaid funds.” NFIB, 567 U.S. at 542.
In NFIB, however, the Supreme Court held that this
exceeded Congress’ powers under the Spending
Clause. Id. at 585 (plurality opinion). But the Court
allowed those states that wanted to accept Medicaid
expansion funds to do so. See id. at 585–86 (plurality
opinion); id. at 645–46 (Ginsburg, J., concurring in
part, concurring in the judgment in part, and dissent-

8a
ing in part). As a result, the states that have not participated in the expansion now subsidize, through their
general tax dollars, the states that have participated
in expansion.
Since the Act was passed, its opponents have attempted to attack it both through congressional
amendment and through litigation. Between 2010
and 2016, Congress considered several bills to repeal,
defund, delay, or amend the ACA. See Intervenor-Defendant States’ Br. at 10. Except for a few modest
changes, these efforts were closely fought but ultimately failed. Intervenor-Defendant States’ Br. at 10–
11. In 2017, the shift in presidential administrations
reinvigorated opposition to the law, but many of these
later legislative efforts failed as well. In March 2017,
House leaders pulled a bill that would have repealed
many of the ACA’s essential provisions. In July 2017,
the Senate voted on three separate bills that similarly
would have repealed major provisions of the Act, but
each vote failed.6 Finally, in September 2017, several
Senators introduced another bill that would have repealed some of the ACA’s most significant provisions,
but Senate leaders ultimately chose not to bring it to
the floor for a vote. Intervenor-Defendant States’ Br.
at 11.
The ACA’s opponents also took their cause to the
courts in a series of lawsuits, some of which reached
the Supreme Court. Particularly relevant here, the
Court, in NFIB, upheld the law’s individual mandate.
567 U.S. at 574. Through fractured voting and shifting majorities—explained in more detail in Part V of
One of these bills failed by a razor-thin vote of fifty-one against,
forty-nine in favor. See 163 Cong. Rec. S4415 (daily ed. July 27,
2017).

6

9a
this opinion—the Court decided that the ACA’s individual mandate could be read as a tax on an individual’s decision not to purchase insurance, which was a
constitutional exercise of Congress’ taxing powers under Article I of the U.S. Constitution. Id.; U.S. Const.
art. I, § 8, cl. 1. The Court favored this tax interpretation to save the provision from unconstitutionality.
Reading the provision as a standalone command to
purchase insurance would have rendered it unconstitutional. This reading could not have been justified
under the Commerce Clause because it would have
done more than “regulate commerce . . . among the
several states.” U.S. Const. art. I, § 8, cl. 3. It would
have compelled individuals to enter commerce in the
first place.7 NFIB, 567 U.S. at 557–58. The Court also
held that the provision could not be justified under the
Constitution’s Necessary and Proper Clause. Id. at
561 (Roberts, C.J.); id. at 654–55 (Scalia, Kennedy,
Thomas, and Alito, JJ., dissenting).
In December 2017, the ACA’s opponents achieved
some legislative success. As part of the Tax Cuts and
Jobs Act, Congress set the “shared responsibility payment” amount—the amount a person must pay for
failing to comply with the individual mandate—to the
“lesser” of “zero percent” of an individual’s household
income or “$0,” effective January 2019. Pub. L. No.
115-97, § 11081, 131 Stat. 2054, 2092 (2017); see also
26 U.S.C. § 5000A(c). The individual mandate is still
“on the books” of the U.S. Code and still consists of the
three fundamental components it always featured.
7 Chief Justice Roberts cautioned that concluding otherwise
would empower the government to compel Americans into all
kinds of behavior that the government thinks is beneficial for
them, including, for example, compelling them to purchase broccoli. See NFIB, 567 U.S. at 558 (Roberts, C.J.).

10a
Subsection (a) prescribes that certain individuals
“shall . . . ensure” that they and their dependents are
“covered under minimum essential coverage.” 26
U.S.C. § 5000A(a). Subsection (b) “impose[s] . . . a penalty” called a “[s]hared responsibility payment” on
those who fail to ensure they have minimum essential
coverage. 26 U.S.C. § 5000A(b). Subsection (c) sets
the amount of that payment. All Congress did in 2017
was change the amount in subsection (c) to zero dollars. 26 U.S.C. § 5000A(c).
Two months after the shared responsibility payment was set at zero dollars, the plaintiffs here—two
private citizens8 and eighteen states9—filed this lawsuit against several federal defendants: the United
States of America, the Department of Health and Human Services and its Secretary, Alex Azar, as well as
the Internal Revenue Service and its Acting Commissioner, David J. Kautter. The plaintiffs argued that
the individual mandate was no longer constitutional
because: (1) NFIB rested the individual mandate’s
constitutionality exclusively on reading the provision
as a tax; and (2) the 2017 amendment undermined any
ability to characterize the individual mandate as a tax
because the provision no longer generates revenue, a
requirement for a tax. The plaintiffs argued further
that, because the individual mandate was essential to
and inseverable from the rest of the ACA, the entire
ACA must be enjoined. On this theory, the plaintiffs
sought declaratory relief that the individual mandate
8

Namely, Neill Hurley and John Nantz.

Namely, Texas, Alabama, Arizona, Florida, Georgia, Indiana,
Kansas, Louisiana, Mississippi, Missouri, Nebraska, North Dakota, South Carolina, South Dakota, Tennessee, Utah, West Virginia, and Arkansas. Wisconsin, which was originally a plaintiff
state, sought and was granted dismissal from the appeal.

9

11a
is unconstitutional and the rest of the ACA is inseverable. The plaintiffs also sought an injunction prohibiting the federal defendants from enforcing any
provision of the ACA or its regulations.
The federal defendants agreed with the plaintiffs
that once the shared responsibility payment was reduced to zero dollars, the individual mandate was no
longer constitutional. They also agreed that the individual mandate could not be severed from the ACA’s
guaranteed-issue and community-rating requirements. Unlike the plaintiffs, however, the federal defendants contended in the district court that those
three provisions could be severed from the rest of the
Act. Driven by the federal defendants’ decision not to
fully defend against the lawsuit, sixteen states10 and
the District of Columbia intervened to defend the
ACA.
The district court agreed with the plaintiffs’ arguments on the merits. Specifically, the court held that:
(1) the individual plaintiffs had standing because the
individual mandate compelled them to purchase insurance; (2) setting the shared responsibility payment
to zero rendered the individual mandate unconstitutional; and (3) the unconstitutional provision could not
be severed from any other part of the ACA. The district court granted the plaintiffs’ claim for declaratory
relief. Specifically, the district court’s order “declares
the Individual Mandate, 26 U.S.C. § 5000A(a), UNCONSTITUTIONAL,” and the order further declares
Namely, California, Connecticut, Delaware, Hawaii, Illinois,
Kentucky, Massachusetts, New Jersey, New York, North Carolina, Oregon, Rhode Island, Vermont, Virginia, Washington, and
Minnesota.

10

12a
that “the remaining provisions of the ACA, Pub L. 111148, are INSEVERABLE and therefore INVALID.”
The district court, however, denied the plaintiffs’ application for a preliminary injunction. The district
court entered partial final judgment11 as to the grant
of summary judgment for declaratory relief, but
stayed judgment pending appeal. This appeal followed.
On appeal, the U.S. House of Representatives intervened to join the intervenor-defendant states in defending the ACA. 12 Also on appeal, the federal
defendants changed their litigation position. After
contending in the district court that only a few provisions of the ACA were inseverable from the individual
mandate, the federal defendants contend in their
opening brief for the first time that all of the ACA is
inseverable. See Fed. Defendants’ Br. at 43–49. Moreover, the federal defendants contend for the first time
The final judgment is only partial because it addresses only
Count One of the plaintiffs’ amended complaint. Count One requests a declaratory judgment that the individual mandate exceeds Congress’ constitutional powers. The district court has not
yet ruled on the other counts in the amended complaint. In
Count Two, the plaintiffs request a declaratory judgment that
the ACA violates the Due Process Clause of the Fifth Amendment. In Count Three, the plaintiffs request a declaratory judgment that the ACA violates the Tenth Amendment.
In
Count Four, the plaintiffs request a declaratory judgment that
agency rules promulgated pursuant to the ACA are unlawful. In
Count Five, the plaintiffs request an injunction prohibiting federal officials from “implementing, regulating, or otherwise enforcing any part of the ACA.”

11

In addition to the U.S. House, four other states intervened on
appeal to join the original group that defended the Act in the district court: Colorado, Iowa, Michigan, and Nevada.
12

13a
on appeal that—even though the entire ACA is inseverable—the court should not enjoin the enforcement
of the entire ACA. The federal defendants now argue
that the district court’s judgment should be affirmed
“except insofar as it purports to extend relief to ACA
provisions that are unnecessary to remedy plaintiffs’
injuries.”13 Fed. Defendants’ Br. at 49. They also now
argue that the district court’s judgment “cannot be understood as extending beyond the plaintiff states to invalidate the ACA in the intervenor states.” Fed.
Defendants’ Supp. Br. at 10. Simply put, the federal
defendants have shifted their position on appeal more
than once.
II.
We review a district court’s grant of summary judgment de novo. Time Warner Cable, Inc. v. Hudson, 667
F.3d 630, 638 (5th Cir. 2012). Summary judgment is
appropriate when “the movant shows that there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed.
R. Civ. P. 56(a); see also Dialysis Newco, Inc. v. Cmty.
Health Sys. Grp. Health Plan, 938 F.3d 246, 250 (5th
Cir. 2019). A dispute about a material fact is genuine
if “the evidence is such that a reasonable jury could
return a verdict for the non-moving party.” Amerisure
Ins. v. Navigators Ins., 611 F.3d 299, 304 (5th Cir.
2010) (quoting Gates v. Tex. Dep’t of Protective & Regulatory Servs., 537 F.3d 404, 417 (5th Cir. 2008)).
When ruling on a motion for summary judgment, the
court views all inferences drawn from the factual rec-

13 The federal defendants do not specify which precise provisions,
in their view, injure the plaintiffs and which do not.

14a
ord “in the light most favorable to the non-moving parties
below.” Trent v. Wade, 776 F.3d 368, 373 n.1
(5th Cir. 2015).
III.
We first must consider whether there is a live
“[c]ase” or “[c]ontroversy” before us on appeal, as Article III of the U.S. Constitution requires. U.S. Const.
art. III, § 1. A case or controversy does not exist unless
the person asking the court for a decision—in this
case, asking us to decide whether the district court’s
judgment was correct—has standing, which requires a
showing of “injury, causation, and redressability.” Sierra Club v. Babbitt, 995 F.2d 571, 574 (5th Cir. 1993).
When “standing to appeal is at issue, appellants must
demonstrate some injury from the judgment below.”
Id. at 575 (emphasis omitted).
We conclude, as all parties agree, that there is a
case or controversy before us on appeal. Two groups
of parties appealed from the district court’s judgment:
the federal defendants, and the intervenor-defendant
states. 14 There is a case or controversy before us because both of these groups have their own independent
standing to appeal.15
The U.S. House of Representatives, also a party in this case, intervened in our court after the intervenor-defendant states and
the federal government had filed notices of appeal.
14

15 Even if only one of these parties had standing to appeal, that
would be enough to sustain the court’s jurisdiction. An intervenor needs standing only “in the absence of the party on whose
side the intervenor intervened.” Sierra Club, 995 F.2d at 574 (alteration omitted) (quoting Diamond v. Charles, 476 U.S. 54, 68
(1986)); see also Vill. of Arlington Heights v. Metro. Hous. Dev.
Corp., 429 U.S. 252, 264 & n.9 (1977) (exercising jurisdiction because “at least one” plaintiff had standing to sue).

15a
The federal defendants have standing to appeal.
The instant case is on all fours with the Supreme
Court’s decision in United States v. Windsor, 570 U.S.
744 (2013). In that case, the executive branch of the
federal government declined to defend a federal statute that did not allow the surviving spouse of a samesex couple to receive a spousal tax deduction. Id. at
749–53. The district court ruled that the statute was
unconstitutional and ordered the executive branch to
issue a tax refund to the surviving spouse. Id. at 754–
55. The executive branch agreed with the district
court’s legal conclusion, but it appealed the judgment
and continued to enforce the statute by withholding the
tax refund until a final judicial resolution. Id. at 757–
58.
The Supreme Court ruled that “the United States
retain[ed] a stake sufficient to support Article III jurisdiction.” Id. at 757. That stake was the tax refund,
which the federal government refused to pay. This
threat of payment of money from the Treasury constituted “a real and immediate economic injury” to the
federal government, which was sufficient for standing
purposes. Id. at 757–58 (quoting Hein v. Freedom
From Religion Found., Inc., 551 U.S. 587, 599 (2007)
(plurality opinion)). As the Court explained, “the refusal of the Executive to provide the relief sought suffices to preserve a justiciable dispute as required by
Article III.” Windsor, 570 U.S. at 759; see also Food
Mktg. Inst. v. Argus Leader Media, 139 S. Ct. 2356,
2362 (2019) (concluding that there was a justiciable
controversy because the government “represented unequivocally” that it would not voluntarily moot the controversy absent a final judicial order, and “[t]hat is
enough to satisfy Article III”); INS v. Chadha, 462
U.S. 919, 939 (1983) (holding that there was “adequate

16a
Art. III adverseness” because the executive branch determined that a federal statute was unconstitutional
and refused to defend it but simultaneously continued
to abide by it).
The instant case is similar. Though the plaintiffs
and the federal defendants are in almost complete
agreement on the merits of the case, the government
continues to enforce the entire Act. The federal government has made no indication that it will begin dismantling any part of the ACA in the absence of a final
court order. Just as in Windsor, then, effectuating the
district court’s order would require the federal government to take actions that it would not take “but for the
court’s order.” Windsor, 570 U.S. at 758. And just as
in Windsor, the federal defendants stand to suffer financially if the district court’s judgment is affirmed.16
As just one example, the district court’s judgment declares the Act’s Medicare reimbursement schedules
unlawful, which, if given effect, would require Medicare to reimburse healthcare providers at higher
rates. See, e.g., 42 U.S.C. § 1395ww(b)(3)(B)(xi)–(xii).
Therefore, just as in Windsor, an appellate decision
here will “have real meaning.” 570 U.S. at 758 (quoting Chadha, 462 U.S. at 939).17
The dissenting Justices in Windsor objected to the Windsor majority’s approach to standing. Justice Scalia, for example, said
that this approach to standing “would have been unrecognizable
to those who wrote and ratified our national charter.” Windsor,
570 U.S. at 779 (Scalia, J., dissenting). We are bound by the
Windsor majority opinion.
16

17 Just as in Windsor, moreover, principles of prudential standing
weigh in favor of exercising jurisdiction despite the government’s
alignment with the plaintiffs. Just like the intervenors in Windsor, the intervenor-defendant states and the U.S. House both put
on a “sharp adversarial presentation of the issues.” Id. at 761.

17a
The intervenor-defendant states also have standing to appeal. While a party’s mere “status as an intervenor below . . . does not confer standing,” Diamond
v. Charles, 476 U.S. 54, 68 (1986), intervenors may appeal if they can demonstrate injury from the district
court’s judgment. Sierra Club, 995 F.2d at 574; see
also Va. House of Delegates v. Bethune-Hill, 139 S. Ct.
1945, 1951 (2019); Cooper v. Tex. Alcoholic Beverage
Comm’n, 820 F.3d 730, 737 (5th Cir. 2016). The intervenor-defendant states have made this showing because the district court’s judgment, if ultimately given
effect, would: (1) strip these states of funding that they
receive under the ACA; and (2) threaten to hamstring
these states in possible future litigation because of the
district court judgment’s potentially preclusive effect.18
First, the intervenor-defendant states receive significant funding from the ACA, which would be discontinued if we affirmed the district court’s judgment
declaring the entire Act unconstitutional. “[F]inancial
loss as a result of” a district court’s judgment is an injury sufficient to support standing to appeal. United
States v. Fletcher ex rel. Fletcher, 805 F.3d 596, 602
(5th Cir. 2015). In their supplemental briefing, the intervenor-defendant states identify a few examples of
the funding sources they would lose under the district
court’s judgment. Evidence in the record shows that
eliminating the Act’s Medicaid expansion provisions
18 At first glance, it may not be entirely clear how a mere partial
summary judgment on the issuance of a declaratory judgment
would aggrieve anyone. But at oral argument, all parties agreed
that the district court’s partial summary judgment would have
binding effect. Indeed, this is partly why the district court issued
a stay. The district court acknowledged that the intervenor-defendant states would be prejudiced by the judgment, which means
that the district court understood it to be binding.

18a
alone would cost the original sixteen intervening state
defendants and the District of Columbia a total of
more than $418 billion in the next decade. See 42
U.S.C.
§§
1396a(a)(10)(A)(i)(VIII),
(e)(14)(I)(i),
1396d(y)(1). Moreover, the Act’s Community First
Choice Option program gives states funding to care for
the disabled and elderly at home or in their communities instead of in institutions.
See 42 U.S.C.
§ 1396n(k). Record evidence shows that eliminating
this program would cost California $400 million in
2020, and that Oregon and Connecticut have already
received $432.1 million under this program. This evidence is more than enough to show that the intervenor-defendant states would suffer financially if the
district court’s judgment is given effect, an injury sufficient to confer standing to appeal. See Dep’t of Commerce v. New York, 139 S. Ct. 2551, 2565 (2019).
The district court’s judgment, if given effect, also
threatens to injure the intervenor-defendant states
with the judgment’s potentially preclusive effect in future litigation. We have held that “[a] party may be
aggrieved by a district court decision that adversely affects its legal rights or position vis-à-vis other parties
in the case or other potential litigants.” Leonard v.
Nationwide Mut. Ins., 499 F.3d 419, 428 (5th Cir.
2007) (quoting Custer v. Sweeney, 89 F.3d 1156, 1164
(4th Cir. 1996)). If the federal defendants began unwinding the ACA, either in reliance on the district
court’s judgment or on their own, the district court’s
judgment would potentially estop the intervenor-defendant states from challenging that action in court.
This case thus stands in contrast to the cases in which
there was no chance whatsoever of a preclusive effect.
See Klamath Strategic Inv. Fund ex rel. St. Croix Ventures v. United States, 568 F.3d 537, 546 (5th Cir.
2009) (holding that there was no threatened injury

19a
from potential estoppel from the appealed-from judgment because that judgment was interlocutory, not final, and therefore could not estop the appealing
party).
Finally, we examine the standing of the U.S. House
of Representatives, which intervened after the case
had been appealed. The Supreme Court’s recent decision in Virginia House of Delegates v. Bethune-Hill
calls the House’s standing to intervene into doubt. 139
S. Ct. at 1953 (“This Court has never held that a judicial decision invalidating a state law as unconstitutional inflicts a discrete, cognizable injury on each
organ of government that participated in the law’s
passage.”). However, we need not resolve the question
of the House’s standing. “Article III does not require
intervenors to independently possess standing” when
a party already in the lawsuit has standing and seeks
the same “ultimate relief” as the intervenor. Ruiz v.
Estelle, 161 F.3d 814, 830 (5th Cir. 1998). That is the
case here: the intervenor-defendant states have standing to appeal, and the House seeks the same relief as
those states. We accordingly pretermit the issue of
whether the House has standing to intervene.
IV.
We now turn to the issue of whether any of the
plaintiffs had Article III standing to bring this case at
the time they brought the lawsuit. To be a case or controversy under Article III, the plaintiffs must satisfy
the same three requirements listed above. First, a
plaintiff must have suffered an “injury in fact”—a violation of a legally protected interest that is “concrete
and particularized,” as well as “actual or imminent,
not ‘conjectural’ or ‘hypothetical.’” Lujan v. Defs. of
Wildlife, 504 U.S. 555, 560 (1992) (quoting Whitmore
v. Arkansas, 495 U.S. 149, 155 (1990)). Second, that

20a
injury must be “fairly . . . trace[able] to the challenged
action of the defendant, and not . . . th[e] result [of] the
independent action of some third party not before the
court.” Id. (alterations in original) (quoting Simon v.
E. Ky. Welfare Rights Org., 426 U.S. 26, 41–42 (1976)).
Third, it must be “likely”—not merely “speculative”—
that the injury will be “redressed by a favorable decision.” Id. at 561 (quoting Simon, 426 U.S. at 38, 43).
The instant case has two groups of plaintiffs: the
individual plaintiffs and the state plaintiffs. Only one
plaintiff need succeed because “one party with standing is sufficient to satisfy Article III’s case-or-controversy requirement.”19 Texas v. United States (DAPA),
809 F.3d 134, 151 (5th Cir. 2015) (quoting Rumsfeld v.
Forum for Acad. & Institutional Rights, Inc., 547 U.S.
47, 52 n.2 (2006)).20 The individual plaintiffs and the
state plaintiffs allege different injuries. We evaluate
each in turn and conclude that both the individual
plaintiffs and the state plaintiffs have standing.
A.
The standing issues presented by the individual
plaintiffs are not novel. The Supreme Court faced a
similar situation when it decided NFIB in 2012. At
oral argument in that case, Justice Kagan asked Gregory Katsas, representing NFIB, whether he thought “a
person who is subject to the [individual] mandate but
not subject to the [shared responsibility payment]
would have standing.” Transcript of Oral Argument
For an academic critique of this approach, see Aaron-Andrew
P. Bruhl, One Good Plaintiff Is Not Enough, 67 Duke L. J. 481
(2017).

19

20 We refer to this 2015 case as “DAPA”—after Deferred Action
for Parents of Americans, the policy at issue there—to prevent
confusion with the present case of the same name.

21a
at 68, Dep’t of Health and Human Servs. v. Florida, 567
U.S. 519 (2012) (No. 11-398). Mr. Katsas replied, “Yes,
I think that person would, because that person is injured by compliance with the mandate.”
Id.
Mr. Katsas explained, “the injury—when that person
is subject to the mandate, that person is required to
purchase health insurance. That’s a forced acquisition
of an unwanted good. It’s a classic pocketbook injury.”
Id. at 68–69.
In 2012, this questioning made sense because neither the individual mandate nor the shared responsibility payment would be assessed for another two
years. Patient Protection and Affordable Care Act,
Pub. L. No. 111-148, § 1501, 124 Stat. 119, 244 (2012)
(requiring insurance coverage “for each month beginning after 2013” and applying the shared responsibility payment for any failure to purchase insurance
“during any calendar year beginning after 2013”). It
was thus certainly imminent that the private plaintiffs would be subject to the individual mandate, which
applies to everyone, but not certain that they would be
subject to the shared responsibility payment, which
exempts certain people. 26 U.S.C. § 5000A(e) (prescribing that “[n]o penalty shall be imposed” on certain
groups of people).21 The distinction was important because a plaintiff “must demonstrate standing for each
claim he seeks to press.” Davis v. Fed. Election
Comm’n, 554 U.S. 724, 734 (2008) (quoting DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 352 (2006)).
To bring a claim against the individual mandate,
therefore, the plaintiffs needed to show injury from the
individual mandate—not from the shared responsibility payment.
21

For the full list of exemptions, see supra note 4.

22a
Accordingly, the district court in NFIB ruled that
the private plaintiffs were injured by the ACA “because of the financial expense [they would] definitively
incur under the Act in 2014,” and the private plaintiffs’ need “to take investigatory steps and make financial arrangements now to ensure compliance then.”
Florida ex rel. Bondi v. U.S. Dep’t of Health & Human
Servs., 780 F. Supp. 2d 1256, 1271 (N.D. Fla. 2011),
aff’d in part and rev’d in part, 648 F.3d 1235 (11th Cir.
2011), aff’d in part and rev’d in part, 567 U.S. 519
(2012). The record evidence in that case supported
this conclusion. Mary Brown, one of the private plaintiffs in that case, for example, had declared that “to
comply with the individual insurance mandate, and
well in advance of 2014, I must now investigate
whether and how to rearrange my personal finance affairs.” Appendix of Exhibits in Support of Plaintiffs’
Motion for Summary Judgment, Florida v. U.S. Dep’t
of Health & Human Servs., No. 3:10-cv-91-RV/EMT
(N.D. Fla. Nov. 10, 2010), ECF No. 80-6. At the Eleventh Circuit, all parties agreed that Mary Brown had
standing. Florida ex rel. Atty. Gen. v. U.S. Dep’t of
Health & Human Servs., 648 F.3d 1235, 1243 (11th
Cir. 2011), aff’d in part and rev’d in part, 567 U.S. 519
(2012) (“Defendants do not dispute that plaintiff
Brown’s challenge to the minimum coverage provision
is justiciable.”). Congress could have reasonably contemplated people like Mary Brown. As Mr. Katsas explained at oral argument in the Supreme Court,
“Congress reasonably could think that at least some
people will follow the law precisely because it is the
law.” Transcript of Oral Argument at 67, Dep’t of
Health & Human Servs. v. Florida, 567 U.S. 519
(2012) (No. 11-398).

23a
The district court in the instant case followed a
similar approach with regard to the individual plaintiffs’ standing.22 It concluded that because the individual plaintiffs are the object of the individual
mandate, which requires them to purchase health insurance that they do not want, those plaintiffs have
demonstrated two types of “injury in fact”: (1) the financial injury of buying that insurance; and (2) the
“increased regulatory burden” that the individual
mandate imposes. In concluding that these injuries
were caused by the individual mandate, the court
made specific fact findings that both Nantz and Hurley purchased insurance solely because they are “obligated to comply with the . . . individual mandate.” The
district court made these findings based on Nantz’s
and Hurley’s declarations, which the intervenor-defendant states never challenged. Because the undisputed evidence showed that the individual mandate
caused these injuries, the district court reasoned that
a favorable judgment would redress both injuries, allowing the individual plaintiffs to forgo purchasing
health insurance and freeing them “from what they essentially allege to be arbitrary governance.”
We agree with the district court. The Supreme
Court has held that when a lawsuit challenges “the legality of government action or inaction, the nature and
extent of facts that must be averred (at the summary
judgment stage) or proved (at the trial stage) in order
to establish standing depends considerably upon
whether” the plaintiffs are themselves the “object[s] of
the action (or forgone action) at issue.” Lujan, 504
U.S. at 561; see also Texas v. EEOC, 933 F.3d 433, 446
22 No party initially questioned the plaintiffs’ standing in the district court. An amicus brief raised the issue, and the intervenordefendant states addressed it at oral argument.

24a
(5th Cir. 2019). “Whether someone is in fact an
object of a regulation is a flexible inquiry rooted in
common sense.” EEOC, 933 F.3d at 446 (quoting Contender Farms, L.L.P. v. U.S. Dep’t of Agric., 779 F.3d
258, 265 (5th Cir. 2015)). If a plaintiff is indeed the
object of a regulation, “there is ordinarily little question that the action or inaction has caused [the plaintiff] injury, and that a judgment preventing or
requiring the action will redress it.” Lujan, 504 U.S.
at 561–62.
It is undisputed that Hurley and Nantz are the objects of the individual mandate and that they have
purchased insurance in order to comply with that mandate. Record evidence supports these conclusions. In
his declaration in the district court, Nantz stated, “I
continue to maintain minimum essential health coverage because I am obligated.” Similarly, Hurley
averred in his declaration that he is “obligated to comply with the ACA’s individual mandate.” They both
explain in their declarations that they “value compliance with [their] legal obligations” and bought insurance because they “believe that following the law is the
right thing to do.” Accordingly, the district court expressly found that Hurley and Nantz bought health
insurance because they are obligated to, and we must
defer to that factual finding. The evidentiary basis for
this injury is even stronger than it was in NFIB. In
the instant case, the individual mandate has already
gone into effect, compelling Nantz and Hurley to purchase insurance now as opposed to two years in the
future.
The intervenor-defendant states fail to point to any
evidence contradicting these declarations, and they
did not challenge this evidence in the district court. In

25a
fact, some of the evidence these parties rely on actually supports the conclusion that Nantz and Hurley
purchased insurance to comply with the individual
mandate.
The
intervenor-defendant
states
acknowledge a 2017 report from the Congressional
Budget Office indicating that “a small number of people” would continue to buy insurance without a penalty “solely because” of a desire to comply with the law.
Cong. Budget Office, Repealing the Individual Health
Insurance Mandate: An Updated Estimate 1 (Nov.
2017). This report is at least somewhat consistent
with a 2008 Congressional Budget Office report, relied
on by the state plaintiffs, that “[m]any individuals”
subject to the mandate, but not the shared responsibility payment, will obtain coverage to comply with the
mandate “because they believe in abiding by the nation’s laws.” Cong. Budget Office, Key Issues in Analyzing Major Health Insurance Proposals 53 (Dec.
2008). Whether this group of law-abiding citizens includes “many individuals” or “a small number of people,” Nantz and Hurley have undisputed evidence
showing that they are a part of this group.
In this context, being required to buy something
that you otherwise would not want is clearly within
the scope of what counts as a “legally cognizable injury.” “Economic injury” of this sort is “a quintessential injury upon which to base standing.”
Tex.
Democratic Party v. Benkiser, 459 F.3d 582, 586 (5th
Cir. 2006); see also Vt. Agency of Nat. Res. v. United
States, 529 U.S. 765, 772–77 (1998) (finding Article III
injury from financial harm); Clinton v. New York, 524
U.S. 417, 432 (1998) (same); Sierra Club v. Morton,
405 U.S. 727, 733–34 (1972) (same); DAPA, 809 F.3d
at 155 (same). In Benkiser, for example, we held that
a political party would suffer an injury in fact because
it would need to “expend additional funds” in order to

26a
comply with the challenged regulation. 459 F.3d at
586. In the instant case, the undisputed record evidence shows that the individual plaintiffs have spent
“additional funds” to comply with the statutory provision that they challenge on constitutional grounds.
This injury, moreover, is “actual,” not merely a
speculative fear about future harm that may or may
not happen. Lujan, 504 U.S. at 560. The record shows
that, at the time of the complaint, Hurley and Nantz
held health insurance, spending money every month
that they did not want to spend. Nantz reports that
his monthly premium is $266.56, and Hurley says his
is $1,081.70. The injury is also “concrete” because it
involves the real expenditure of those funds. See Barlow v. Collins, 397 U.S. 159, 162–63, 164 (1970) (finding a concrete injury when a regulation caused
economic harm from lost profit).
Causation and redressability “flow naturally” from
this concrete, particularized injury. Contender Farms,
779 F.3d at 266. The evidence in the record from Hurley’s and Nantz’s declarations show that they would
not have purchased health insurance but for the individual mandate, and the intervenor-defendant states
have no evidence to the contrary. A judgment declaring that the individual mandate exceeds Congress’
powers under the Constitution would allow Hurley
and Nantz to forgo the purchase of health insurance
that they do not want or need. They could purchase
health insurance below the “minimum essential coverage” threshold, or even decide not to purchase any
health insurance at all.
The intervenor-defendant states make several arguments against this straightforward injury, and all
of them come up short. They first argue that there is
no legally cognizable injury because there is no longer

27a
any penalty for failing to comply. In one sense, this
argument misses the point. The threat of a penalty
that Hurley and Nantz would face under the pre-2017
version of the statute is one potential form of injury,
but it is far from the only one. We have held that the
costs of compliance can constitute an injury just as
much as the injuries from failing to comply. See, e.g.,
Benkiser, 459 F.3d at 586. Thus, in this instance, it is
this injury—the time and money spent complying with
the statute, not the penalty for failing to do so—that
constitutes the plaintiffs’ injury.
But the intervenor-defendant states also argue
that even the costs of compliance cannot count as an
injury in fact if there is no consequence for failing to
comply. The individual mandate’s compulsion cannot
inflict a cognizable injury, they say, because it is not a
compulsion at all. Because the enforcement mechanism has been removed, the U.S. House contends, it is
now merely a suggestion, at most. We recently rejected this argument in Texas v. EEOC, when the
Equal Employment Opportunity Commission tried to
argue that Texas could not challenge its allegedly nonfinal administrative guidance because “the Guidance
does not compel Texas to do anything.” 933 F.3d at
448. We concluded that it would “strain credulity to
find that an agency action targeting current ‘unlawful’
discrimination among state employers—and declaring
presumptively unlawful the very hiring practices employed by state agencies—does not require action immediately enough to constitute an injury-in-fact.” 23
23 The dissenting opinion states that Texas had standing in Texas
v. EEOC because of the “consequences for disobeying the [challenged] guidance—including the possibility that the Attorney
General would enforce Title VII against it.” This depiction of

28a
Id. The individual mandate is no different. Just like
the agency guidance, the individual mandate targets
as “unlawful” the decision to go without health insurance.
The dissenting opinion grounds its discussion of the
issue in the Supreme Court’s decision in Poe v. Ullman,
367 U.S. 497 (1961). There, the Supreme Court rejected a challenge to Connecticut’s criminal prohibition on contraception. The dissenting opinion states
that if there was no standing in Ullman, then there
cannot be standing here. The dissenting opinion
seems to treat Ullman as part of the “pre-enforcement
challenge” line of cases in which the Supreme Court
analyzed claims of injury based on future enforcement
to determine whether the future enforcement was sufficiently imminent. Ullman, however, is not cited in
the seminal Supreme Court cases of that line. See, e.g.,
Susan B. Anthony List v. Driehaus, 573 U.S. 149, 158–
61 (2014); Holder v. Humanitarian Law Project, 561
U.S. 1, 15 (2010); Virginia v. Am. Booksellers Ass’n,
Inc., 484 U.S. 383, 392–93 (1988); Babbitt v. United
Farm Workers Nat’l Union, 442 U.S. 289, 298 (1979);
see also Abbott Labs. v. Gardner, 387 U.S. 136, 154
(1967). More importantly, as we have explained, this

Texas v. EEOC ignores that opinion’s emphasis on the fact that
Texas was “the object of the Guidance.” 933 F.3d at 446; see also
id. (“If, in a suit ‘challenging the legality of government action,’
‘the plaintiff is himself an object of the action . . . there is ordinarily little question that the action or inaction has caused him injury
. . . .’” (quoting Lujan, 504 U.S. at 561–62)). As explained above,
the individual plaintiffs in this case are the objects of the individual mandate.

29a
case is not a pre-enforcement challenge because the
plaintiffs have already incurred a financial injury.24
The plurality opinion in Ullman said there was insufficient adversity between the parties because there
was overwhelming evidence—eighty years’ worth of no
enforcement of the statute—of “tacit agreement” between prosecutors and the public not to enforce the
anti-contraceptive laws that the plaintiffs challenged.
367 U.S. at 507–08. As a result, the Court held that
the lawsuit before it was “not such an adversary case
as will be reviewed here.” Id. The fifth, controlling
vote in that case—Justice Brennan, who concurred in
the judgment—emphasized that this adverseness was
lacking because of the case’s “skimpy record,” devoid of
evidence that the “individuals [were] truly caught in
an inescapable dilemma.” Id. at 509 (Brennan, J., concurring).
By contrast, as documented above, the record in the
instant case contains undisputed evidence that Nantz
and Hurley feel compelled by the individual mandate
The dissenting opinion also relies on City of Austin v. Paxton,
No. 18-50646, ___ F.3d ____, 2019 WL 6520769 (5th Cir. Dec. 4,
2019). That reliance is confusing because City of Austin is an Ex
parte Young case, not a standing case. For the Ex parte Young
exception to Eleventh Amendment sovereign immunity to apply,
the state official sued “must have ‘some connection with enforcement of the challenged act.’” Id. at *2 (alteration omitted) (quoting Ex parte Young, 209 U.S. 123, 157 (1908)). In City of Austin,
the City’s claims against the Texas Attorney General failed because the City failed to show the requisite connection to enforcement under Ex parte Young. Of course, because this is a lawsuit
against the federal government, neither the Eleventh Amendment nor Ex parte Young applies. Moreover, even if City of Austin had been a pre-enforcement challenge standing case, it would
still be irrelevant because this case is not a pre-enforcement challenge.
24

30a
to buy insurance and that they bought insurance
solely for that reason. Especially in light of the fact
that the individual mandate lacks a similar eightyyear history of nonenforcement, Nantz and Hurley
have gone much further in demonstrating that they
are caught in the “inescapable dilemma” that the
Ullman plaintiffs were not.
The intervenor-defendant states also argue that
there is no causation between the individual mandate
and Hurley and Nantz’s purchase of insurance because Hurley and Nantz exercised a voluntary “choice”
to purchase insurance. Because Nantz and Hurley
would face no consequence if they went without insurance, the intervenor-defendant states argue that their
purchase of insurance is not fairly traceable to the federal defendants. Instead, they claim that Nantz and
Hurley impermissibly attempt to “manufacture standing merely by inflicting harm on themselves.” Glass
v. Paxton, 900 F.3d 233, 239 (5th Cir. 2018) (quoting
Clapper v. Amnesty Int’l USA, 568 U.S. 398, 416
(2013)).
This argument fails, however, because it conflates
the merits of the case with the threshold inquiry of
standing. The argument assumes that 26 U.S.C.
§ 5000A presents not a legal command to purchase insurance, but an option between purchasing insurance
and doing nothing. Because this option exists, the argument goes, any injury arising from Hurley’s and
Nantz’s decisions to buy insurance instead of doing
nothing (the other putative option) is entirely self-inflicted. This, however, is a merits question that can be
reached only after determining the threshold issue of
whether plaintiffs have standing.
Texas v. EEOC makes clear that courts cannot fuse
the standing inquiry into the merits in this way.

31a
There, in addition to the injury described above from
the Guidance’s rebuke of Texas’s employment practices as “unlawful,” Texas claimed it was injured by
the EEOC’s curtailing of Texas’s procedural right to
notice and comment before being subject to a regulation. EEOC, 933 F.3d at 447. In rejecting the suggestion that Texas was not truly injured because the
EEOC had not in fact violated the Administrative Procedure Act’s notice-and-comment rules, we held that
“[w]e assume, for purposes of the standing analysis,
that Texas is correct on the merits of its claim that the
Guidance was promulgated in violation of the APA.”
Id. (citing Sierra Club v. EPA, 699 F.3d 530, 533 (D.C.
Cir. 2012)); see also Bennett v. Spear, 520 U.S. 154,
177–78 (1997) (treating constitutional standing and finality as distinct inquiries).
Indeed, allowing a consideration of the merits as
part of a jurisdictional inquiry would conflict with the
Supreme Court’s express decision in Steel Co v. Citizens for a Better Environment to not abandon “two centuries of jurisprudence affirming the necessity of
determining jurisdiction before proceeding to the merits.” 523 U.S. 83, 98 (1998). That case presented both
the question of Article III standing and the merits
question of whether the relevant statute authorized
lawsuits for purely past violations. Id. at 86. The
Court rejected any “attempt to convert the merits issue
. . . into a jurisdictional one.” Id. at 93. The Court further rejected the “doctrine of hypothetical jurisdiction,” under which certain courts of appeals had
“proceed[ed] immediately to the merits question, despite jurisdictional objections” in certain circumstances. Id. at 93–94. As the district court correctly
noted, that is exactly what the appellants ask this
court to do. They urge us to “skip ahead to the merits
to determine § 5000A(a) is non-binding and therefore

32a
constitutional and then revert to the standing analysis
to use its merits determination to conclude there was
no standing to reach the merits in the first place.”
Moreover, even if we were to consider the merits as
part of our jurisdictional inquiry, it would not make a
difference in this case. Because we conclude in
Part IV of this opinion that the individual mandate is
best read as a command to purchase insurance (and an
unconstitutional one at that), rather than as an option
between buying insurance or doing nothing, the individual plaintiffs would have standing even if we considered the merits.25
B.
We next consider whether the eighteen state plaintiffs have standing, and we conclude that they do. 26
The state plaintiffs allege that the ACA causes them
both a fiscal injury as employers and a sovereign injury “because it prevents them from applying their
own laws and policies governing their own healthcare
markets.” State Plaintiffs’ Br. at 25. In DAPA, we determined that the state of Texas was entitled to special solicitude because it was “exercising a procedural
right created by Congress and protecting a ‘quasi-sovEven if the individual plaintiffs did not have standing, this case
could still proceed because the state plaintiffs have standing.
DAPA, 809 F.3d at 151 (holding that only one plaintiff needs
standing for the court to exercise jurisdiction). “This circuit follows the rule that alternative holdings are binding precedent and
not obiter dictum.” Id. at 178 n.158 (quoting United States v.
Potts, 644 F.3d 233, 237 n.3 (5th Cir. 2011)).
25

26 Likewise, even if the state plaintiffs did not have standing, this
case could still proceed because the individual plaintiffs have
standing. DAPA, 809 F.3d at 151 (holding that only one plaintiff
needs standing for the court to exercise jurisdiction).

33a
ereign’ interest.” DAPA, 809 F.3d at 162 (quoting Massachusetts v. EPA, 549 U.S. 497, 520 (2007)); see also
id. at 154–55. Because the state plaintiffs in this case
have suffered fiscal injuries as employers, we need not
address special solicitude or the alleged sovereign injuries.
Employers, including the state plaintiffs, are required by the ACA to issue forms verifying which employees are covered by minimum essential coverage
and therefore do not need to pay the shared responsibility payment. See 26 U.S.C. § 6055(a) (“Every person
who provides minimum essential coverage to an individual during a calendar year shall, at such time as
the Secretary may prescribe, make a return described in subsection (b).”); 26 U.S.C. § 6056(a)
(“Every applicable large employer [that meets certain
statutory requirements] shall . . . make a return described in subsection (b).”). These provisions have led
to Form 1095-B and 1095-C statements that employees receive from their employers around tax time,
which include a series of check boxes indicating the
months that employees had health coverage that complies with the ACA. State Plaintiffs’ Br. at 23. These
legally required reporting practices exist on top of
state employers’ own in-house administrative systems
for managing and tracking their employees’ health insurance coverage.
The record is replete with evidence that the individual mandate itself has increased the cost of printing and processing these forms and of updating the
state employers’ in-house management systems. For
example, Thomas Steckel, the director of the Division
of Employee Benefits within the South Dakota Bureau
of Human Resources, submitted a declaration documenting the administrative costs that the individual

34a
mandate has imposed by way of these reporting requirements. He said, “[t]he individual mandate
caused significant administrative burdens and expenses to program our IT system to track and report
ACA eligible employees and complete mandatory IRS
Form 1095 annual reports.” Steckel noted specifically
that “the individual mandate caused . . . $100,000.00
[in] ongoing costs” for Form 1095-C administration
alone. The dissenting opinion discards this evidence
as conclusory. But as even counsel for the intervenordefendant states admitted at oral argument, nobody
challenged this evidence as conclusory in the district
court or in the appellate court.27 Oral Argument at
5:12.
27 The reason why is obvious: the evidence is not conclusory. This
is bread-and-butter summary judgment practice, not, as the dissenting opinion contends, any “new summary-judgment rule.” Of
course, a properly-included affidavit must be based on personal
knowledge, and conclusory facts and statements on information
and belief cannot be utilized. See Charles Alan Wright and Arthur R. Miller, Federal Practice and Procedure, § 2738 (4th ed.
2019). The Steckel affidavit easily satisfies this standard: it is a
detailed 8-page declaration. Steckel attested, under penalty of
perjury, that he is “responsible for developing and implementing
the State’s health plan for state employees” and that he is “particularly familiar with changes in costs, plans, and policies related to the enactment of the ACA because of my role as the
Director of the Division [of Employee Benefits].” He estimates
the financial costs the individual mandate has caused in nine different categories, including ongoing costs of $10,400 for review of
denied appeals, ongoing costs of $100,000 for Form 1095-C administration, and a one-time cost of $3,302,942 as a Transitional
Reinsurance Program fee. For other costs, such as the pre-existing conditions prohibition and the expanded eligibility for adult
dependent children to age 26, he conceded that he was “unable to
accurately estimate the ongoing costs of this mandate.” A determination of standing is supported by the administration of

35a
South Dakota is far from the only state that has
been harmed from the financial cost of the reporting
requirements that the individual mandate aggravates. Judith Muck, the Executive Director of the Missouri Consolidated Health Care Plan, reported that
Missouri’s costs for preparing 1095-B forms, along
with 1094-B forms, are projected to be $47,300 in fiscal
year 2019 and $49,200 in fiscal year 2020. Similarly,
Teresa MacCartney, the Chief Financial Officer of the
State of Georgia and the Director of the Georgia Governor’s Office of Planning and Budget, reported that
Georgia’s overall cost of compliance with the ACA’s reporting requirements “is an estimated net $3.6 million
to date.” MacCartney also reported that after the
ACA’s implementation, Georgia’s Department of Community Health “experienced increased enrollment of
individuals already eligible for Medicaid benefits under pre-ACA eligibility standards.” This enrollment
increase required the Department to enhance its management systems, which was “very costly.” Blaise Duran, who is the Manager for Underwriting, Data
Analysis and Reporting for the Employees Retirement
System of Texas, further documented Texas’ costs of
the reporting requirements.
He declared that the
Texas Employees Group Benefits Program “has made
administrative process changes in connection with its
ACA compliance, such as those related to the provision

Form 1095-C, the CBO’s prediction that some individuals will
continue to purchase insurance in the absence of a shared responsibility payment, the fact that two such individuals are before
this court, and the Supreme Court’s observation that “third parties will likely react in predictable ways.” Department of Commerce, 139 S. Ct. at 2566.

36a
of Form 1095-Bs to plan participants and the Internal
Revenue Service.”28
The intervenor-defendant states and the U.S.
House have not challenged the state plaintiffs’ evidence or presented any evidence to the contrary. Instead, they argue that the reporting requirements set
forth in Sections 6055(a) and 6056(a) “are separate
from the mandate and serve independent purposes.”
U.S. House Reply Br. at 19. Therefore, they claim,
“any resulting injury is thus neither traceable to Section 5000A nor redressable by its invalidation.” U.S.
House Reply Br. at 19. But this misreads the undisputed evidence in the record. The individual mandate
commands individuals to get insurance. Every time
an individual gets that insurance through a state employer, the state employer must send the individual a
form certifying that he or she is covered and otherwise
process that information through in-house management systems.29 Thus, the reporting requirements in
This list is not exhaustive. For instance, Arlene Larson, Manager of Federal Health Programs and Policy for Wisconsin Employee Trust Funds, declared that the state expended funds by
“hir[ing] a vendor to issue 343 Form 1095-Cs” in 2017. And Mike
Michael, Director of the Kansas State Employee Health Plan,
averred that reporting for Form 1094 and 1095 cost the state
$43,138 in 2017 and $38,048 in 2018. No record evidence indicates that these reporting requirements have been eliminated.
Moreover, the “standing inquiry remains focused on whether the
party invoking jurisdiction had the requisite stake in the outcome
when the suit was filed.” Davis v. Fed. Election Comm’n, 554 U.S.
724, 734 (2008).
28

29 Relying on this injury, therefore, does not run afoul of Nat’l
Fed. of the Blind of Texas v. Abbott, 647 F.3d 202 (5th Cir. 2011).
That case prevents plaintiffs from claiming injury based on provisions whose enforcement would be enjoined only if they are inseverable from an unconstitutional provision that does not harm

37a
Sections 6055(a) and 6056(a) flow from the individual
mandate set forth in Section 5000A(a).
These costs to the state plaintiffs are well-established.30 Moreover, the continuing nature of these fiscal injuries is consistent with Fifth Circuit and
Supreme Court precedent.
the plaintiff. Id. at 210–11. The state plaintiffs’ injuries stem
from the increased administrative costs created by the individual
mandate itself, not from other provisions. To be sure, those costs
are created in part by the individual mandate’s practical interaction with other ACA provisions, like the reporting requirements.
But this is no different from the injuries in DAPA, where the challenged action interacted with Texas’s driver’s license regulations.
It is also no different from Department of Commerce, where the
challenged census question interacted with constitutional rules
tying political representation to a state’s population.
30 The dissenting opinion, citing no authority, contends that the
state plaintiffs need evidence that at least one specific “employee
enrolled in one of state plaintiffs’ health insurance programs
solely because of the unenforceable coverage requirement.” We
have already explained why the uncontested affidavits suffice.
We note, moreover, that the DAPA court found that Texas had
standing because “it would incur significant costs in issuing
driver’s licenses to DAPA beneficiaries”—without requiring that
Texas first show that it had issued a specific license to a specific
illegal alien because of DAPA. Finally, the dissenting opinion’s
rule would create a split with our sister circuits. See Massachusetts v. United States Dep’t of Health & Human Servs., 923 F.3d
209, 225 (1st Cir. 2019) (“[Massachusetts] need not point to a specific person who will be harmed in order to establish standing in
situations like this.”); California v. Azar, 911 F.3d 558, 572 (9th
Cir. 2018), cert. denied sub nom. Little Sisters of the Poor Jeanne
Jugan Residence v. California, 139 S. Ct. 2716 (2019) (“Appellants
fault the states for failing to identify a specific woman likely to
lose coverage. Such identification is not necessary to establish
standing.”); Pennsylvania v. President United States, 930 F.3d
543, 564 (3d Cir. 2019), as amended (July 18, 2019) (“The Government faults the States for failing to identify a specific woman who

38a
In DAPA, we held that the state of Texas had
standing to challenge the federal government’s DAPA
program because it stood to “have a major effect on the
states’ fisc.” Id. at 152. This was because, if DAPA
were permitted to go into effect, it would have “enable[d] at least 500,000 illegal aliens in Texas” to satisfy
Texas’s requirements that the Department of Public
Safety “‘shall issue’ a license to a qualified applicant,”
including noncitizens who present “documentation issued by the appropriate United States agency that authorizes the applicant to be in the United States.” Id.
at 155 (quoting Tex. Transp. Code §§ 521.142(a),
521.181). Evidence in the record showed that Texas,
which subsidizes its licenses, would “lose a minimum of
$130.89 on each one it issued to a DAPA beneficiary.”
Id. Even a “modest estimate” of predictable thirdparty behavior would rack up costs of “several million
dollars.” Id.
The Supreme Court recently applied a similar analysis in Department of Commerce v. New York, 139 S.
Ct. 2551 (2019). In that case, a group of state and local
governments sued to prevent the federal government
from including a question about citizenship status on
the 2020 census. Id. at 2563. The Supreme Court held
that these plaintiffs had standing because they met
their burden “of showing that third parties will likely
react in predictable ways to the citizenship question.”
Id. at 2566. The census question would likely lead to
“noncitizen households responding . . . at lower rates
than other groups, which in turn would cause them to
be undercounted.” Id. at 2565. This undercounting of

will be affected by the Final Rules, but the States need not define
injury with such a demanding level of particularity to establish
standing.”).

39a
third parties would injure the state and local governments by “diminishment of political representation,
loss of federal funds, degradation of census data, and
diversion of resources.” Id.
In both DAPA and Department of Commerce, the
state plaintiffs demonstrated injury by showing that
the challenged law would cause third parties to behave
in predictable ways, which would inflict a financial injury on the states. The instant case is no different.
The individual mandate commands people to ensure
that they have minimum health insurance coverage.
That predictably causes more people to buy insurance,
which increases the administrative costs of the states
to report, manage, and track the insurance coverage of
their employees and Medicaid recipients.31
V.
Having concluded that both groups of plaintiffs
have standing to bring this lawsuit, we must next determine whether the individual mandate is a constitutional exercise of congressional power. We conclude
that it is not. We first discuss the Supreme Court’s
holding in NFIB, and then we explain why, under that

The dissenting opinion contends that our opinion is inconsistent because we rely on Department of Commerce, in which the
Court found that some individuals will predictably violate the
law, in explaining why some individuals will predictably “follow
the law regardless of the incentives.” In a large group, there will
predictably be some individuals in each category. Even the dissenting opinion accepts the Congressional Budget Office’s projection that some people will buy insurance solely because of a desire
to comply with the law. See Cong. Budget Office, Repealing the
Individual Health Insurance Mandate: An Updated Estimate 1
(Nov. 2017).

31

40a
holding, the individual mandate is no longer constitutional.
A.
The NFIB opinion was extremely fractured. In
that case, Chief Justice Roberts wrote an opinion addressing several issues. Parts of that opinion garnered a majority of votes and served as the opinion of
the Court.32 In relevant part, Part III-A of the Chief
Justice’s opinion, joined by no other Justice, observed
that “[t]he most straightforward reading of the [individual] mandate is that it commands individuals to
purchase insurance,” and that, using that reading of
the statute, the individual mandate is not a valid exercise of Congress’ power under the Interstate Commerce Clause. NFIB, 567 U.S. at 562, 546–61
(Roberts, C.J.). The Constitution, he explained, “gave
Congress the power to regulate commerce, not to compel it.” Id. at 555 (Roberts, C.J.). For similar reasons,
As a general overview, Chief Justice Roberts’s opinion functioned in the following way. In Part III-A, Chief Justice Roberts
said that the individual mandate was most naturally read as a
command to buy insurance, which could not be sustained under
either the Interstate Commerce Clause or the Necessary and
Proper Clause. Though no Justice joined this part of the opinion,
the four dissenting Justices—Justices Scalia, Kennedy, Thomas,
and Alito—agreed with Part III-A in a separate opinion. In Part
III-B, the Chief Justice wrote that even though the most natural
reading of the individual mandate was unconstitutional, the
Court still needed to determine whether it was “fairly possible”
to read the provision in a way that saved it from being unconstitutional. In Part III-C, the Chief Justice—joined by Justices
Ginsburg, Breyer, Kagan, and Sotomayor—concluded that the
provision could be construed as constitutional by reading the individual mandate, in conjunction with the shared responsibility
payment, as a legitimate exercise of Congress’ taxing power. This
last part of the opinion supported the Court’s ultimate judgment:
that the individual mandate was constitutional as saved.

32

41a
the Chief Justice concluded that this command to purchase insurance could not be sustained under the Constitution’s Necessary and Proper Clause. Id. The
individual mandate was not “proper” because it expanded federal power, “vest[ing] Congress with the extraordinary ability to create the necessary predicate to
the exercise of” its Interstate Commerce Clause powers. Id. at 560.
Though no other Justices joined this part of the
Chief Justice’s opinion, the “joint dissent”—joined by
Justices Scalia, Kennedy, Thomas, and Alito—
reached the same conclusions on the Interstate Commerce Clause and Necessary and Proper Clause questions. Id. at 650–60 (joint dissent). A majority of the
court, therefore, concluded that the individual mandate is not constitutional under either the Interstate
Commerce Clause or the Necessary and Proper
Clause.
This limited reading of the Interstate Commerce
Clause—and, by extension, of the Necessary and
Proper Clause—was necessary to preserving “the
country [that] the Framers of our Constitution envisioned.” Id. at 554 (Roberts, C.J.). As Chief Justice
Roberts observed, if the individual mandate were a
proper use of the power to regulate interstate commerce, that power would “justify a mandatory purchase to solve almost any problem.” Id. at 553
(Roberts, C.J.). If Congress can compel the purchase
of health insurance today, it can, for example, micromanage Americans’ day-to-day nutrition choices tomorrow. Id. (Roberts, C.J.); see also id. at 558 (Roberts,
C.J.) (reasoning that, under an expansive view of the
Commerce Clause, nothing would stop the federal government from compelling the purchase of broccoli).

42a
An expansive reading of the Interstate Commerce
Clause would be foreign to the Framers, who saw the
clause as “an addition which few oppose[d] and from
which no apprehensions [were] entertained.” Id. at
554 (Roberts, C.J.) (quoting The Federalist No. 45, at
293 (J. Madison) (C. Rossiter ed., 1961)). Elevating
Congress’ power to “regulate commerce . . . among the
several states,” U.S. Const. art. I, § 8, cl. 3, to a power
to create commerce among the several states would
make a Leviathan of the federal government, “everywhere extending the sphere of its activity and drawing
all power into its impetuous vortex.” NFIB, 567 U.S.
at 554 (Roberts, C.J.) (quoting The Federalist No. 48,
at 309 (J. Madison) (C. Rossiter ed., 1961)). Justice
Scalia, writing for the joint dissenters, similarly noted
that the more expansive reading of the Interstate Commerce Clause would render that provision a “font of unlimited power,” id. at 653 (joint dissent), or, in the
words of Alexander Hamilton, a “hideous monster
whose devouring jaws . . . spare neither sex nor age,
nor high nor low, nor sacred nor profane,” id. (quoting
The Federalist No. 33, at 202 (C. Rossiter ed., 1961)).
In Part III-B, again joined by no other Justice,
Chief Justice Roberts concluded that because the individual mandate found no constitutional footing in the
Interstate Commerce or Necessary and Proper
Clauses, the Supreme Court was obligated to consider
the federal government’s argument that, as an exercise
in constitutional avoidance, the mandate could be read
not as a command but as an option to purchase insurance or pay a tax. This “option” interpretation of the
statute could save the statute from being unconstitutional, as it would be justified under Congress’ taxing
power. Id. at 561–63 (Roberts, C.J.); see also id. at 562
(Roberts, C.J.) (“No court ought, unless the terms of an
act rendered it unavoidable, to give a construction to

43a
it which should involve a violation, however unintentional, of the constitution.”) (quoting Parsons v. Bedford, 28 U.S. (3 Pet.) 433, 448–49 (1830)); see also id.
at 563 (Roberts, C.J.) (“The question is not whether
that is the most natural interpretation of the mandate,
but only whether it is a ‘fairly possible’ one.”) (quoting
Crowell v. Benson, 285 U.S. 22, 62 (1932)).
In Part III-C, the Chief Justice—writing for a majority of the Court, joined by Justices Ginsburg,
Breyer, Sotomayor, and Kagan—undertook that inquiry of determining whether it was “fairly possible”
to read the individual mandate as an option and
thereby save its constitutionality. See id. at 563–74
(majority opinion). Chief Justice Roberts reasoned
that the individual mandate could be read in conjunction with the shared responsibility payment in order
to save the individual mandate from unconstitutionality. Read together with the shared responsibility payment, the entire statutory provision could be read as a
legitimate exercise of Congress’ taxing power for four
reasons.
First and most fundamentally, the shared-responsibility payment “yield[ed] the essential feature of any
tax: It produce[d] at least some revenue for the Government.” Id. at 564. Second, the shared-responsibility payment was “paid into the Treasury by taxpayers
when they file their tax returns.” Id. at 563 (alternations and internal quotation marks omitted). Third,
the amount owed under the ACA was “determined by
such familiar factors as taxable income, number of dependents, and joint filing status.” Id. Fourth and finally, “[t]he requirement to pay [was] found in the
Internal Revenue Code and enforced by the IRS, which
. . . collect[ed] it in the same manner as taxes.” Id. at
563–64 (internal quotation marks omitted).

44a
Because of these four attributes of the shared responsibility payment, the Court reasoned that “[t]he
Federal Government does have the power to impose a
tax on those without health insurance.” Id. at 575.
The Court concluded that “[s]ection 5000A is therefore
constitutional, because it can reasonably be read as a
tax.”33 Id. We agree with the dissenting opinion that
“this case begins and ought to end” with NFIB.
B.
Now that the shared responsibility payment
amount is set at zero, 34 the provision’s saving construction is no longer available. The four central attributes that once saved the statute because it could
be read as a tax no longer exist. Most fundamentally,
the provision no longer yields the “essential feature of
any tax” because it does not produce “at least some
Seven Justices—Chief Justice Roberts and Justices Scalia,
Kennedy, Thomas, Breyer, Alito, and Kagan—agreed that the
Act’s Medicaid-expansion provisions unconstitutionally coerced
states into compliance. NFIB, 567 U.S. at 575–85 (plurality opinion); id. at 671–89 (joint dissent). But, in light of a severability
clause, Part IV–B of the Chief Justice’s opinion concluded that the
unconstitutional portion of the Medicaid provisions could be severed. Id. at 585–88 (plurality opinion). Meanwhile, Justice Ginsburg, joined by Justice Sotomayor, disagreed that the Act’s
mandatory Medicaid expansion was unconstitutional. Id. at 633
(Ginsburg, J., concurring in the judgment in part, and dissenting
in part). Those two Justices concurred in the judgment with respect to the Chief Justice’s conclusion that the unconstitutional
provisions could be severed from the remainder of the Act. Id. at
645–46 (Ginsburg, J., concurring in the judgment in part, and
dissenting in part). The four dissenting Justices concluded that
the Act’s Medicaid-expansion provisions were unconstitutionally
coercive and rejected the relief of allowing states to opt into Medicaid expansion. Id. at 671–90 (joint dissent).

33

34

26 U.S.C. §§ 5000A(c)(2)(B)(iii), (c)(3)(A).

45a
revenue for the Government.” Id. at 564. Because the
provision no longer produces revenue, it necessarily
lacks the three other characteristics that once rendered the provision a tax. The shared-responsibility
payment is no longer “paid into the Treasury by taxpayer[s] when they file their tax returns” because the
payment is no longer paid by anyone. Id. at 563 (alteration in original and internal quotation marks
omitted). The payment amount is no longer “determined by such familiar factors as taxable income,
number of dependents, and joint filing status.” Id. The
amount is zero for everyone, without regard to any of
these factors. The IRS no longer collects the payment
“in the same manner as taxes” because the IRS cannot
collect it at all.
Id. at 563–64 (internal quotation
marks omitted).
Because these four critical attributes are now missing from the shared responsibility payment, it is, in
the words of the state plaintiffs, “no longer ‘fairly possible’ to save the mandate’s constitutionality under
Congress’ taxing power.” State Plaintiffs’ Br. at 32.
The proper application of NFIB to the new version of
the statute is to interpret it according to what Chief
Justice Roberts—and four other Justices of the
Court—said was the “most straightforward” reading
of that provision: a command to purchase insurance.
Id. at 562 (Roberts, C.J.). As the district court
properly observed, “the only reading available is the
most natural one.” Under that reading, the individual
mandate is unconstitutional because, under NFIB, it
finds no constitutional footing in either the Interstate
Commerce Clause or the Necessary and Proper
Clause. Id. at 546–61 (Roberts, C.J.); id. at 650–60
(joint dissent).

46a
The intervenor-defendant states have several arguments against this conclusion, all of which fail.
They first argue that the saving construction of the individual mandate, interpreting the provision as an option to buy insurance or pay a tax, is still “fairly
possible.” As the individual plaintiffs point out, the
Court interpreted the individual mandate as an option
only because doing so would save it from being unconstitutional. Accordingly, the intervenor-defendant
states must show that the “option” would still be a constitutional exercise of Congress’ taxing power. To
make that showing, the intervenor-defendant states
reject the plaintiffs’ attempt to read a “some revenue”
requirement into the Constitution’s Taxing and
Spending Clause, arguing instead for a potential-toproduce-revenue requirement. The individual mandate, they say, is still set out in the Internal Revenue
Code. It still provides a “statutory structure through
which” Congress could eventually tax people for failing
to buy insurance. It still includes references to taxable
income, number of dependents, and joint filing status.
26 U.S.C. §§ 5000A(b)(3), (c)(2), (c)(4). Further, it still
does not apply to individuals who pay no federal income taxes. 26 U.S.C. § 5000A(e)(2).
The intervenor-defendant states have little support for this reading of the Taxing and Spending
Clause. For starters, NFIB could not be clearer that
the “produc[tion]” of “at least some revenue for the
Government”—not the potential to produce that revenue—is “the essential feature of any tax.” 567 U.S. at
564 (majority opinion) (emphasis added). As the district court observed, when determining whether a statute is a tax, the actual production of revenue is “not
indicative, not common—[but] essential.”

47a
The intervenor-defendant states also find no support in United States v. Ardoin, 19 F.3d 177, 179–80
(5th Cir. 1994). In that unusual case, Congress had
imposed a tax on machine guns, but subsequently outlawed machine guns altogether, which prompted the
relevant agency to stop collecting the tax. Id. at 179–
80.
The defendant was convicted not only for possessing a machine gun but also for failing to pay the
tax, which remained on the books. Id. at 178. The
court upheld the conviction on the basis that the tax
law at issue could “be upheld on the preserved, but unused, power to tax or on the power to regulate interstate commerce.” Id. at 180. But the taxing power was
“preserved” in Ardoin because it was non-revenue-producing only in practice whereas the “tax” here is actually $0.00 as written on the books. 35 See Fed.
Defendants’ Br. at 32. Expanding Ardoin to apply
here would, as the federal defendants point out, puzzlingly allow Congress to “prohibit conduct that exceeds
its commerce power through a two-step process of first
taxing it and then eliminating the tax while retaining
the prohibition.” Fed. Defendants’ Br. at 32.
The intervenor-defendant states argue further that
the individual mandate does not even need constitutional justification because it is merely a suggestion,
not binding legislative action. The individual mandate, they contend, is no different from the Flag Code,
which, though entered into the pages of the U.S. Code,
This distinction also disposes of the intervenor-defendant
states’ concern about “cast[ing] constitutional doubt on taxes
with delayed start dates or that Congress has temporarily suspended for periods of time.” Intervenor-Defendant States’ Br. at
43. In none of the examples the intervenor-defendant states cite
did the statute purport to levy a “tax” of $0.00.

35

48a
“was not intended to proscribe conduct.” Dimmitt v.
City of Clearwater, 985 F.2d 1565, 1573 (11th Cir.
1993) (analyzing 36 U.S.C. §§ 174–76). This argument is just a repackaged version of their argument
that the individual mandate can still be read as an option. But, as the state plaintiffs, the individual plaintiffs, and the federal defendants point out, the
Supreme Court has already held that the “most
straightforward” reading of the individual mandate—
which emphatically demands that individuals “shall”
buy insurance, 26 U.S.C. § 5000A(a)—is as a command
to purchase health insurance. The Court then concluded that that command lacked constitutional justification. The zeroing out of the shared responsibility
payment does not render the provision any less of a
command. Quite the opposite: Chief Justice Roberts
concluded that the greater-than-zero shared responsibility payment actually converted the individual mandate into an option. NFIB, 567 U.S. at 563–64
(majority opinion). Now that the shared responsibility
payment has been zeroed out, the only logical conclusion under NFIB is to read the individual mandate as
a command, quite unlike the Flag Code. It is an individual mandate, not an individual suggestion.
Moreover, it is not true that when the Court adopts
a limiting construction to avoid constitutional questions, that construction controls as to all applications
of the statute, regardless of whether the original constitutional implications are present. The case on
which the U.S. House relies involved different applications of an identical statute to different facts. Clark
v. Martinez, 543 U.S. 371, 380 (2005) (rejecting the argument that “the constitutional concerns that influenced” a previous interpretation of a provision of the
Immigration and Nationality Act were “not present

49a
for” the aliens at issue in that case). This case is readily distinguishable because the four characteristics
that made the previous interpretation possible—the
production of revenue and other tax-like features—
have now been legislatively removed. The limiting
construction is no longer available as a matter of statutory interpretation. The interpretation must accordingly change to comport with what five Justices of the
Supreme Court have said is the “most straightforward
reading” of that interpretation.36
The dissenting opinion justifies its continued reliance on the saving construction—even though it is no
longer applicable—by citing Kimble v. Marvel Entm’t,
LLC, 135 S. Ct. 2401 (2015). This approach fares no
better. The dissenting opinion quotes Kimble to say
that “in whatever way reasoned,” the Court’s interpretation “effectively become[s] part of the statutory
scheme, subject . . . to congressional change.” Id. at
2409. The dissenting opinion correctly acknowledges
that the individual mandate was never changed. But
what did change was the provision that actually mattered: the shared responsibility payment. When it
was set above zero, it could be saved as a tax, even
Contrary to the dissenting opinion’s suggestion, a saving construction is no longer available. The canon of constitutional
avoidance applies only “when statutory language is susceptible of
multiple interpretations.” Jennings v. Rodriguez, 138 S. Ct. 830,
836 (2018). In NFIB, § 5000A was amenable to two possible interpretations. It was either “a command to buy insurance” or “a
tax.” NFIB, 567 U.S. at 574 (Roberts, C.J.). After Congress zeroed out the shared responsibility payment, one of those possible
interpretations fell away. What was then the “most straightforward reading” is now the only available reading: it is a “command
to buy insurance” and “the Commerce Clause does not authorize
such a command.” Id.

36

50a
though five justices agreed this was an unnatural
reading. It would be puzzling if Congress could change
a statute at will, entirely insulated from constitutional
infirmity, just because the Court had previously used
constitutional avoidance to save a previous version of
the statute.
The intervenor-defendant states argue furthermore that the individual mandate can now be constitutional under the Interstate Commerce Clause
because it does not compel anyone into commerce.
This is again a repackaged version of their argument
that the individual mandate is an option even without a revenue-generating shared responsibility payment, an argument that, as the state plaintiffs point
out, the Supreme Court has already rejected. This argument, as the district court observed, is also logically
inconsistent. If the individual mandate no longer
truly compels anything, then it can hardly be said to
be a “regulat[ion]” of interstate commerce. In the
words of the district court, the intervenor-defendant
states “hope to have their cake and eat it too.”37
Finally, we would be remiss if we did not engage
with the dissenting opinion’s contention that § 5000A
is not an exercise of legislative power. This would
likely come as a shock to the legislature that drafted
it, the president who signed it, and the voters who celebrated or lamented it. It is not surprising that the
Any argument that the individual mandate can now be sustained under the Necessary and Proper Clause fails for the same
reasons. The individual mandate now must be read as a command, and five Justices in NFIB already rejected the argument
that such a command could be sustained under the Necessary and
Proper Clause. NFIB, 567 U.S. at 561 (Roberts, C.J.); id. at 654–
55 (joint dissent).
37

51a
dissenting opinion can cite no case in which a federal
court deems a duly enacted statute not an exercise of
legislative power, much less a statute that clearly
commands that an individual “shall” do something.38
The dissenting opinion is inconsistent on this point: it
argues that the provision’s status as an exercise of legislative power fluctuates according to the amount of
the shared responsibility payment while simultaneously contending that “if the text of the coverage requirement has not changed, its meaning could not
have changed either.” Our decision breaks no new
ground. We simply observe that § 5000A was originally cognizable as either a command or a tax. Today,
it is only cognizable as a command. It has always been
an exercise of legislative power.
***
In NFIB, the individual mandate—most naturally
read as a command to purchase insurance—was saved
from unconstitutionality because it could be read together with the shared responsibility payment as an
option to purchase insurance or pay a tax. It could be
read this way because the shared responsibility payment produced revenue. It no longer does so. Therefore, the most straightforward reading applies: the
38 The dissenting opinion’s theory of the “law that does nothing”
results in some bizarre metaphysical conclusions. The ACA was
signed into law in 2010. No one questions that when it was
signed, § 5000A was an exercise of legislative power. Yet today,
the dissenting opinion asserts, § 5000A is not an exercise of legislative power. So did Congress exercise legislative power in
2010, as seen from 2015? As seen from 2018? Does § 5000A ontologically re-emerge should a future Congress restore the shared
responsibility payment? Perhaps, like Schrödinger’s cat, § 5000A
exists in both states simultaneously. The dissenting opinion does
not say. Our approach requires no such quantum musings.

52a
mandate is a command. Using that meaning, the individual mandate is unconstitutional.
VI.
Having concluded that the individual mandate is
unconstitutional, we must next determine whether, or
how much of, the rest of the ACA is severable from that
constitutional defect. On this question, we remand to
the district court to undertake two tasks: to explain
with more precision what provisions of the post-2017
ACA are indeed inseverable from the individual mandate; and to consider the federal defendants’ newlysuggested relief of enjoining the enforcement only of
those provisions that injure the plaintiffs or declaring
the Act unconstitutional only as to the plaintiff states
and the two individual plaintiffs. We address each issue in turn.
A.
The Supreme Court has said that the “standard for
determining the severability of an unconstitutional
provision is well established.” Alaska Airlines, Inc. v.
Brock, 480 U.S. 678, 684 (1987). Unless it is “evident
that the Legislature would not have enacted those provisions which are within its power, independently of
that which is not, the invalid part may be dropped if
what is left is fully operative as a law.” Id. (quoting
Buckley v. Valeo, 424 U.S. 1, 108 (1976)).
This inquiry into counterfactual Congressional intent has been crystallized into a “two-part . . . framework.” NFIB, 567 U.S. at 692 (joint dissent). First, if
a court holds a statutory provision unconstitutional, it
then determines whether the now-truncated statute
will operate in “a manner consistent with the intent of
Congress.” Alaska Airlines, 480 U.S. at 685 (emphasis

53a
omitted). This first step asks whether the constitutional provisions—standing on their own, without the
unconstitutional provisions—are “fully operative as a
law,” not whether they would simply “operate in some
coherent way” not designed by Congress. Free Enter.
Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S.
477, 509 (2010) (quoting New York v. United States,
505 U.S. 144, 186 (1992)); NFIB, 567 U.S. at 692 (joint
dissent). Second, even if the remaining provisions can
operate as Congress designed them to, the court must
determine if Congress would have enacted the remaining provisions without the unconstitutional portion. If
Congress would not have done so, then those provisions must be deemed inseverable. Alaska Airlines,
480 U.S. at 685 (“[T]he unconstitutional provision
must be severed unless the statute created in its absence is legislation that Congress would not have enacted.”); Free Enter. Fund, 561 U.S. at 509 (“[N]othing
in the statute’s text or historical context makes it evident that Congress, faced with the limitations imposed by the Constitution, would have preferred no
Board at all to a Board whose members are removable
at will.” (internal quotation marks omitted)).
Severability doctrine places courts between a rock
and a hard place. On the one hand, courts strive to be
faithful agents of Congress,39 which often means refusing to create a hole in a statute in a way that creates legislation Congress never would have agreed to
or passed. See Murphy, 138 S. Ct. at 1482 (“[Courts]
cannot rewrite a statute and give it an effect altogether different from that sought by the measure
See Frank H. Easterbrook, Text, History, and Structure in Statutory Interpretation, 17 Harv. J. L. & Pub. Pol’y 61, 63 (1994)
(“[Courts] are supposed to be faithful agents, not independent
principals.”).

39

54a
viewed as a whole.” (quoting R.R. Ret. Bd. v. Alton
R.R., 295 U.S. 330, 362 (1935))). On the other hand,
courts often try to abide by the medical practitioner’s
maxim of “first, do no harm,” aiming “to limit the solution to the problem” by “refrain[ing] from invalidating
more of the statute than is necessary.”
Ayotte v.
Planned Parenthood of N. New England, 546 U.S. 320,
328 (2006); Collins v. Mnuchin, 938 F.3d 553, 592 (5th
Cir. 2019) (en banc) (Haynes, J.) (severing unconstitutional removal restriction from remainder of Federal
Housing Finance Agency’s enabling statute).40 In fact,
courts have a “duty” to “maintain the act in so far as
it is valid” if it “contains unobjectionable provisions
separable from those found to be unconstitutional.”
Alaska Airlines, 480 U.S. at 684 (quoting Regan v.
Time, Inc., 468 U.S. 641, 652 (1984) (plurality opinion)).
The Supreme Court emphasizes this duty so
strongly that commentators have identified “a presumption [of severability] implicit in the Court’s” severability jurisprudence. Adrian Vermeule, Saving
Constructions, 85 Geo. L.J. 1945, 1950 n.28 (1997); see
also Brian Charles Lea, Situational Severability, 103
Va. L. Rev. 735, 744 (2017) (“[C]ourts assume that a
legislature intends for any unlawful part of its handiwork to be severable from all lawful parts in the absence of indicia of a contrary intention.”). This
presumption is strongest when Congress includes a
severability clause in the statutory text; however, “[i]n
the absence of a severability clause . . . Congress’s silence is just that—silence—and does not raise a presumption against severability.” Alaska Airlines, 480
U.S. at 686.
40 Judge Haynes wrote the opinion of the court as to the question
of remedy. See Collins, 938 F.3d at 591.

55a
Nevertheless, the meticulous analysis required by
severability doctrine defies reliance on presumptions
or generalities. The Supreme Court’s latest venture
into severability territory, Murphy v. NCAA, 138 S. Ct.
1461 (2018), provides an example. There, the Court
held that the entirety of the Professional and Amateur
Sports Protection Act was unconstitutional because
one of its provisions—authorizing private sports gambling—violated the anti-commandeering doctrine. Id.
at 1484. Justice Alito’s majority opinion separately explored each of the other operative provisions in the act,
reasoning that all of the act’s provisions were “obviously meant to work together” and be “deployed in tandem.” Id. at 1483. Because Congress would not have
wanted the otherwise-valid provisions “to stand
alone,” the Court declined to sever them. Id. This
conclusion prompted a dissent from Justice Ginsburg,
who characterized the majority as “wield[ing] an ax . . .
instead of using a scalpel to trim the statute” and reiterated that “the Court ordinarily engages in a salvage
rather than a demolition operation.” Id. at 1489–90
(Ginsburg, J., dissenting).
These Murphy opinions draw attention to one difficulty inherent in severability analysis: selecting the
right tool for the job. Justice Thomas’ concurring
opinion goes further, providing two reasons why navigating between the Scylla of poking small but critical holes in complex, carefully crafted legislative
bargains and the Charybdis of invalidating more duly
enacted legislation than necessary stands “in tension
with traditional limits on judicial authority.” Murphy,
138 S. Ct. at 1485 (Thomas, J., concurring). “[T]he judicial power is, fundamentally, the power to render
judgments in individual cases,” and severability doc-

56a
trine threatens to violate that vital separation-of-powers principle in more than one way. Id. (Thomas, J.,
concurring).
First, severability doctrine requires “a nebulous inquiry into hypothetical congressional intent,” as opposed to the usual judicial bread-and-butter of
“determin[ing] what a statute means.” Id. at 1486
(Thomas, J., concurring) (quoting United States v.
Booker, 543 U.S. 220 at 321 n.7 (2005) (Thomas, J.,
dissenting in part)). Because “Congress typically does
not pass statutes with the expectation that some part
will later be deemed unconstitutional,” id. at 1487,
this requirement often leaves courts to exercise their
imagination or “intuitions regarding what the legislature would have desired had it considered the severability issue.” Lea, supra, at 747. This, in turn,
“enmeshes the judiciary in making policy choices” the
Constitution reserves for the legislature, David H.
Gans, Severability as Judicial Lawmaking, 76 Geo.
Wash. L. Rev. 639, 663 (2008), providing unelected judicial officers with cover to simply implement their
own policy preferences.
Second, severability doctrine forces courts to
“weigh in on statutory provisions that no party has
standing to challenge, bringing courts dangerously
close to issuing advisory opinions.” Murphy, 138 S. Ct.
at 1487 (Thomas, J., concurring); see also Jonathan F.
Mitchell, The Writ-of-Erasure Fallacy, 104 Va. L. Rev.
933, 936 (2018) (“The federal courts have no authority
to erase a duly enacted law from the statute books,
[but can only] decline to enforce a statute in a particular case or controversy.” 41 ). As Justice Thomas
41 If that is true, then courts are speaking loosely when they state
that they are “invalidating” or “striking down” a law.

57a
points out, when Chief Justice Marshall famously declared that “[i]t is emphatically the province and duty
of the judicial department to say what the law is,” he
justified that assertion by explaining that “[t]hose who
apply [a] rule to particular cases, must of necessity expound and interpret that rule.” Marbury v. Madison,
5 U.S. (1 Cranch) 137, 177 (1803). Yet severability
doctrine directs courts to go beyond the necessary—
that is, the application of a particular statutory provision to a particular case—to consider the viability of
other provisions without even “ask[ing] whether the
plaintiff has standing to challenge those other provisions.” Murphy, 138 S. Ct. at 1487 (Thomas, J., concurring).
“[S]everability doctrine is thus an
unexplained exception to the normal rules of standing,
as well as the separation-of-powers principles that
those rules protect.” Id.
Severability analysis is at its most demanding in the
context of sprawling (and amended) statutory schemes
like the one at issue here. The ACA’s framework of
economic regulations and incentives spans over
900 pages of legislative text and is divided into ten titles. Most of the provisions directly regulating health
insurance, including the one challenged in this case,
are found in Titles I and II. See, e.g., 26 U.S.C.
§ 5000A(a) (individual mandate); 42 U.S.C. § 300gg14(a) (requiring insurers offering family plans to cover
adult children until age 26), §§ 18031–18044 (creating
health insurance exchanges). The other titles generally amend Medicare (Title III), fund preventative
healthcare programs (Title IV), seek to expand the
supply of healthcare workers (Title V), enact antifraud requirements for Medicare/Medicaid facilities
(Title VI), establish or expand drug regulations (Title VII), create a voluntary long-term care insurance

58a
program (Title VIII), address taxation (Title IX), and
improve health care for Native Americans (Title X42).
The plaintiffs group this host of provisions into
three categories for ease of reference. State Plaintiffs’
Br. at 38. The first category includes the three core
ACA provisions the Supreme Court has called “closely
intertwined”: the individual mandate, 26 U.S.C.
§ 5000A(a), the guaranteed-issue requirement, 42
U.S.C. §§ 300gg, 300gg-1, and the community-rating
requirement, 42 U.S.C.§ 300gg-4. King, 135 S. Ct. at
2487. The second category includes the remaining
“[m]ajor provisions of the Affordable Care Act,” NFIB,
567 U.S. at 697 (joint dissent), namely other provisions dealing with “insurance regulations and taxes,”
“reductions in federal reimbursements to hospitals and
other Medicare spending reductions,” the insurance
“exchanges and their federal subsidies,” and “the employer responsibility assessment.” See, e.g., 25 U.S.C.
§ 4980H; 26 U.S.C. § 36B; 42 U.S.C. §§ 1395ww,
18021–22. The third category includes a variety of minor provisions, for example taxes on certain medical
devices or provisions requiring the display of nutritional content at restaurants. See, e.g., 21 U.S.C.
§ 343(q)(5)(H); 26 U.S.C. § 4191(a).
Moreover, Congress has made a number of substantive amendments to the ACA, revising the statute
in 2010, 2011, 2014, 2017, and 2018. See, e.g., Medicare and Medicaid Extenders Act of 2010, Pub. L. No.
111-309, 124 Stat. 3285 (2010) (modifying tax credit
scale and Medicaid requirements); Department of Defense and Full-Year Continuing Appropriations Act,
2011, Pub. L. No. 112-10, 125 Stat. 38 (2011) (repealing program that required some employers to provide
Title X also includes a number of miscellaneous provisions relating to the other titles.
42

59a
some employees with vouchers for purchasing insurance); Bipartisan Budget Act of 2015, Pub. L. No.
114-74, 129 Stat. 584 (2015) (repealing requirement
that employers with more than 200 employees enroll
new full-time employees in health insurance and continue coverage for current employees). Most of these
amendments occurred prior to the 2017 legislation
eliminating the shared responsibility payment, but
some are more recent. See, e.g., Bipartisan Budget
Act of 2018, Pub. L. No. 115-123, 132 Stat. 64 (2018)
(repealing Independent Payment Advisory Board).
In summary, then, this issue involves a challenging legal doctrine applied to an extensive, complex,
and oft-amended statutory scheme. All together,
these observations highlight the need for a careful,
granular approach to carrying out the inherently difficult task of severability analysis in the specific context of this case. We are not persuaded that the
approach to the severability question set out in the
district court opinion satisfies that need. The district
court opinion does not explain with precision how particular portions of the ACA as it exists post-2017 rise
or fall on the constitutionality of the individual mandate. Instead, the opinion focuses on the 2010 Congress’ labeling of the individual mandate as “essential”
to its goal of “creating effective health insurance markets,” 42 U.S.C. § 18091(2)(I), and then proceeds to designate the entire ACA inseverable. In using this
approach, the opinion does not address the ACA’s provisions with specificity, nor does it discuss how the individual mandate fits within the post-2017 regulatory
scheme of the ACA.
The district court opinion begins by addressing the
2010 version of the ACA. Starting with the text of the
ACA, the district court opinion points out that the

60a
2010 Congress incorporated into the text its view that
“the absence of the [individual mandate] would undercut Federal regulation of the health insurance market.” 42 U.S.C. § 18091(2)(H). The district court
opinion notes that the 2010 Congress devised the individual mandate, “together with the other provisions”
of the ACA, to “add millions of new customers to the
health insurance market.” 42 U.S.C. § 18091(2)(C). In
this way, the 2010 Congress sought to “minimize th[e]
adverse selection” that might otherwise occur if
healthy individuals “wait[ed] to purchase health insurance until they needed care,” 42 U.S.C.
§ 18091(2)(I)—a strategic choice that would otherwise
be available given the ACA’s guaranteed-issue and
community-rating provisions. According to the district court opinion: because the 2010 Congress found
the individuate mandate “essential” to this plan to reshape health insurance markets, the individual mandate is inseverable from the rest of the ACA “[o]n the
unambiguous enacted text alone.”
The district court opinion also addresses ACA
caselaw. Citing the Supreme Court’s decisions in
NFIB and King, the district court opinion states that
“[a]ll nine Justices . . . agreed the Individual Mandate
is inseverable from at least the pre-existing-condition
provisions.” See NFIB, 567 U.S. at 548 (Roberts, C.J.),
596–98 (Ginsburg, J., joined by Breyer, Kagan, and Sotomayor, JJ.), 695–96 (joint dissent of Scalia, Kennedy, Thomas, and Alito, JJ.); King, 135 S. Ct. at 2487
(stating that the individual mandate is “closely intertwined” with the guaranteed-issue and communityrating provisions). As to the ACA’s other provisions,
the district court opinion notes that the only group of
Justices who fully considered whether the other
major and minor provisions were severable was the
joint dissent in NFIB—and those Justices would have

61a
held that “invalidation of the ACA’s major provisions
requires the Court to invalidate the ACA’s other provisions.” NFIB, 567 U.S. at 704 (joint dissent).
Beyond these points, the district court opinion
states that its “conclusion would only be reinforced” if
it “parse[d] the ACA’s provisions one by one.” The district court opinion arrives at this conclusion by reasoning that declaring only the individual mandate
unlawful would disrupt the Act’s careful balance of
“shared responsibility.” The district court opinion lists
a few examples of how it would expect this to happen
with regard to the ACA’s major provisions. First, the
district court opinion reasons that “the Individual
Mandate reduces the financial risk forced upon insurance companies and their customers by the ACA’s major regulations and taxes.” If the individual mandate
fell and the regulations and taxes did not, insurance
companies would suffer a burden without enjoying a
countervailing benefit—“a choice no Congress made
and one contrary to the text.” Second, if a court were
to declare just the individual mandate and the protections for preexisting conditions unlawful—but not the
subsidies for health insurance—then the Act would be
transformed into “a law that subsidizes the kinds of
discriminatory products Congress sought to abolish at,
presumably, the re-inflated prices it sought to suppress.” Third, Congress never intended “a duty on employers, see 26 U.S.C. § 4980H, to cover the
skyrocketing insurance premium costs” that would
“inevitably result from removing” the individual mandate. Fourth, because “the Medicaid-expansion provisions were designed to serve and assist fulfillment of
the Individual Mandate,” removing the individual
mandate would remove the need for that expansion.

62a
As to the ACA’s minor provisions, the district court
opinion states that it is “impossible to know which minor provisions Congress would have passed absent the
Individual Mandate,” and that such an inquiry involves too much “legislative guesswork.” Relying on
the 2010 Congress’ labeling of the individual mandate
as “essential,” the district court opinion ultimately determines that there is “no reason to believe that Congress would have enacted” the minor provisions
independently. The district court opinion similarly
disclaims the ability to divine the intent of the 2017
Congress—which had zeroed out the shared responsibility payment but left the rest of the ACA untouched—labeling such an inquiry “a fool’s errand.”
To the extent it analyzed the intent of the 2017 Congress, the district court opinion determines that Congress’ failure to repeal the individual mandate shows
that it “knew that provision is essential to the ACA.”
In sum, the district court opinion concludes that the
entire ACA is inseverable from the individual mandate.
The plaintiffs urge affirmance for essentially the
same reasons stated in the district court opinion.43 As
to the guaranteed-issue and community-rating provisions, they rely primarily on the 2010 Congress’ express findings linking those provisions to the
individual mandate. State Plaintiffs’ Br. at 39–44; Individual Plaintiffs’ Br. at 47–48. The 2010 Congress
found that, without the individual mandate, “many individuals would wait to purchase health insurance until they needed care,” creating an “adverse selection”
problem. 42 U.S.C. § 18091(2)(I); see also id. (finding
that the individual mandate is “essential to creating
The individual plaintiffs adopt the state plaintiffs’ severability
arguments by reference. See Fed. R. App. P. 28(i).

43

63a
effective health insurance markets in which improved
health insurance products that are guaranteed issue
and do not exclude coverage of pre-existing conditions
can be sold”). As to the remaining major and some of
the minor provisions, the plaintiffs rely primarily on
the joint dissent in NFIB for the proposition that leaving these provisions standing would “undermine Congress’ scheme of shared responsibility,” throwing off
the balance interlocking insurance market reforms set
out in the ACA. 567 U.S. at 698 (joint dissent) (internal quotation marks omitted); State Plaintiffs’ Br. at
44–49. As for the most minor provisions, they argue
that these were “mere adjuncts” of the more important
provisions and would not have been independently enacted. State Plaintiffs’ Br. at 50.
On appeal, the federal defendants agree with the
plaintiffs that the entirety of the ACA is inseverable
from the individual mandate. Fed. Defendants’ Br. at
36–49. This marks a significant change in litigation
position, as the federal defendants had previously submitted to the district court that only the guaranteedissue and community-rating provisions were inseverable. And that is not the only new argument the federal defendants make on appeal. For the first time on
appeal, the federal defendants argue that the remedy
in this case should be limited to enjoining enforcement
of the ACA only to the extent it harms the plaintiffs.
See Fed. Defendants’ Br. at 26–29 (arguing that the individual “plaintiffs do not have standing to seek relief
against provisions of the ACA that do not in any way
affect them”); Fed. Defendants’ Supp. Br. at 10 (“[T]he
judgment itself, as opposed to its underlying legal reasoning, cannot be understood as extending beyond the
plaintiff states to invalidate the ACA in the intervenor
states.”).

64a
The intervenor-defendant states, meanwhile, argue that every provision of the ACA is severable from
the individual mandate. They argue that the 2017
Congress’ decision not to repeal or otherwise undermine any other provision of the ACA shows that it intended the rest of the ACA to remain operative—and
that the court should not focus on the intent of the
2010 Congress. Intervenor-Defendant States’ Br. at
34–35, 43. They point to the statements of several legislators in the 2017 Congress that seem to evince an
assumption that other parts of the ACA would not be
altered,44 and to Congress’ knowledge of reports highlighting the severe consequences a total invalidation
of the ACA would have. Intervenor-Defendant States’
Br. at 40. Finally, they argue that the passage of time
since the ACA’s enactment has shown that the individual mandate is not all that crucial after all, and
they provide examples of ACA provisions they say have

44 Although we decline to opine on the merits of the parties’ arguments at this juncture, we caution against relying on individual
statements by legislators to determine the meaning of the law.
“[L]egislative history is not the law.” Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612, 1631 (2018); see also Asadi v. G.E. Energy (USA),
LLC, 720 F.3d 620, 626 n.9 (5th Cir. 2013) (“[T]he authoritative
statement is the statutory text, not the legislative history or any
other extrinsic material.”) (quoting Exxon Mobil Corp. v. Allapattah Servs., Inc., 545 U.S. 546, 568 (2005)); Antonin Scalia & Bryan
A. Garner, Reading Law: The Interpretation of Legal Texts 392–
93 (2012) (“Each member voting for the bill has a slightly different reason for doing so. There is no single set of intentions shared
by all . . . [y]et a majority has undeniably agreed on the final language that passes into law . . . and that is the sole means by which
the assembly has the authority to make law.”). And even among
legislative history devotees, “floor statements by individual legislators rank among the least illuminating forms.” N.L.R.B. v.
SW Gen., Inc., 137 S. Ct. 929, 943 (2017).

65a
nothing to do with insurance markets or became operative years before the individual mandate took effect.
Intervenor-Defendant States’ Br. at 45.
Although we understand and share the district
court’s general disinclination to engage in what it refers to as “legislative guesswork”—and what a Supreme Court Justice has described as “a nebulous
inquiry into hypothetical congressional intent,” Murphy, 138 S. Ct. at 1486 (Thomas, J., concurring) (quoting Booker, 543 U.S. at 321 n.7 (Thomas, J., dissenting
in part))—we nevertheless conclude that the severability analysis in the district court opinion is incomplete in two ways.
First, the opinion gives relatively little attention to
the intent of the 2017 Congress, which appears in the
analysis only as an afterthought despite the fact that
the 2017 Congress had the benefit of hindsight over
the 2010 Congress: it was able to observe the ACA’s
actual implementation. Although the district court
opinion states that burdening insurance companies
with taxes and regulations without giving them the
benefit of compelling the purchase of their product is
“a choice no Congress made,” it only links this observation to the 2010 Congress. It does not explain its
statement that the 2017 Congress’ failure to repeal the
individual mandate is evidence of an understanding
that no part of the ACA could survive without it.
Second, the district court opinion does not do the
necessary legwork of parsing through the over
900 pages of the post-2017 ACA, explaining how particular segments are inextricably linked to the individual mandate. The opinion lists a few examples of
major provisions and cogently explains their link to
the individual mandate, at least as it existed in 2010.
For example, the opinion discusses the individual

66a
mandate’s interplay with the guaranteed- issue and
community-rating provisions—all of which are found
in Title I of the ACA—analyzing how Congress intended those provisions to work and how they might
be expected to work without the individual mandate.
But in order to strike the delicate balance that severability analysis requires, the district court must undertake a similar inquiry for each segment of the post2017 law that it ultimately declares unlawful—and it
has not done so. Instead, the district court opinion focuses on the 2010 Congress’ designation of the individual mandate as “essential to creating effective health
insurance markets” and intention that, for at least one
set of legislative goals, the individual mandate was intended to work “together with the other provisions” of
the ACA. E.g., 42 U.S.C. § 18091(2)(I). On this basis,
and on the views of the dissenting Justices in NFIB
addressing the ACA as it stood in 2012, the district
court opinion renders the entire ACA inoperative.
More is needed to justify the district court’s remedy.
Take, for example, the ACA provisions in Title IV requiring certain chain restaurants to disclose to consumers nutritional information like “the number of
calories contained in the standard menu item.” Patient Protection and Affordable Care Act, Pub. L. No.
111-148, § 4206, 124 Stat. 119, 573–74 (2012) (codified
at 21 U.S.C. § 343). Or consider the provisions in Title X establishing the level of scienter necessary to be
convicted of healthcare fraud. Patient Protection and
Affordable Care Act § 10606, 124 Stat. 119, 1006–09,
(codified at 18 U.S.C. § 1347). Without more detailed
analysis from the district court opinion, it is unclear
how provisions like these—which certainly do not directly regulate the health insurance marketplace—
were intended to work “together” with the individual

67a
mandate. Similarly, the district court opinion’s assertion that “most of the minor provisions” of the ACA
“are mere adjuncts of” or “aids to the[] effective execution” of the project of the individual mandate is
not supported by the actual analysis in the district
court opinion, which does not dive into those provisions. Finally, some insurance-related reforms became law years before the effective date of the
individual mandate; the district court opinion does not
explain how provisions like these are inextricably
linked to the individual mandate. See, e.g., 42 U.S.C.
§§ 300gg-11, 300gg-14(a). Whatever the solution to
the problem of “legislative guesswork” the district
court opinion identifies in severability doctrine as it
currently stands, it must include a careful parsing of
the statutory scheme at issue to address questions like
these.
We have long “require[d] that a district court explain its reasons for granting a motion for summary
judgment in sufficient detail for us to determine
whether the court correctly applied the appropriate legal test.” Wildbur v. ARCO Chem. Co., 974 F.2d 631,
644 (5th Cir. 1992). This is because we have “little opportunity for effective review” when the district court
opinion leaves some reasoning “vague” or “unsaid.”
Myers v. Gulf Oil Corp., 731 F.2d 281, 284 (1984). “In
such cases, we have not hesitated to remand . . . .” Id.
In this case, the analysis the district court opinion provides is substantial and far exceeds the sort of cursory
reasoning that normally prompts us to remand. Yet,
the vast, wide-ranging statutory scheme at issue in
this case also far exceeds the comparatively small
number of provisions at issue in other severability
cases, see, e.g., Chadha, 462 U.S. at 931–35 (considering whether 8 U.S.C. § 244(c)(2) could be severed

68a
from the rest of § 244)—especially cases in which entire legislative acts are determined to be inseverable,
see, e.g., Murphy, 138 S. Ct. at 1481–84 (considering
whether part of 28 U.S.C. § 3702(1) could be severed
from §§ 3701–04).
Moreover, the Supreme Court has remanded in the
severability context upon a determination that additional analysis was necessary. In Ayotte v. Planned
Parenthood of Northern New England, 546 U.S. 320
(2006), the Supreme Court took up the issue of what
relief was appropriate upon a determination that a
New Hampshire provision requiring parental notification prior to abortion was unconstitutional in some applications. Id. at 328–32. The Supreme Court
determined that, although the district court’s choice to
use “the most blunt remedy”—total inseverability—
was “understandable” under its own precedent, more
analysis was needed to determine “whether New
Hampshire’s legislature intended the statute to be susceptible to” severability. Id. at 330–31. As a result,
the Supreme Court remanded for “lower courts to determine legislative intent in the first instance.” Id.
We do the same here, directing the district court to
employ a finer-toothed comb on remand and conduct a
more searching inquiry into which provisions of the
ACA Congress intended to be inseverable from the individual mandate. We do not hold forth on just how
fine-toothed that comb should be—the district court
may use its best judgment to determine how best to
break the ACA down into constituent groupings, segments, or provisions to be analyzed. Nor do we make
any comment on whether the district court should
take into account the government’s new posture on appeal or what the ultimate outcome of the severability

69a
analysis should be.45 Although “we cannot affirm the
order as it is presently supported,” we do not suggest
what result will be merited “[a]fter a more thorough
inquiry.” Unger v. Amedisys Inc., 401 F.3d 316, 325
(5th Cir. 2005). We only note that the inquiry must be
made, and that the district court—which has many
tools at its disposal—is best positioned to determine in
the first instance whether the ACA “remains ‘fully operative as a law’” and whether it is evident from “the
statute’s text or historical context” that Congress
would have preferred no ACA at all to an ACA without
the individual mandate. Free Enter. Fund, 561 U.S.
at 509 (quoting New York, 505 U.S. at 186).
It may still be that none of the ACA is severable
from the individual mandate, even after this inquiry
is concluded. It may be that all of the ACA is severable
from the individual mandate. It may also be that some
of the ACA is severable from the individual mandate,
and some is not.46 But it is no small thing for unelected, life-tenured judges to declare duly enacted legislation passed by the elected representatives of the

The district court should also consider this court’s recent severability analysis in Collins v. Mnuchin, 938 F.3d 553 (5th Cir.
2019) (en banc). That opinion was issued after both the district
court’s decision and the oral argument here.
45

46 For an explanation of some, but certainly not all, of the potential conclusions with regard to severability, see Josh Blackman,
Undone: The New Constitutional Challenge to Obamacare, 23
Tex. Rev. L. & Pol. 1, 28–51 (2018) (stating that the district court
could halt the enforcement of just the individual mandate, halt
the enforcement of the entire Act, or halt the enforcement of the
community-rating and guaranteed-issue provisions along with
the individual mandate, for example). The district court could
also issue a declaratory judgment without enjoining any government official.

70a
American people unconstitutional. The rule of law demands a careful, precise explanation of whether the
provisions of the ACA are affected by the unconstitutionality of the individual mandate as it exists today.
B.
Remand is appropriate in this case for a second
reason: so that the district court may consider the federal defendants’ new arguments as to the proper scope
of relief in this case. The relief the plaintiffs sought in
the district court was a universal nationwide injunction: an order that totally “enjoin[ed] Defendants from
enforcing the Affordable Care Act and its associated
regulations.” Before the district court, the federal defendants urged entry of a declaratory judgment stating
that the guaranteed-issue and community-rating provisions—at that time, the only provisions the federal
defendants argued were inseverable—were “invalid[ated]” by the zeroing out of the shared responsibility payment. This would be “sufficient relief against
the Government,” the federal defendants argued, because a declaratory judgment would “operate[] in a
similar manner as an injunction” against the federal
government, which would be “presumed to comply with
the law” once the court provides “a definitive interpretation of the statute.”
Ultimately, of course, the district court opinion determined that no ACA provision was severable and resulted in a judgment declaring the entire ACA
“invalid.” On appeal, the federal defendants first
changed their litigation position to agree that no ACA
provision was severable. Now they have changed their
litigation position to argue that relief in this case
should be tailored to enjoin enforcement of the ACA in
only the plaintiff states—and not just that, but that

71a
the declaratory judgment should only reach ACA provisions that injure the plaintiffs. They argue that the
Supreme Court has made clear that “[a] plaintiff’s
remedy must be tailored to redress the plaintiff’s particular injury.” Gill v. Whitford, 138 S. Ct. 1916, 1934
(2018); see also Printz v. United States, 521 U.S. 898,
935 (1997) (reasoning that the Court has “no business
answering” questions dealing with enforcement of provisions that “burden . . . no plaintiff”); see also Murphy,
138 S. Ct. at 1485–86 (Thomas, J., concurring). This
argument came as a surprise to the plaintiffs, who explained at oral argument that they saw the government’s new position as a possible “bait and switch.”
The federal defendants admitted at oral argument
that they had raised the scope-of-relief issue on appeal
“for the first time,” but argued that it was necessary to
address, as it went to the district court’s Article III jurisdiction. The federal defendants therefore suggested
that it “would be appropriate to remand to consider
the scope of the judgment.”
The court agrees that remand is appropriate for the
district court to consider these new arguments in the
first instance. The district court did not have the benefit of considering them when it crafted the relief now
on appeal.47 On remand, the district court—which is
in a far better position than this court to determine
which ACA provisions actually injure the plaintiffs—
may consider the federal defendants’ position on the
proper relief to be afforded. As part of this inquiry,
the district court may consider whether the federal defendants’ arguments were timely raised, and whether

47 The consideration of limited relief may affect the intervenors
as well. The district court is better suited to resolving these issues in the first instance.

72a
limiting the remedy in this case is supported by Supreme Court precedent. Once again, we place no
thumb on the scale as to the ultimate outcome; the district court is free to weigh the federal defendants’
changed arguments as it sees fit.
VII.
For these reasons, the judgment of the district
court is AFFIRMED in part and VACATED in part.
We REMAND for proceedings consistent with this
opinion.

73a
KING, Circuit Judge, dissenting:
Any American can choose not to purchase health insurance without legal consequence. Before January 1,
2018, individuals had to choose between complying
with the Affordable Care Act’s coverage requirement
or making a payment to the IRS. For better or worse,
Congress has now set that payment at $0. Without any
enforcement mechanism to speak of, questions about
the legality of the individual “mandate” are purely academic, and people can purchase insurance—or not—
as they please. No more need be said; it has long been
settled that the federal courts deal in cases and controversies, not academic curiosities.
The majority sees things differently and today
holds that an unenforceable law is also unconstitutional. If the majority had stopped there, I would be
confident its extrajurisdictional musings would ultimately prove harmless. What does it matter if the coverage requirement is unenforceable by congressional
design or constitutional demand? Either way, that law
does not do anything or bind anyone.
But again, the majority disagrees. It feels bound
to ask whether Congress would want the rest of the Affordable Care Act to remain in force now that the coverage requirement is unenforceable. Answering that
question should be easy, since Congress removed the
coverage requirement’s only enforcement mechanism
but left the rest of the Affordable Care Act in place. It
is difficult to imagine a plainer indication that Congress considered the coverage requirement entirely
dispensable and, hence, severable. And yet, the majority is unwilling to resolve the severability issue. Instead, it merely identifies serious flaws in the district
court’s analysis and remands for a do-over, which will

74a
unnecessarily prolong this litigation and the concomitant uncertainty over the future of the healthcare sector.
I would vacate the district court’s order because
none of the plaintiffs have standing to challenge the
coverage requirement. And although I would not reach
the merits or remedial issues, if I did, I would conclude
that the coverage requirement is constitutional, albeit
unenforceable, and entirely severable from the remainder of the Affordable Care Act.
I.
To my mind, this case begins and ought to end with
the Supreme Court’s decision in National Federation
of Independent Business v. Sebelius, 567 U.S. 519
(2012). In that case, the Court held that the coverage
requirement would be unconstitutional if it were a legal command, because neither the Commerce Clause
nor the Necessary and Proper Clause allows Congress
to compel individuals to engage in commerce by purchasing health insurance. See NFIB, 567 U.S. at 552,
560 (opinion of Roberts, C.J.); id. at 652-53 (joint dissent). The Court concluded, however, that the coverage requirement was constitutional, because—
notwithstanding the most natural reading of the provision’s text— the coverage requirement was not actually a legal command to purchase insurance.
Instead, according to the NFIB Court, the coverage
requirement “leaves an individual with a lawful choice
to do or not do a certain act,” i.e., purchase health insurance. Id. at 574 (Roberts, C.J., majority opinion).
All that is required, under this reading, is “a payment
to the IRS” if one chooses not to purchase health insurance. Id. at 567. Beyond this shared-responsibility

75a
payment, there are no further “negative legal consequences to not buying health insurance,” and individuals who forgo insurance do not violate the law as long
as they make the required payment. Id. at 567. “Those
subject to the [coverage requirement] may lawfully
forgo health insurance and pay higher taxes, or buy
health insurance and pay lower taxes. The only thing
they may not lawfully do is not buy health insurance
and not pay the resulting tax.” Id. at 574 n.11. Forcing
individuals to make that choice was constitutional, per
NFIB, because Congress could “impose a tax on not
obtaining health insurance” by exercising its enumerated power to lay and collect taxes, duties, imposts,
and excises. Id. at 570.
Contrary to the suggestion of the majority, which I
address specifically infra at Part III, Congress did not
alter the coverage requirement’s operation when it
amended the ACA in 2017. See Tax Cuts and Jobs Act
of 2017, Pub. L. No. 115-97, § 11081, 131 Stat. 2054,
2092 (“TCJA”). All the TCJA did, with respect to
healthcare, was change the amount of the shared-responsibility payment to zero dollars. Thus, despite textual
appearances,
the
post-TCJA
coverage
requirement does nothing more than require individuals to pay zero dollars to the IRS if they do not purchase health insurance, which is to say it does nothing
at all.
This insight, that the coverage requirement now
does nothing, should be the end of this case. Nobody
has standing to challenge a law that does nothing.
When Congress does nothing, no matter the form that
nothing takes, it does not exceed its enumerated powers. And since courts do not change anything when
they invalidate a law that does nothing, every other

76a
law retains, or at least should retain, its full force and
effect.
II.
But as the majority goes well past NFIB, I respond.
To begin, I emphasize the importance of the rule that
a plaintiff must have standing to invoke a federal
court’s power. This is not an anachronism lingering
from some era in which empty formalities abounded in
legal practice. Quite the opposite: “[T]he requirement
that a claimant have ‘standing is an essential and unchanging part of the case-or-controversy requirement
of Article III.’” Davis v. FEC, 554 U.S. 724, 733 (2008)
(quoting Lujan v. Defs. of Wildlife, 504 U.S. 555, 560
(1992)); see also Susan B. Anthony List v. Driehaus,
573 U.S. 149, 157 (2014) (“Article III of the Constitution limits the jurisdiction of federal courts to ‘Cases’
and ‘Controversies.’” (quoting U.S. Const. art. III,
§ 2)). And “[n]o principle is more fundamental to the
judiciary’s proper role in our system of government
than the constitutional limitation of federal-court jurisdiction to actual cases or controversies.” Clapper v.
Amnesty Int’l USA, 568 U.S. 398, 408 (2013) (alteration
in original) (quoting DaimlerChrysler Corp. v. Cuno,
547 U.S. 332, 341 (2006)); accord Raines v. Byrd, 521
U.S. 811, 818 (1997).
The Constitution’s case-or-controversy requirement reflects the Framers’ view of the judiciary’s place
among the coequal branches of the federal government: to fulfill “the traditional role of Anglo–American
courts, which is to redress or prevent actual or imminently threatened injury to persons caused by private
or official violation of law.” Summers v. Earth Island
Inst., 555 U.S. 488, 492 (2009). Strict adherence to the
case-or-controversy requirement—and to standing in

77a
particular—thus “serves to prevent the judicial process from being used to usurp the powers of the political branches.” Clapper, 568 U.S. at 408; see also Town
of Chester v. Laroe Estates, Inc., 137 S. Ct. 1645, 1650
(2017) (“This fundamental limitation preserves the
‘tripartite structure’ of our Federal Government, prevents the Federal Judiciary from ‘intrud[ing] upon the
powers given to the other branches,’ and ‘confines the
federal courts to a properly judicial role.’” (alteration
in original) (quoting Spokeo, Inc. v. Robins, 136 S. Ct.
1540, 1547 (2016))). Thus, “federal courts may exercise
power only ‘in the last resort, and as a necessity,’ and
only when adjudication is ‘consistent with a system of
separated powers and [the dispute is one] traditionally
thought to be capable of resolution through the judicial process.’” Allen v. Wright, 468 U.S. 737, 752
(1984) (alteration in original) (citation omitted) (first
quoting Chi. & Grand Trunk Ry. Co. v. Wellman, 143
U.S. 339, 345 (1892); then quoting Flast v. Cohen, 392
U.S. 83, 97 (1968)), abrogated on other grounds,
Lexmark Int’l, Inc. v. Static Control Components, Inc.,
572 U.S. 118 (2014). And needless to say, a federal
court must conduct an “especially rigorous” standing
inquiry “when reaching the merits of the dispute would
force [it] to decide whether an action taken by one of
the other two branches of the Federal Government was
unconstitutional.” Amnesty Int’l, 568 U.S. at 408 (quoting Raines, 521 U.S. at 819-20). “The importance of
this precondition should not be underestimated as a
means of ‘defin[ing] the role assigned to the judiciary
in a tripartite allocation of power.’” Valley Forge Christian Coll. v. Ams. United for Separation of Church &
State, 454 U.S. 464, 474 (1982) (alteration in original)
(quoting Flast, 392 U.S. at 95).
The standing doctrine polices this constitutional
limit on the judiciary’s power “by ‘identify[ing] those

78a
disputes which are appropriately resolved through the
judicial process.’” Susan B. Anthony List, 573 U.S. at
157 (alteration in original) (quoting Lujan, 504 U.S. at
560). The party seeking redress in the courts has the
burden to establish standing. See Spokeo, 136 S. Ct. at
1547. To do so, the plaintiff must show it has “(1) suffered an injury in fact, (2) that is fairly traceable to the
challenged conduct of the defendant, and (3) that is
likely to be redressed by a favorable judicial decision.”
Id. “To establish injury in fact, a plaintiff must show
that he or she suffered ‘an invasion of a legally protected interest’ that is ‘concrete and particularized’ and
‘actual or imminent, not conjectural or hypothetical.’”
Id. at 1548 (quoting Lujan, 504 U.S. 560). This means
the injury must be “personal” to the plaintiff and, although the injury does not need to be “tangible,” “it must
actually exist.” Id. at 1548-49.
The plaintiffs’ evidentiary burden depends on the
stage of the litigation. At each stage, the plaintiffs
must demonstrate standing “with the manner and degree of evidence” otherwise required to establish the
plaintiffs’ merits case. Lujan, 504 U.S. at 561. Thus,
because this case comes to us on the plaintiffs’ own
motion for summary judgment, the plaintiffs must
conclusively prove all three elements of standing with
evidence that “would ‘entitle [them] to a directed verdict if the evidence went uncontroverted at trial.’” Int’l
Shortstop, Inc. v. Rally’s, Inc., 939 F.2d 1257, 1264-65
(5th Cir. 1991) (quoting Golden Rule Ins. Co. v. Lease,
755 F. Supp. 948, 951 (D. Colo. 1991)). If a plaintiff
meets its burden, the defendant can nevertheless defeat summary judgment “by merely demonstrating the
existence of a genuine dispute of material fact.” Id. at
1265. In other words, the plaintiffs here must show
that, considering the summary-judgment record, all
reasonable factfinders would agree that the plaintiffs

79a
demonstrate an injury traceable to the coverage requirement and redressable by a favorable decision. See
Alonso v. Westcoast Corp., 920 F.3d 878, 885-86 (5th
Cir. 2019).
These general principles alone should make the
majority’s error apparent. More specific authority illuminates it. I explain first why the majority errs in concluding the individual plaintiffs have standing, then I
explain why the majority errs in concluding the state
plaintiffs have standing.
A.
The majority concludes that the individual plaintiffs have standing to challenge the coverage requirement in the Patient Protection and Affordable Care
Act (the “ACA”), 26 U.S.C. § 5000A(a), 1 because it
forces them to purchase health insurance that they
would not purchase otherwise. The majority overlooks
what will happen if the individual plaintiffs fail to purchase insurance: absolutely nothing. The individual
plaintiffs will be no worse off by any conceivable measure if they choose not to purchase health insurance.
Thus, whatever injury the individual plaintiffs have
incurred by purchasing health insurance is entirely
self-inflicted.
A long line of cases establishes that self-inflicted
injuries cannot establish standing because a self-inflicted injury, by definition, is not traceable to the challenged action. See, e.g., Amnesty Int’l, 568 U.S. at 416
(“[R]espondents cannot manufacture standing merely
by inflicting harm on themselves . . . .”); Pennsylvania
v. New Jersey, 426 U.S. 660, 664 (1976) (“The injuries
The coverage requirement is sometimes colloquially known as
the “individual mandate.” For reasons that will become clear, this
nickname can be misleading.

1

80a
to the plaintiffs’ fiscs were self-inflicted, resulting
from decisions by their respective state legislatures.
. . . No State can be heard to complain about damage
inflicted by its own hand.”); Zimmerman v. City of Austin, 881 F.3d 378, 389 (5th Cir.) (“[S]tanding cannot be
conferred by a self-inflicted injury.”), cert. denied, 139
S. Ct. 639 (2018). When a plaintiff chooses to incur an
expense, the plaintiff must show that the challenged
law forced the plaintiff to incur that expense to avoid
some other concrete injury. See Amnesty Int’l, 568 U.S.
at 415-16 (concluding costs plaintiffs incurred trying to
avoid surveillance were self-inflicted because plaintiffs’ fear of surveillance was speculative); Contender
Farms, L.L.P. v. USDA, 779 F.3d 258, 266 (5th Cir.
2015) (finding plaintiff had standing to challenge regulations that required plaintiff to either “take additional measures” to comply with regulation or “face
harsher, mandatory penalties” and prosecution). In
other words, a plaintiff can show standing if the challenged act placed him between the proverbial rock and
hard place. But without showing such a dilemma, a
plaintiff “cannot manufacture standing” by expending
costs to avoid an otherwise noncognizable injury,
which is exactly what the individual plaintiffs did here.
Amnesty Int’l, 568 U.S. at 416.
The majority brushes off this authority by insisting—without explanation—that labeling the plaintiffs’ injuries self-inflicted “assumes” that the coverage
requirement does not act as a legal command to purchase insurance, which the majority refuses to question at the standing stage. The majority
misunderstands the argument. Even accepting that
the coverage requirement acts as a legal command, the
individual plaintiffs are still free to disregard that
command without legal consequence. Therefore, any

81a
injury they incur by freely choosing to obtain insurance is still self-inflicted.
Nor does it matter that to avoid inflicting injury
upon themselves, the plaintiffs would have to violate
an unenforceable statute. Plaintiffs may challenge a
statute that requires them “to take significant and
costly compliance measures or risk criminal prosecution.” Virginia v. Am. Booksellers Ass’n, 484 U.S. 383,
392 (1988) (emphasis added); see also, e.g., Int’l Tape
Mfrs. Ass’n v. Gerstein, 494 F.2d 25, 28 (5th Cir. 1974)
(explaining that standing to challenge a statute requires a “realistic possibility that the challenged statute will be enforced to [the plaintiff’s] detriment”). But
“[w]hen plaintiffs ‘do not claim that they have ever
been threatened with prosecution, that a prosecution is
likely, or even that a prosecution is remotely possible,’
they do not allege a dispute susceptible to resolution
by a federal court.” Babbitt v. United Farm Workers
Nat’l Union, 442 U.S. 289, 298-99 (1979) (quoting
Younger v. Harris, 401 U.S. 37, 42 (1971)); see also
Poe v. Ullman, 367 U.S. 497, 507 (1961) (Frankfurter,
J., plurality) (“It is clear that the mere existence of a
state penal statute would constitute insufficient
grounds to support a federal court’s adjudication of its
constitutionality in proceedings brought against the
State’s prosecuting officials if real threat of enforcement is wanting.”); cf. Zimmerman, 881 F.3d at 389-90
(“[T]o confer standing, allegations of chilled speech or
‘self-censorship must arise from a fear of prosecution
that is not “imaginary or wholly speculative.”’” (quoting Ctr. for Individual Freedom v. Carmouche, 449
F.3d 655, 660 (5th Cir. 2006))).

82a
Ullman illustrates this principle well.2 The plaintiffs there sought to challenge Connecticut’s criminal
prohibition on contraception. Ullman, 367 U.S. at 498
(Frankfurter, J., plurality). But in the more than 75
years that the statute had been on the books, only one
violation had been prosecuted—and even that was a
collusive prosecution brought to challenge the law. Id.
at 501-02. The Court dismissed the challenge for lack
of standing, holding that “[t]he fact that Connecticut
has not chosen to press the enforcement of this statute
deprives these controversies of the immediacy which
is an indispensable condition of constitutional adjudication.” Id. at 508. The Court explained that it could
not “be umpire to debates concerning harmless, empty
shadows.” Id.3
The majority dismisses Ullman as an adversity case. Nonetheless, as this court and the Supreme Court have repeatedly recognized, Ullman grounds its analysis in terms of standing and
ripeness. See, e.g., Blum v. Yaretsky, 457 U.S. 991, 1000 (1982);
Roark & Hardee LP v. City of Austin, 522 F.3d 533, 544 (5th Cir.
2008); Thomes v. Equitable Sav. & Loan Ass’n, 837 F.2d 1317,
1318 (5th Cir. 1988). In any event, Ullman is just one example;
other cases demonstrate this concept just as well. See, e.g.,
Driehaus, 573 U.S. at 158-59 (“One recurring issue in our cases
is determining when the threatened enforcement of a law creates
an Article III injury. . . . [W]e have permitted pre-enforcement
review under circumstances that render the threatened enforcement sufficiently imminent.”).
2

The lead opinion in Ullman garnered only a four-judge plurality. But Justice Brennan, who concurred in the judgment, wrote
that he “agree[d] that this appeal must be dismissed for failure
to present a real and substantial controversy” and that “until the
State makes a definite and concrete threat to enforce these laws . . .
this Court may not be compelled to exercise its most delicate
power of constitutional adjudication.” Ullman, 367 U.S. at 509
(Brennan, J., concurring in judgment). Accordingly, five Justices

3

83a
Ullman makes this an easy case. Connecticut’s contraception law at least allowed the possibility of enforcement, even if it was speculative and unlikely to
ever occur. Here, as I cannot say often enough, the coverage requirement has no enforcement mechanism. It
is impossible for the individual plaintiffs to ever be
prosecuted (or face any other consequences) for violating it. In “find[ing] it necessary to pass on” the coverage requirement, the majority “close[s] [its] eyes to
reality.” Id.4
The majority does not engage with the lessons of
Ullman and its progeny. The closest it comes is in its
citation to Texas v. EEOC, 933 F.3d 433 (5th Cir.
2019). That case does not abrogate Ullman, Younger,
Babbitt, American Booksellers, or Tape Manufacturers—nor could it. In Texas v. EEOC, Texas challenged
EEOC administrative guidance stating that employers who screen out job applicants with criminal records could be held liable for disparate-impact
discrimination. Id. at 437-38. The EEOC argued that
Texas did not have standing to challenge the guidance
because the guidance reflected only the EEOC’s interpretation of Title VII, and the Attorney General, not
the EEOC, has the sole power to enforce Title VII

agreed that plaintiffs lacked standing absent any real threat of
enforcement.
For the same reason, it does not matter that the district court
“expressly found” that the individual plaintiffs “are obligated to”
purchase health insurance. Even ignoring the conclusory nature
of this supposed finding of fact, it is not the abstract obligation
that matters; it is the concrete consequences, if any, that follow
from a violation of that obligation. And the district court did not
find (and there would be no basis for it to find) that the individual
plaintiffs would face any consequences.

4

84a
against states. See Brief for Appellants Cross-Appellees at 18-19, Texas v. EEOC, 933 F.3d 433 (5th Cir.
2019) (No. 18-10638). In rejecting that argument, this
court explained that Title VII’s enforcement scheme is
not so simple. Although the EEOC may not itself bring
enforcement actions against states, it may investigate
states and refer cases to the Attorney General for enforcement actions. EEOC, 933 F.3d at 447. Therefore,
“the possibility of investigation by EEOC and referral
to the Attorney General for enforcement proceedings
if it fails to align its laws and policies with the Guidance” put pressure on Texas to conform to the EEOC’s
guidance. Id.
In other words, even absent a direct threat of a formal enforcement action from the EEOC, Texas faced
other consequences for disobeying the guidance—including the possibility that the Attorney General
would enforce Title VII against it. In fact, we noted
that “[o]ne Texas agency ha[d] already been required
to respond to a charge of discrimination filed with
EEOC based on its no-felon hiring policy.” Id. at 447
n.26. The majority here cites no similar concrete consequences that will (or even plausibly could) follow if the
plaintiffs violate the coverage requirement.
My conclusion that individual plaintiffs lack standing is only bolstered by a unanimous opinion issued
mere weeks ago by a panel that included the author of
today’s majority opinion. In that case, the court held
that Austin, Texas could not use a suit against the
Texas Attorney General to challenge a state statute,
which the Attorney General was authorized to enforce,
that barred the city from enforcing one of its ordinances. City of Austin v. Paxton, No. 18-50646, ___
F.3d ___, 2019 WL 6520769, at *6 (5th Cir Dec. 4,
2019). Although the Paxton court based its holding on

85a
sovereign immunity, it looked to “our standing jurisprudence,” and “note[d] that it’s unlikely the City had
standing,” because it did not show that the Attorney
General would likely “inflict ‘future harm’” by enforcing the statute against Austin. Id. at *6-7. If standing
was absent in Paxton because enforcement was insufficiently probable, I have no idea why standing should
be present in this case, where enforcement of the challenged portion of the ACA is altogether impossible.
In sum, even if the unenforceable coverage requirement must be read as a command to purchase health
insurance, it does not harm the individual plaintiffs
because they can disregard it without consequence.
Binding precedent squarely establishes that plaintiffs
may not sue in such circumstances—and with good
reason. The great power of the judiciary should not be
invoked to disrupt the work of the democratic
branches when the plaintiffs can easily avoid injury on
their own.5

The majority’s suggestion that NFIB, 567 U.S. at 552 (opinion
of Roberts, C.J.), supports the individual plaintiffs’ standing does
not warrant above-the-line attention. In short, the NFIB Court
did not address standing. See id. at 530-708. At the time NFIB
was decided, the coverage requirement was set to take effect with
the shared-responsibility payment as an enforcement mechanism. And there is no indication that any of the NFIB plaintiffs
were exempt from the shared-responsibility payment. Thus, even
if the majority seeks to infer from NFIB some jurisdictional ruling in violation of the Supreme Court’s “repeated[]” command
“that the existence of unaddressed jurisdictional defects has no
precedential effect,” Lewis v. Casey, 518 U.S. 343, 352 n.2 (1996),
NFIB offers no inferences of value for the majority to draw. Further, counsel’s answer to a Justice’s hypothetical question does
not bind this court.
5

86a
B.
The majority’s conclusion that the state plaintiffs
have standing to challenge the coverage requirement
fares no better. I would deny the state plaintiffs standing because there is no evidence in the record, much
less conclusive evidence, to support the state plaintiffs’ alleged injuries.
1.
The majority first concludes that the state plaintiffs have standing because it believes that the coverage requirement increases the number of state
employees who enroll in the states’ employee
healthcare programs. And with more enrollees, the
logic goes, the states as employers must file more
forms with the IRS at a higher cost to the states.
The majority’s biggest mistake is that it ignores the
posture of this case: the defendants appeal from the
district court’s order granting summary judgment to
the plaintiffs. Accordingly, the state plaintiffs face a
tremendous evidentiary burden—they must produce
evidence so conclusive of the coverage requirement’s
effect on their healthcare-administration costs that the
evidence “would ‘entitle [them] to a directed verdict if
the evidence went uncontroverted at trial.’” Int’l Shortstop, 939 F.2d at 1264-65 (quoting Golden Rule Ins.,
755 F. Supp. at 951).6 And the state plaintiffs provided
The district court was free to—but did not—make findings of
jurisdictional fact, which we would review for clear error. See
Krim v. pcOrder.com, Inc., 402 F.3d 489, 494 (5th Cir. 2005). Indeed, the district court did not address the state plaintiffs’ standing at all. Thus, for the state plaintiffs to establish standing on
their own motion for summary judgment, they must show the
summary-judgment evidence is conclusive.
6

87a
no evidence at all, never mind conclusive evidence, to
support the dubious notion that even a single state
employee enrolled in one of state plaintiffs’ health insurance programs solely because of the unenforceable
coverage requirement.7
The majority relies on affidavits from several of the
state plaintiffs’ healthcare administrators. But these
affidavits only establish that the state plaintiffs incur
costs complying with the IRS reporting requirements
found in 26 U.S.C. §§ 6055(a) and 6056(a). And as the
majority recognizes, these requirements are distinct
from the coverage requirement. Accordingly, to trace
the state plaintiffs’ reporting burden to the coverage requirement, the majority must additionally show that
at least some state employees have enrolled in employer-sponsored health insurance solely because of
the unenforceable coverage requirement. The majority
comes up empty at this step, pointing only to a conclusory statement from a South Dakota human-resources
director claiming that the coverage requirement, not
§§ 6055(a) and 6056(a), caused South Dakota to incur
its reporting expenses. This will not do. See, e.g., Lujan
v. Nat’l Wildlife Fed’n, 497 U.S. 871, 888 (1990) (“The
object of [summary judgment] is not to replace conclusory allegations of the complaint or answer with conclusory allegations of an affidavit.”); Shaboon v.

The majority misunderstands my position. See Maj. Op. 32 n.31.
The state plaintiffs do not need to identify a “specific” person that
is likely to enroll, but they still must establish that at least one
state employee will enroll as a result of the post-TCJA coverage requirement. Otherwise, the state plaintiffs’ injuries are not traceable to the provision they challenge and would not be redressed
by its elimination.
7

88a
Duncan, 252 F.3d 722, 737 (5th Cir. 2001) (“[U]nsupported affidavits setting forth ‘ultimate or conclusory
facts and conclusions of law’ are insufficient to either
support or defeat a motion for summary judgment.”
(alteration in original) (quoting Orthopedic & Sports
Injury Clinic v. Wang Labs., Inc., 922 F.2d 220, 225
(5th Cir. 1991))).8
Citing Department of Commerce v. New York, 139
S. Ct. 2551 (2019), the majority argues the state plaintiffs can establish standing by “showing that third parties will likely react in predictable ways” to the
coverage requirement. Id. at 2566. But the majority
8 The majority suggests we must accept this statement as true because the defendants did not “challenge” this evidence. The majority cites no authority for this proposition, and I am at a loss to
understand where the majority came up with its challenge rule.
I know of nothing in the Federal Rules of Civil Procedure or the
caselaw requiring litigants to “challenge” conclusory statements
in declarations. On the contrary, courts in this circuit regularly
confront and disregard conclusory statements in the summaryjudgment record. See, e.g., Tex. Capital Bank N.A. v. Dall. Roadster, Ltd. (In re Dall. Roadster, Ltd.), 846 F.3d 112, 124 (5th Cir.
2017); Brown v. Mid-Am. Apartments, 348 F. Supp. 3d 594, 60203 (W.D. Tex. 2018). The district courts and litigants of this circuit
will be surprised to learn about the majority’s new summaryjudgment rule.
The majority also claims that the statement is not conclusory.
But nothing in the affidavit addresses the post-TCJA coverage
requirement. The affiant states that his knowledge is “related to
the enactment of the ACA,” which occurred in 2010. He focuses
on “financial costs associated with ACA regulations” and concludes that “South Dakota would be significantly burdened if the
ACA remained law.” The affidavit does not explain how the postTCJA coverage requirement harms South Dakota. Such generalities, untethered to the actual law at issue in this appeal, cannot
establish standing—especially not at the summary-judgment
stage.

89a
fails to explain why state employees who do not want
health insurance would nevertheless predictably enroll in health insurance solely because an unenforceable statute, here the coverage requirement, directs
them to do so. What the majority fails to mention in
its discussion of Department of Commerce is that the
“predictable” behavior at issue there was individuals
“choosing to violate their legal duty to respond to the
census.” Id. at 2565 (emphasis added). Thus, Department of Commerce shows that people will predictably
violate the law when sufficiently incentivized to do so.
This directly contradicts the assumption undergirding
much of the majority’s analysis—that people tend to
follow the law regardless of the incentives. And state
employees who do not want to enroll in insurance have
every incentive to violate the coverage requirement.9
2.
The majority similarly argues that the coverage requirement increases the number of individuals enrolled in the state plaintiffs’ Medicaid programs. This
A Congressional Budget Office report released shortly before
Congress repealed the shared-responsibility payment further
supports this notion. It concluded:

9

If the [shared-responsibility payment] was
eliminated but the [coverage requirement] itself was not repealed . . . . only a small number
of people who enroll in insurance because of
the [coverage requirement] under current law
would continue to do so solely because of a willingness to comply with the law.
Cong. Budget Office, Repealing the Individual Health Insurance
Mandate: An Updated Estimate at 1 (2017) (hereinafter “CBO
Report”). On this record, we have been given no reason to believe
that any of the state plaintiffs’ employees are among this “small
number of people.” Id.

90a
argument fails for the same reason: the state plaintiffs
produce no evidence—let alone conclusive evidence—
showing that anyone has enrolled in their Medicaid
programs solely because of the unenforceable coverage
requirement. To this end, the best the majority can
scrape up is a statement from Teresa MacCartney, a
Georgia budget official, stating that “[a]fter the implementation of the ACA, [Georgia] experienced increased enrollment of individuals already eligible for
Medicaid benefits under pre-ACA eligibility standards.” The majority’s takeaway is that the coverage requirement caused this increase. Maybe so. But
MacCartney’s statement refers specifically to the coverage requirement at the time of the ACA’s enactment,
when the coverage requirement interacted with the
shared-responsibility payment. This statement provides no insight into how the coverage requirement affects Medicaid rolls after the shared-responsibility
payment’s repeal. In fact, MacCartney signed her declaration on May 14, 2018, more than seven months before the shared-responsibility payment’s repeal went
into effect. See Budget Fiscal Year, 2018, Pub. L. No.
115-97, § 11081(b), 131 Stat. 2054, 2092 (2017).
Accordingly, the majority’s analysis again rests on
the necessary assumption that people will obey the
coverage requirement regardless of the incentives, in
direct contradiction to Department of Commerce. And
because Medicaid is available to eligible recipients at
little to no cost, it is especially unlikely that the unenforceable coverage requirement would play any significant part in anyone’s decision to enroll. It belies
common sense to conclude that anyone who would
otherwise pass on the significant benefits of Medicaid
would be motivated to enroll solely because of an unenforceable law.

91a
In sum, the majority cites no actual evidence tying
any costs the state plaintiffs have incurred to the unenforceable coverage requirement. The state plaintiffs
accordingly cannot show an injury traceable to the
coverage requirement, so they do not have standing to
challenge the coverage requirement.
III.
I would not reach the merits of this case because, as
explained in Part II, I would vacate the district court’s
order for lack of standing. But as the majority errs on
the merits too, I voice my disagreement.
“Neither the Act nor any other law attaches negative legal consequences to not buying health insurance,
beyond requiring a payment to the IRS.” NFIB, 567
U.S. at 568 (Roberts, C.J., majority opinion). Now that
Congress has zeroed out that payment, the coverage
requirement affords individuals the same choice individuals have had since the dawn of private health
insurance, either purchase insurance or else pay zero
dollars. Thus, to my mind, the majority’s focus on
whether Congress’s taxing power or the Necessary and
Proper Clause authorizes Congress to pass a $0 tax is
a red herring; the real question is whether Congress
exceeds its enumerated powers when it passes a law

92a
that does nothing.10 And of course it does not.11 Congress exercises its legislative power when it “alter[s]
the legal rights, duties and relations of persons.” INS
v. Chadha, 462 U.S. 919, 952 (1983); cf. id. (“Not every
action taken by either House is subject to the bicameralism and presentment requirements of Art. I.
Whether actions taken by either House are, in law and
fact, an exercise of legislative power depends not on
their form but upon ‘whether they contain matter
which is properly to be regarded as legislative in its
character and effect.’” (citation omitted) (quoting S.
Rep. No. 1335, 54th Cong., 2d Sess., 8 (1897))).
Lest the majority mistake my position and end up
shadowboxing with “bizarre metaphysical conclusions,” “quantum musings,” or ersatz inconsistencies,
Maj. Op. at 44 & n.40, I need to make something explicit at the outset. The TCJA did not change the text
or the meaning of the coverage requirement, but it did
change the real-world effects it produces. Before the
TCJA, the two options afforded by the coverage requirement—purchasing insurance or making a
shared-responsibility payment—were both burdensome, but Congress could force individuals to choose
one of those options by exercising its Taxing Power.
Today, the shared-responsibility payment’s meaning
“In litigation generally, and in constitutional litigation most
prominently, courts in the United States characteristically pause
to ask: Is this conflict really necessary?” Arizonans for Official
English v. Arizona, 520 U.S. 43, 75 (1997). The majority would do
well if it paused to ask whether it is necessary for a federal court
to rule on whether the Constitution authorizes a $0 tax or otherwise prohibits Congress from passing a law that does nothing.
The absurdity of these inquiries highlights the severity of the majority’s error in finding the plaintiffs have standing to challenge
this dead letter.

10

11

The majority does not argue otherwise.

93a
has not changed—it still gives individuals the choice
to purchase insurance or make a shared-responsibility
payment—but the amount of that payment is zero dollars, which means that the coverage requirement now
does nothing. The majority’s contrary conclusion rests
on the premise that the coverage requirement compels
individuals to purchase health insurance. With this
understanding, the majority says that the coverage requirement does exactly what the Supreme Court said
it cannot do: compel participation in commerce. See
NFIB, 567 U.S. at 552 (opinion of Roberts, C.J.); id. at
652-53 (joint dissent). This conclusion follows fine
from the premise, but the premise is wrong. Despite its
seemingly mandatory language, the coverage requirement does not compel anyone to purchase health insurance.
In NFIB, although five Justices agreed that “[t]he
most straightforward reading of the [coverage requirement] is that it commands individuals to purchase insurance,” id. at 562 (opinion of Roberts, C.J.); accord
id. at 663 (joint dissent), applying the canon of constitutional avoidance, the Court rejected this interpretation. Instead, the Court interpreted the coverage
requirement to offer applicable individuals a “lawful
choice” between purchasing health insurance and paying the shared-responsibility payment, which the
Court interpreted as a valid exercise of Congress’s taxing power. Id. at 574 (Roberts, C.J., majority opinion).
This is a permissible construction, the Court concluded, because “[w]hile the [coverage requirement]
clearly aims to induce the purchase of health insurance, it need not be read to declare that failing to do
so is unlawful.” Id. at 567-68. The Court observed that
“[n]either the [ACA] nor any other law attaches

94a
negative legal consequences to not buying health insurance, beyond requiring a payment to the IRS.” Id.
at 568. And the Court further explained:
Indeed, it is estimated that four million
people each year will choose to pay the
IRS rather than buy insurance. We
would expect Congress to be troubled
by that prospect if such conduct were
unlawful. That Congress apparently regards such extensive failure to comply
with the [coverage requirement] as tolerable suggests that Congress did not
think it was creating four million outlaws.
Id. (citation omitted).
The NFIB Court’s application of constitutional
avoidance as an interpretive tool does not mean that
the Court rewrote the statute. Only Congress can do
that. Rather, the Court was “choosing between competing plausible interpretations of a statutory text,
resting on the reasonable presumption that Congress
did not intend the alternative which raises serious constitutional doubts.” Clark v. Martinez, 543 U.S. 371,
381 (2005). “The canon is thus a means of giving effect
to congressional intent, not of subverting it.” Id. at
382. Accordingly, when the Court ruled in NFIB that
“[t]hose subject to the [coverage requirement] may
lawfully forgo health insurance,” NFIB, 567 U.S. at
574 n.11, that was an authoritative determination regarding what the text of the coverage requirement
meant and what Congress intended.
The majority pushes aside NFIB’s construction, acting as though the fact that the NFIB Court applied the

95a
canon of constitutional avoidance means that its interpretation no longer governs following the repeal of the
shared-responsibility payment. But when the Court
construes statutes, its “interpretive decisions, in whatever way reasoned, effectively become part of the statutory scheme, subject (just like the rest) to
congressional change.” Kimble v. Marvel Entm’t, LLC,
135 S. Ct. 2401, 2409 (2015) (emphasis added). While
Congress can change its mind and could have
amended the coverage requirement to turn the “lawful choice” described by NFIB, 567 U.S. at 574, into an
unwavering command, the majority does not suggest
that Congress ever made such a choice. Sure, Congress
amended the shared-responsibility payment in 2017.
Yet as the district court went to great lengths to establish and the majority is elsewhere eager to point out,
the coverage requirement and the shared-responsibility payment are distinct provisions. See Maj. Op. at 19
(“To bring a claim against the [coverage requirement],
therefore, the plaintiffs needed to show injury from the
individual mandate—not from the shared responsibility payment.”); Texas v. United States, 340 F. Supp. 3d
579, 596 (N.D. Tex. 2018) (“It is critical to clarify something at the outset: the shared-responsibility payment, 26 U.S.C. § 5000A(b), is distinct from the
[coverage requirement], id. § 5000A(a).”). And Congress did not touch the text of the coverage requirement when it amended the shared-responsibility
payment. See Budget Fiscal Year, 2018, Pub. L. No.
115-97, § 11081. Compare § 5000A(a), with 26 U.S.C.
§ 5000A(a) (2011). At risk of stating the obvious, if the
text of the coverage requirement has not changed, its
meaning could not have changed either. By “giv[ing]
these same words a different meaning,” the majority
“invent[s] a statute rather than interpret[s] one.”
Clark, 543 U.S. at 378.

96a
The majority is thus left on unsteady ground:
amendment by implication, which “will not be presumed unless the legislature’s intent is ‘clear and
manifest.’” In re Lively, 717 F.3d 406, 410 (5th Cir.
2013) (quoting Nat’l Ass’n of Home Builders v. Defs. of
Wildlife, 551 U.S. 644, 662 (2007)); see also, e.g., Epic
Sys. Corp v. Lewis, 138 S. Ct. 1612, 1624 (2018) (“[I]n
approaching a claimed conflict, we come armed with
the ‘stron[g] presum[ption]’ that repeals by implication
are ‘disfavored’ and that ‘Congress will specifically address’ preexisting law when it wishes to suspend its
normal operations in a later statute.” (second and
third alterations in original) (quoting United States v.
Fausto, 484 U.S. 439, 452-53 (1988))). This rule operates with equal force when a judicial construction previously illuminated the meaning of the purportedly
amended statute. See TC Heartland LLC v. Kraft
Foods Grp. Brands LLC, 137 S. Ct. 1514, 1520 (2017)
(“When Congress intends to effect a change of [a statute’s earlier judicial interpretation], it ordinarily provides a relatively clear indication of its intent in the
text of the amended provision.”); Midlantic Nat’l Bank
v. N.J. Dep’t of Envtl. Prot., 474 U.S. 494, 501 (1986)
(“The normal rule of statutory construction is that if
Congress intends for legislation to change the interpretation of a judicially created concept, it makes that
intent specific.”); cf. Whitman v. Am. Trucking Ass’n,
531 U.S. 457, 468 (2001) (“Congress, we have held,
does not alter the fundamental details of a regulatory
scheme in vague terms or ancillary provisions—it does
not, one might say, hide elephants in mouseholes.”).
Congress’s silence on the matter is thus conclusive.
Yet even if one probes further, it boggles the mind
to suggest that Congress intended to turn a nonmandatory provision into a mandatory provision by

97a
doing away with the only means of incentivizing compliance with that provision. Congress quite plainly intended to relieve individuals of the burden the
coverage requirement put on them; it did not intend to
increase that burden. And if it did, it certainly did not
make that intent “clear and manifest.” Lively, 717 F.3d
at 410. Moreover, the considerations that led the NFIB
Court to conclude that Congress did not intend the
coverage requirement to impose a legal command to
purchase health insurance are even more compelling in
the absence of the shared-responsibility payment.
Whereas before the only “negative legal consequence[]
to not buying health insurance” was the payment of a
tax, NFIB, 567 U.S. at 567-68, now there are no consequences at all. And as the Congressional Budget Office (“CBO”) has predicted, without the sharedresponsibility payment, most applicable individuals
will not maintain health insurance solely for the purpose of obeying the coverage requirement. See Cong.
Budget Office, Repealing the Individual Health Insurance Mandate: An Updated Estimate at 1 (2017).
“That Congress apparently regards such extensive
failure to comply with the [coverage requirement] as
tolerable suggests that Congress did not think it was
creating [millions of] outlaws.” NFIB, 567 U.S. at 568.
Ergo, when Congress zeroed-out the shared-responsibility payment without amending the coverage
requirement, it did not do away with the lawful choice
it previously offered applicable individuals; it simply
changed the parameters of that choice. Under the old
scheme, applicable individuals could lawfully choose
between maintaining health insurance and paying a
tax. Under the new scheme, applicable individuals can
lawfully choose between maintaining health insurance and doing nothing. In other words, the coverage

98a
requirement is a dead letter—it functions as an expression of national policy or words of encouragement,
at most. Accordingly, although I would not reach the
merits, I would reverse if I did.
IV.
I agree with much of what the majority has to say
about the district court’s severability ruling. But I fail
to understand the logic behind remanding this case for
a do-over. Severability is a question of law that this
court can review de novo. And the answer here is quite
simple—indeed, a severability analysis will rarely be
easier. After all, “[o]ne determines what Congress
would have done by examining what it did,” and Congress declawed the coverage requirement without repealing any other part of the ACA. Legal Servs. Corp v.
Velazquez, 531 U.S. 533, 560 (2001) (Scalia, J., dissenting); see also Ayotte v. Planned Parenthood of N.
New Eng., 546 U.S. 320, 330 (2006) (“[T]he touchstone
for [severability analysis] is legislative intent.”). Consequently, little guesswork is needed to determine
that Congress believed the ACA could stand in its entirety without the unenforceable coverage requirement.
The majority suggests that remand is necessary because the district court “has many tools at its disposal”
and is thus “best positioned to undertake” the severability inquiry. Maj. Op. at 60. It is true that the district
court is better able to assess factual issues than appellate judges, because it can hold evidentiary hearings,
but I cannot see how that could be relevant, since severability is a question of law that we review de novo.
Further, it is not clear what sort of evidence the district
court could receive that would be useful when deciding
severability questions except perhaps legislative history, a source which the majority derides. See Maj. Op.

99a
at 56 n.45 (“[W]e caution against relying on individual
statements by legislators to determine the meaning of
the law.”). When it comes to analyzing the statute’s
text and historical context, see id., we are just as competent as the district court. There is thus no reason to
prolong the uncertainty this litigation has caused to
the future of this indubitably significant statute.12
A.
Before I address the more specific problems with
the district court’s inseverability ruling, some background on the ACA is in order. Congress passed the
ACA in 2010 to address a growing crisis of Americans
living without health insurance. Prior to the ACA,
nearly 50 million Americans (about 15 percent of the
population at the time) were uninsured. Florida ex rel.
Att’y Gen. U.S. Dep’t of Health & Human Servs., 648
F.3d 1235, 1244 (11th Cir. 2011), rev’d on other
grounds, NFIB, 567 U.S. 519. Although many large
employers provided health insurance, coverage was often cost prohibitive for small businesses and consumers seeking insurance through the individual market
(i.e., directly instead of through an employer). See U.S.
Gov’t Accountability Office, GAO-12-166R, Health
Care Coverage: Job Lock and the Potential Impact of
12 The majority also suggests that remand is necessary so that
the district court can consider remedial issues, raised by the
United States for the first time on appeal, regarding the appropriate scope of relief. But such issues are largely moot if, as I believe, the coverage requirement is completely severable from the
rest of the ACA. For example, I do not perceive a meaningful difference between a nationwide injunction prohibiting enforcement
of the already-unenforceable coverage requirement versus an injunction against enforcement that is limited to the plaintiff
states. In any case, this court could—and, in my view, should—
resolve the severability issue even if remanding remedial issues
is appropriate.

100a
the Patient Protection and Affordable Care Act 3-4
(2011). Moreover, insurance companies could—and
regularly would—deny coverage to high-risk consumers, especially those with preexisting medical conditions. Id. at 4.
The pre-ACA status quo created numerous economic and social problems. Most obviously, America’s
uninsured population could not afford spiraling
healthcare costs, thus exacerbating health problems,
leading to an estimated 45,000 premature deaths annually, Andrew P. Wilper et al., Health Insurance and
Mortality in US Adults, 99 Am. J. Pub. Health 2289,
2292 (2009), and causing “62 percent of all personal
bankruptcies,” 42 U.S.C. § 18091(2)(G). The uninsured
crisis caused some subtler problems too. For one thing,
hospitals would have to absorb the costs of treating
uninsured patients and would inevitably pass those
costs along to insurance companies, which would then
pass them along to consumers. See § 18091(2)(F) (“The
cost of providing uncompensated care to the uninsured
was $43,000,000,000 in 2008. To pay for this cost,
health care providers pass on the cost to private insurers, which pass on the cost to families.”). See generally
Amicus Br. of HCA Healthcare, Inc. at 9-13. And dependency on employer-based healthcare decreased labor mobility, discouraged entrepreneurship, and kept
potential caregivers away from the home. See GAO-12166R, supra, at 5-6.
In enacting the ACA, Congress sought to address
these and other problems with the national healthcare
system by drastically reducing the number of uninsured and underinsured Americans. To achieve this
goal, the ACA undertook a series of reforms, most notably to the individual insurance market. See generally Patient Protection and Affordable Care Act, Pub.

101a
L. No. 111-148, tit. I, 124 Stat. 119 (2010). Among the
ACA’s most important (and visible) reforms are two
related provisions: guaranteed issue and community
rate. See 42 U.S.C. §§ 300gg, 300gg-1. The guaranteedissue provision requires health-insurance providers to
accept every individual who applies for coverage, thus
preventing insurers from denying coverage based on a
consumer’s preexisting medical condition. See § 300gg1(a). The community-rate provision prevents insurers
from charging a higher rate because of a policyholder’s
medical condition. See § 300gg(a).
Left without some counterbalance, the guaranteedissue and community-rate provisions threatened to
overload insurers’ risk pools with high-risk policyholders. Beyond allowing more high-risk consumers to
purchase health insurance (as intended), these provisions disincentivized healthy (i.e., low risk) consumers
from purchasing health insurance because it allowed
them to wait until they developed costly health problems to purchase insurance.13 This would have caused
premiums to skyrocket, exacerbating many of the
problems Congress sought to solve. See generally Amicus Br. of Blue Cross Blue Shield Ass’n at 3-4. Thus, the
ACA included several provisions to incentivize lowrisk consumers to purchase health insurance. It offered tax credits to offset much of the cost of health
insurance for middle-income consumers. See 26 U.S.C.
§ 36B(b). It created healthcare exchanges to facilitate
competition among health plans and to lower transaction costs. See 42 U.S.C. §§ 18031, 18041. It limited
new enrollments to an open-enrollment period set by
the Secretary of Health and Human Services, which
mitigates the adverse-selection problem by preventing
consumers from purchasing health insurance only
13

This is known as the adverse-selection problem.

102a
when they need it. See § 18031(c)(6). And it included
the coverage requirement at issue in this lawsuit. See
§ 5000A(a).
Although the coverage requirement has been
among the ACA’s best-known provisions, the ACA’s reforms to the private insurance market extend well beyond it. As just mentioned, Congress created other
mechanisms to achieve the same goal as the coverage
requirement: incentivize low-risk consumers to purchase health insurance. The ACA also included other
provisions expanding access to the private insurance
market, including a requirement that employers with
50 or more employees offer health insurance, see 26
U.S.C. § 4980H, and a requirement that health-insurance providers allow young adults to remain on their
parents’ insurance until they turn 26, see 42 U.S.C.
§ 300gg-14. And it included provisions designed to
make health-insurance policies more attractive, such
as those directly regulating premiums, see, e.g., id.
§ 300gg-18(b), limiting benefits caps, see id. § 300gg11, and prescribing certain minimum-coverage requirements for health plans, see, e.g., id. § 300gg-13.
Moreover, the ACA contains countless other provisions
that are unrelated to the private insurance market—
and many that are only tangentially related to health
insurance at all. 14 The following are only some of
many possible examples:

 Section 3006, which directs the Sec-

retary of Health and Human Services to “develop a plan to

14 The ACA contains ten titles. Only the first title focuses on the
private insurance industry. The other titles address wide-ranging topics from the “prevention of chronic disease,” ACA tit. IV,
to the “health care work force,” id. tit. V.

103a
implement a value-based purchasing program for payments under the
Medicare program . . . for skilled
nursing facilities.”

 Section 4205, which requires chain

restaurants to conspicuously display “the number of calories contained in . . . standard menu
item[s].”

 Section 5204, which creates a stu-

dent-loan repayment assistance
program “to eliminate critical public health workforce shortages in
Federal, State, local and tribal public health agencies.”

 Section 6402, which, among other

things, strengthens criminal laws
prohibiting healthcare fraud.

 Title III of Part X, which reauthor-

izes and amends the Indian Health
Care Improvement Act, a decadesold statute creating and maintaining the infrastructure for tribal
healthcare services.

Given the breadth of the ACA and the importance of
the problems that Congress set out to address, it is
simply unfathomable to me that Congress hinged the
future of the entire statute on the viability of a single,
deliberately unenforceable provision.15

I do not mean to suggest that, as a policy matter, Congress
chose the best (or even worthwhile) solutions to these problems.

15

104a
B.
In Planned Parenthood of Northern New England,
the Court announced the three principles that must
guide our severability analysis. “First, we try not to
nullify more of a legislature’s work than is necessary,
for we know that ‘[a] ruling of unconstitutionality frustrates the intent of the elected representatives of the
people.’” Planned Parenthood of N. New Eng., 546 U.S.
at 329 (alteration in original) (quoting Regan v. Time,
Inc., 468 U.S. 641, 652 (1984) (plurality opinion)).
“Second, mindful that our constitutional mandate and
institutional competence are limited, we restrain ourselves from ‘rewrit[ing] [a] law to conform it to constitutional requirements’ even as we strive to salvage it.”
Id. (first alteration in original) (quoting Am.
Booksellers, 484 U.S. at 397). “Third, the touchstone
for any decision about remedy is legislative intent, for
a court cannot ‘use its remedial powers to circumvent
the intent of the legislature.’” Id. at 330 (quoting Califano v. Westcott, 443 U.S. 76, 94 (1979) (Powell, J., concurring in part and dissenting in part)).
In accordance with these principles, the Court’s
cases suggest a two-part inquiry. First, we must ask
“whether the law remains ‘fully operative’ without the
invalid provisions.” Murphy v. NCAA, 138 S. Ct. 1461,
1482 (2018); see also United States v. Booker, 543 U.S.
220, 258-59 (2005); Alaska Airlines, Inc. v. Brock, 480
U.S. 678, 684 (1987). If so, the remaining provisions
are “presumed severable” from the invalid provision.
Chadha, 462 U.S. at 934 (quoting Champlin Ref. Co.
Such matters are beyond my job description, so I express no opinion on them. But the district court should have thought more critically about whether Congress likely intended to leave its chosen
solution to a serious problem so vulnerable to judicial invalidation.

105a
v. Corp. Comm’n, 286 U.S. 210, 234 (1932)). This presumption is rebutted only if “the statute’s text or historical context makes it ‘evident’ that Congress, faced
with the limitations imposed by the Constitution,
would have preferred” no statute over the statute with
only the permissible provisions. Free Enter. Fund v.
Pub. Co. Accounting Oversight Bd., 561 U.S. 477, 509
(2010). And as should be clear by now, “the ‘normal
rule’ is ‘that partial, rather than facial, invalidation is
the required course.’” Id. at 508 (quoting Brockett v.
Spokane Arcades, Inc., 472 U.S. 491, 504 (1985)).
1.
The majority has identified the most glaring flaw
in the district court’s severability analysis: the district
court “gives relatively little attention to the intent of
the 2017 Congress, which appears in the analysis only
as an afterthought.” When one takes this fact into account, there can be little doubt as to Congress’s intent.
We have unusual insight into Congress’s thinking
because Congress was given a chance to weigh in on
the ACA’s future without an effective coverage requirement and it decided the ACA should remain in
place. By zeroing out the shared-responsibility payment, the 2017 Congress left the coverage requirement unenforceable. If Congress viewed the coverage
requirement as so essential to the rest of the ACA that
it intended the entire statute to rise and fall with the
coverage requirement, it is inconceivable that Congress would have declawed the coverage requirement
as it did. And make no mistake: Congress declawed the
coverage requirement. As the CBO found only a month
before Congress passed the TCJA, “[i]f the [coverage requirement] penalty was eliminated but the [coverage
requirement] itself was not repealed, the results
would be very similar to” if the coverage requirement

106a
itself were repealed. 2017 CBO Report, supra, at 1. Regardless of lofty civic notions about people who follow
the law for the sake of following the law, the objective
evidence before Congress was that “only a small number of people” would obey the coverage requirement
without the shared-responsibility payment. Id.; cf.
Dep’t of Commerce, 139 S. Ct. at 2565-66 (concluding
people will “predictabl[y]” “violate their legal duty”
when incentivized to do so). Congress accordingly
knew that repealing the shared-responsibility payment would have the same essential effect on the
ACA’s statutory scheme as would repealing the coverage requirement.
Furthermore, as various amici highlight, judicial
repeal of the ACA would have potentially devastating
effects on the national healthcare system and the
economy at large. See, e.g., Amicus Br. of Am.’s Health
Ins. Plans (discussing impact on health-insurance industry); Amicus Br. of 35 Counties, Cities, and Towns
(discussing impact on municipalities); Amicus Br. of
Bipartisan Econ. Scholars (discussing impact on economy); Amicus Br. of Am. Hosp. Ass’n et al. (discussing
impact on hospitals). Regardless of whether the ACA
is good or bad policy, it is undoubtedly significant policy. It is unlikely that Congress would want a statute
on which millions of people rely for their healthcare
and livelihoods to disappear overnight with the wave
of a judicial wand. If Congress wanted to repeal the
ACA through the deliberative legislative process, it
could have done so. But with the stakes so high, it is
difficult to imagine that this is a matter Congress intended to turn over to the judiciary.
2.
A second flaw in the district court’s analysis is the
great weight it places on the fact that Congress in 2017

107a
did not repeal its statutory findings emphasizing the
coverage requirement’s importance to the guaranteedissue and community-rate provisions. See 42 U.S.C.
§ 18091. The district court overread the significance of
§ 18091. Congress enacted the findings in § 18091 to
demonstrate the coverage requirement’s role in regulating interstate commerce. When it invokes its commerce power, Congress routinely makes such findings
to facilitate judicial review. See United States v. Morrison, 529 U.S. 598, 612 (2000) (“While ‘Congress normally is not required to make formal findings as to
the substantial burdens that an activity has on
interstate commerce,’ the existence of such findings
may ‘enable us to evaluate the legislative judgment
that the activity in question substantially affect[s] interstate commerce, even though no such substantial
effect [is] visible to the naked eye.’” (alterations in
original) (citation omitted) (quoting United States v.
Lopez, 514 U.S. 549, 562-63 (1995))). Indeed,
§ 18091(2), the subsection the district court focused its
attention on, is entitled “Effects on the national economy and interstate commerce.”
Section 18091 is not an inseverability clause, and
nothing in its text suggests that Congress intended to
make the coverage requirement inseverable from the
remainder of the ACA. If Congress intended to draft
an inseverability clause, it knew how to do so. See Office of Legislative Counsel, U.S. Senate, Senate Legislative Drafting Manual § 131(b) (1997) (explaining
purpose of inseverability clause). Compare id. § 131(c)
(providing as example of proper form for inseverability
clause: “EFFECT OF INVALIDITY ON OTHER PROVISIONS OF ACT.—If section 501, 502, or 503 of the
Federal Election Campaign Act of 1971 (as added by
this section) or any part of those sections is held to be
invalid, all provisions of and amendments made by

108a
this Act shall be invalid”), with § 18091(2)(H) (“The requirement is an essential part of this larger regulation
of economic activity, and the absence of the requirement would undercut Federal regulation of the health
insurance market.”). In fact, both the House and the
Senate legislative drafting guides suggest that Congress should include an inseverability clause if it
wants to make a statute inseverable because “[t]he Supreme Court has made it quite clear that invalid portions of statutes are to be severed ‘unless it is evident
that the Legislature would not have enacted those provisions which are within its powers, independently of
that which is not.’” Office of Legislative Counsel, U.S.
House of Representatives, House Legislative Counsel’s Manual on Drafting Style § 328 (1995) (quoting
Chadha, 462 U.S. at 931); accord Senate Legislative
Drafting Manual, supra, at § 131(a). The absence of a
genuine inseverability clause should be all but conclusive in assessing the legislature’s intent.
Moreover, the argument that § 18091 is meant to
signal Congress’s intent that the coverage requirement be inseverable proves far too much. Section 18091 discusses the coverage requirement’s
importance to the entire federal healthcare regulatory
scheme, including—along with the ACA—the Public
Health Service Act (“PHSA”) and the Employee Retirement Income Security Act (“ERISA”). See
§ 18091(2)(H) (“Under the Employee Retirement Income Security Act of 1974 (29 U.S.C. 1001 et seq.), the
Public Health Service Act (42 U.S.C. 201 et seq.), and
this Act, the Federal Government has a significant
role in regulating health insurance. The [coverage] requirement is an essential part of this larger regulation
of economic activity, and the absence of the requirement would undercut Federal regulation of the health

109a
insurance market.” (emphasis added)). It is not suggested that Congress intended a court to strike down
the PHSA and ERISA if it found the coverage requirement unconstitutional. This would be especially implausible given the intensity of the debate over the
coverage requirement’s constitutionality from the getgo. See NFIB, 567 U.S. at 540 (“On the day the President signed the [ACA] into law, Florida and 12 other
States filed a complaint in the Federal District Court
for the Northern District of Florida.”). Yet in signaling
that the coverage requirement is “an essential part of
this larger regulation,” Congress did not distinguish
between the ACA and these prior statutes. Thus,
§ 18091 cannot reasonably be read to bear on the coverage requirement’s severability.
3.
Another flaw in the district court’s analysis is its
suggestion that the Supreme Court concluded in NFIB
and King v. Burwell, 135 S. Ct. 2480 (2015), that the
coverage requirement is inseverable from the ACA’s
guaranteed-issue and community-rate provisions. The
district court misconstrued these opinions. And even
if the district court read them correctly, these opinions
address the coverage requirement as enforced by the
shared-responsibility payment. They give little valuable insight into the coverage requirement’s role in the
post-TCJA ACA.
In NFIB, only the dissenters addressed the coverage requirement’s severability. The district court did
not suggest it is bound by a Supreme Court dissent,
and of course it is not. The district court instead took
language from the other five Justices out of context to
conclude that each of them viewed the coverage requirement as inseverable. But none of the language
the district court cited addresses severability. See

110a
NFIB, 567 U.S. at 547-48 (opinion of Roberts, C.J.)
(discussing Government’s argument that coverage requirement plays a role in regulating interstate commerce); id. at 597 (Ginsburg, J., dissenting in part)
(same). Although the Justices’ reasoning certainly suggests that they saw the coverage requirement as an
important part of the statutory scheme as it existed in
2012, this does not mean the Justices found it “evident”
that Congress would have preferred the entire statute
to fall without the coverage requirement. Alaska Airlines, 480 U.S. at 684.
King likewise contains some helpful commentary
about the ACA’s original statutory scheme, but it does
not discuss severability or otherwise control the severability analysis. The Court ruled in King that the
ACA’s tax credits were available to every eligible consumer regardless of whether the state in which a consumer lived established its own exchange or relied on
the federally operated exchange. 135 S. Ct. at 2496.
The coverage requirement came up because many
more individuals would have been exempt from the
shared-responsibility payment if tax credits were not
available to them. Id. at 2493-95; see also
§ 5000A(e)(1)(A) (“No penalty shall be imposed . . .
with respect to . . . [a]ny applicable individual for any
month if the applicable individual’s required contribution (determined on an annual basis) for coverage for
the month exceeds 8 percent of such individual’s household income . . . .”).16 Noting the importance of the tax
Lest there be any confusion, the exemption at issue in King exempted individuals otherwise subject to the coverage requirement
from the shared-responsibility payment; it did not exempt them
from the coverage requirement itself. Exemptions from the
shared-responsibility payment are listed in § 5000A(e)(1),

16

111a
credits and coverage requirement (as enforced by the
shared-responsibility payment) to the statutory structure, the Court concluded as a matter of statutory interpretation that Congress did not intend a scheme in
which neither tax credits nor the coverage requirement were operating to bring low-risk consumers into
the insurance pools. See King, 135 S. Ct. at 2492-94
(“The combination of no tax credits and an ineffective
coverage requirement could well push a State’s individual insurance market into a death spiral. . . . It is
implausible that Congress meant the [ACA] to operate
in this manner.”).
The district court framed King as saying that Congress intrinsically tied the community-rate and guaranteed-issue provisions to the coverage requirement,
meaning that those provisions must be inseverable
from the coverage requirement. But the district court
ignored a crucial aspect of the King Court’s analysis:
it explicitly discussed the coverage requirement as enforced by the shared-responsibility payment. See id. at
2493 (referring to the coverage requirement as “a requirement that individuals maintain health insurance
coverage or make a payment to the IRS” (emphasis
added)). Indeed, as the Court identified it, the crux of
the problem with denying consumers tax credits in federal-exchange states was that doing so would make a
large number of individuals unable to afford insurance, thus exempting them from the shared-responsibility payment. See id. These widespread exemptions
would, in turn, make the coverage requirement “ineffective.” Id. King thus speaks far more to the sharedresponsibility payment’s role in the ACA’s pre-TCJA
whereas exemptions from the coverage requirement itself are
listed in § 5000A(d).

112a
statutory scheme than it does the coverage requirement’s role in the statutory scheme.
Even to the extent the Court in NFIB or King
meant to opine on the coverage requirement’s severability, these cases were both decided before the TCJA.
They thus give no insight into how the coverage requirement fits into the post-TCJA scheme. Whatever
reservations the Court previously harbored about severing the coverage requirement, Congress plainly did
not share those concerns when it zeroed out the
shared-responsibility payment. Congress either concluded that healthcare markets under the ACA had
reached a point of stability at which they no longer
needed an effective coverage requirement,17 or it chose
to accept the negative side effects of effectively repealing the coverage requirement as a cost of relieving the
burden it placed on applicable individuals. Either way,
the legislative considerations have necessarily shifted.
In sum, there was no reason for the district court
to conclude that any provision in the ACA was inseverable from the coverage requirement. The majority
does not necessarily disagree. I thus do not understand
its decision to remand when, even on the majority’s
analysis of the case, it could instead reverse and render a judgment declaring only the coverage requirement unconstitutional.

See CBO Report, supra, at 1 (concluding that “[n]ongroup insurance markets would continue to be stable in almost all areas of
the country throughout the coming decade” if the coverage requirement were repealed); Amicus Br. of Blue Cross Blue Shield
Ass’n at 24-27 (explaining that tax credits and other ACA provisions are driving enough consumers into insurance markets to
make the coverage requirement unnecessary).

17

113a
V.
Limits on judicial power demand special respect in
a case like this. For one thing, careless judicial interference has the potential to be especially pernicious
when it involves a complex statute like the ACA, which
carries such significant implications for the welfare of
the economy and the American populace at large. For
another, the legitimacy of the judicial branch as a
countermajoritarian institution in an otherwise democratic system depends on its ability to operate with restraint—and especially so in a high-profile case such
as the one at bar. The district court’s opinion is textbook judicial overreach. The majority perpetuates that
overreach and, in remanding, ensures that no end for
this litigation is in sight.
I respectfully dissent.

114a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
No. 4:18-cv-00167-O
TEXAS, et al., Plaintiffs,
v.
UNITED STATES OF AMERICA, et al.,
Defendants,
CALIFORNIA, et al., Intervenors-Defendants.
STAY ORDER AND ADMINISTRATIVE
CLOSURE
(Doc. 223) Filed December 31, 2018
The Court has entered a partial judgment on
Count I in this case (ECF No. 221). The Court determines the remainder of this case should be STAYED
pending further orders. The Clerk is therefore instructed to submit a JS-6 form to the Administrative Office, removing this case from the statistical
records.
Nothing in this Order shall be considered a dismissal or disposition of the remaining clams. The parties
are directed to notify the Court upon the conclusion of
the appeal of the partial judgment within 14 days of
any decision. Should further proceedings in the meantime become necessary or desirable, any party may initiate it by filing an appropriate pleading.

115a
SO ORDERED on this 31st day of December,
2018.
/s/Reed O’Connor
Reed O’Connor
UNITED STATES DISTRICT JUDGE

116a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
No. 4:18-cv-00167-O
TEXAS, et al., Plaintiffs,
v.
UNITED STATES OF AMERICA, et al.,
Defendants,
CALIFORNIA, et al., Intervenors-Defendants.
FINAL JUDGMENT ON COUNT I
(Doc. 221) December 30, 2018
The Court issued its order granting partial summary judgment on Count I of Plaintiffs’ Amended
Complaint, and has determined that it should be severed from the remaining claims. December 14, 2018
Order, ECF No. 211. In accordance with Federal Rule
of Civil Procedure 54(b), the Court therefore DECLARES that 26 U.S.C. § 5000A(a) is UNCONSTITUTIONAL and INSEVERABLE from the
remainder of the Patient Protection and Affordable
Care Act, Pub. L. 111-148, 124 Stat. 119-1045 (2010).
SO ORDERED on this 30th day of December,
2018.
/s/Reed O’Connor
Reed O’Connor
UNITED STATES DISTRICT JUDGE

117a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
No. 4:18-cv-00167-O
TEXAS, et al., Plaintiffs,
v.
UNITED STATES OF AMERICA, et al.,
Defendants,
CALIFORNIA, et al., Intervenors-Defendants.
ORDER GRANTING STAY
AND PARTIAL FINAL JUDGMENT
(Doc. 220) December 30, 2018
On December 14, 2018, the Court entered its Order
granting partial summary judgment on Count I of the
Plaintiffs’ Amended Complaint. See ECF No. 211. On
December 16, 2018, the Court ordered the Parties to
meet and confer and, by January 4, 2019, to jointly
propose a schedule for resolving the Plaintiffs’ remaining claims. See ECF No. 212. On December 17, 2018,
the Intervenor Defendants moved the Court to clarify
that the December 14, 2018 Order is not binding or to
enter a stay if the Order is binding and to enter final
judgment or certify the Order for immediate appeal.
See ECF No. 213.
I.

BACKGROUND

Plaintiffs are the States of Alabama, Arizona, Arkansas, Florida, Georgia, Indiana, Kansas, Louisiana,
Mississippi, Missouri, Nebraska, North Dakota, South
Carolina, South Dakota, Tennessee, Texas, Utah,

118a
West Virginia, Wisconsin, Governor Paul LePage of
Maine (the “State Plaintiffs”), and individuals Neill
Hurley and John Nantz (the “Individual Plaintiffs”
and, collectively with the State Plaintiffs, “Plaintiffs”).
Defendants are the United States of America, the
United States Department of Health and Human Services (“HHS”), Alex Azar, in his official capacity as
Secretary of HHS, the United States Internal Revenue
Service (the “IRS”), and David J. Kautter, in his official capacity as Acting Commissioner of Internal Revenue (collectively, the “Federal Defendants”).
Finally, the States of California, Connecticut, Delaware, Hawaii, Illinois, Kentucky, Massachusetts,
Minnesota, New Jersey, New York, North Carolina,
Oregon, Rhode Island, Vermont, Virginia, and Washington, and the District of Columbia intervened as defendants (collectively, the “Intervenor Defendants”).
The Plaintiffs sued the Federal Defendants seeking, among other things, a declaration that the Individual Mandate of the Patient Protection and
Affordable Care Act (ACA), Pub. L. 111-148, 124 Stat.
119-1045 (2010), as amended by the Tax Cuts and
Jobs Act of 2017 (TCJA), Pub. L. No. 115-97, 131 Stat.
2054 (2017), is unconstitutional and that the remainder of the ACA is inseverable. Am. Compl. 2, ECF No.
27. Their theory is that, because the TCJA eliminated
the shared-responsibility tax, the tax-based saving
construction developed by the Supreme Court in National Federation of Independent Businesses v. Sebelius (NFIB), 567 U.S. 519 (2012), no longer applies.
Am. Compl. 2–3, ECF No. 27. Plaintiffs further argue
that, as the four joint dissenters reasoned in NFIB, the
Individual Mandate is inseverable from the rest of the
ACA. Pls.’ Br. Prelim. Inj. 35, ECF No. 40 (citing

119a
NFIB, 567 U.S. at 691–703 (joint dissent)) [hereinafter
“Pls.’ Br.”].
The Federal Defendants agree the Individual Mandate is unconstitutional and inseverable from the
ACA’s pre-existing-condition provisions. But they argue all other ACA provisions are severable from the
mandate. The Intervenor Defendants argue all of
Plaintiffs’ claims fail.
The Plaintiffs filed an Application for Preliminary
Injunction, (ECF No. 39), on April 26, 2018; the Federal Defendants and the Intervenor Defendants responded, (ECF Nos. 91 and 92), on June 7, 2018; and
Plaintiffs replied, (ECF No. 175), on July 5, 2018. Because the Federal Defendants argued a judgment, as
opposed to an injunction, was more appropriate, the
Court provided notice of its intent to resolve the issues
raised by the Application for Preliminary Injunction
on summary judgment. See July 16, 2018 Order, ECF
No. 176 (citing FED. R. CIV. P. 56(f)(3)). The parties responded. See ECF Nos. 177–79.
On December 14, 2018, the Court issued its order
denying the Plaintiffs’ request for a preliminary injunction but granting summary judgment on Count I
of the Amended Complaint, finding the Individual
Mandate is unconstitutional because it no longer triggers a tax and is inseverable from the remainder of the
ACA. See Dec. 14, 2018 Order, ECF No. 211. On December 17, 2018, the Intervenor Defendants moved
the Court to (1) clarify whether the December 14, 2018
Order is immediately binding on the parties and
(2) stay the order or certify it for appeal, as appropriate. See Intervenor Defs.’ Mot. Stay, ECF No. 213. The
Court ordered expedited briefing, see ECF No. 215,
and the Parties promptly complied, see ECF Nos. 216,
217, and 218.

120a
As an initial matter, the Court recognizes the Parties’ diligent work on this delicate and complex matter.
Counsel have conducted themselves with grace and
professionalism, consistently advocating zealously on
behalf of their clients with candor and class. And it is
no small feat, the Court acknowledges, to prepare such
crisp briefing, with so many moving parts, on an expedited basis during the holiday season. For all this, the
Court is grateful.
Having reviewed the briefing and applicable law,
the Court finds it is most efficient and appropriate to
GRANT the Intervenor Defendants’ request for final
judgment on the December 14, 2018 Order granting
summary judgment on Count I of the Amended Complaint and to GRANT the Intervenor Defendants’ request for a stay of that judgment.
II. LEGAL STANDARDS
A.

Partial Final Judgment

Federal Rule of Civil Procedure 54(b) provides:
“When an action presents more than one claim for relief . . . the court may direct entry of a final judgment
as to one or more, but fewer than all, claims or parties
only if the court expressly determines that there is no
just reason for delay.” FED. R. CIV. P. 54(b). This Rule
“permits district courts to authorize immediate appeal
of dispositive rulings on separate claims in a civil action raising multiple claims.” Gelboim v. Bank of Am.
Corp., 135 S. Ct. 897, 902 (2015). “As both the rule’s
text and the Supreme Court have made clear, a district court deciding whether to certify a judgment under Rule 54(b) must make two determinations.”
Briargrove Shopping Ctr. Joint Venture v. Pilgrim Enterprises, Inc., 170 F.3d 536, 539 (5th Cir. 1999) (citation omitted). First, the court must determine that it

121a
is entering judgment on “an ultimate disposition of an
individual claim entered in the course of a multiple
claims action.” Id. (citation omitted). Second, the court
must determine that no “just reason for delay exists.”
Id. (citation omitted).
B.

Stay of Judgment

“The party requesting a stay bears the burden of
showing that the circumstances justify an exercise of
[the Court’s] discretion.” Nken v. Holder, 556 U.S. 418,
433–34 (2009). To determine whether to grant a stay
pending appeal courts consider four factors:
“(1) whether the stay applicant has made a strong
showing that he [or she] is likely to succeed on the
merits; (2) whether the applicant will be irreparably
injured absent a stay; (3) whether issuance of the stay
will substantially injure the other parties interested
in the proceeding; and (4) where the public interest
lies.” Campaign for S. Equality v. Bryant, 773 F.3d 55,
57 (5th Cir. 2014) (quoting Veasey v. Perry, 769 F.3d
890, 892 (5th Cir. 2014)). But when “evaluating these
factors, [the Fifth Circuit] has refused to apply them
‘in a rigid . . . [or] mechanical fashion.’” Id. (quoting
United States v. Baylor Univ. Med. Ctr., 711 F.2d 38,
39 (5th Cir. 1983)).
III. ANALYSIS
A.

The Court Will Enter Partial Final Judgment

Given the Parties’ inquiries about whether the
Court’s December 14, 2018 Order is final and binding—and the unanimous agreement that the Order
should be immediately appealable1—the Court finds it
See, e.g., Intervenor Defs.’ Mot. Stay 14, ECF No. 213-1; Fed.
Defs.’ Resp. 6, ECF No. 216; Pls.’ Resp. 5, ECF No. 217.

1

122a
is most efficient to enter a partial final judgment under Rule 54(b) on the Order and then stay it pending
appeal.
The Federal Defendants suggest it would be inappropriate for the Court to enter partial final judgment
under Rule 54(b) “because the Amended Complaint
presents only one claim for purposes of Rule 54(b)—
that the individual mandate is unconstitutional and
that it is not severable from the rest of the ACA.” 2
They assert that “Counts I through V represent
merely alternative theories of relief or different forms
of remedy.”3 The Court finds that Counts I through V
of the Amended Complaint are not mere redundancies.
Count I, for example, asks for a declaratory judgment that the Individual Mandate is unconstitutional. 4 Count II, however, raises a Due Process
Clause claim and asserts that because “Section
5000A’s individual mandate is unconstitutional, the
rest of the ACA is irrational under Congress’s own
findings” and that “[t]he ACA lacks a rational basis
now that the individual mandate’s tax penalty has
been repealed.”5 It is true this claim is likely moot if
the Court’s December 14, 2018 Order is affirmed on
appeal; but if the Order is reversed in whole or in part,
the Plaintiffs could still seek relief under the theory
put forth in Count II. And Count IV, for example, pre-

2

Fed. Defs.’ Resp. 8, ECF No. 216.

3

Id.

4

See Am. Compl. 28, ECF No. 27.

5

Id. at 30.

123a
sents an APA claim that presupposes the ACA’s unconstitutionality but seeks different relief entirely. 6
The claims, in other words, are related but distinct.
Moreover, the Court finds that summary judgment
on Count I is an “ultimate disposition of an individual
claim.” Pilgrim Enterprises, 170 F.3d at 539 (citation
omitted). By the Court’s Order, the Plaintiffs have succeeded on Count I—the entry of summary judgment
“dispose[d] of that claim entirely.” Monument Mgmt.
Ltd. P’ship I v. City of Pearl, 952 F.2d 883, 885 (5th
Cir. 1992) (emphasis in original). And that claim—
that the Individual Mandate is unconstitutional—is
the Plaintiffs’ “primary claim.” Id. (emphasis in original). Plus, for the reasons discussed in the below stay
analysis, the Court finds there is “no just reason for
delay[ing]” appeal of the December 14, 2018 Order.
See Pilgrim Enterprises, 170 F.3d at 539.
The Court therefore GRANTS the Intervenor Defendants’ motion for final judgment on the December 14, 2018 Order, (ECF No. 211), granting summary
judgment on Count I of the Amended Complaint and
declaring the Individual Mandate unconstitutional
and inseverable.
B.

The Order is Stayed

The Intervenor Defendants bear the burden of
demonstrating that a stay is warranted. Nken, 556
U.S. at 433–34. In their briefing, the Intervenor Defendants address all four factors relevant to a district
court’s analysis of whether to exercise its discretion to
grant a stay pending appeal.7 For the reasons set forth

6

Id. at 32.

7

See Intervenor Defs.’ Mot. Stay 7–14, ECF No. 213-1.

124a
below, the Court finds the Intervenor Defendants cannot carry their burden on the first relevant factor—
likelihood of success on the merits. But the Intervenor
Defendants prevail on the remaining elements, and
the Plaintiffs do not argue otherwise.
1.

The Intervenor Defendants Are Unlikely to
Succeed

The Intervenor Defendants put forth a very powerful narrative in this case—one they assert the Fifth
Circuit is likely to adopt. In truth, the narrative presents a forceful, surface-level appeal. It goes something like this.
The Individual Plaintiffs have no standing because
they suffer no injury. After the TCJA, there is no tax
penalty for non-compliance with the Individual Mandate. And anyways, the Individual Mandate is purely
optional. So, at most, the ACA presents the Individual
Plaintiffs with a simple choice between buying ACAcompliant insurance or “paying” a $0 tax. No harm, no
foul.
But even if the choice between buying insurance
and doing nothing creates standing, the Intervenor
Defendants continue, the Individual Mandate is constitutional. It is constitutional as an exercise of Congress’s Tax Power because the now-eliminated sharedresponsibility payment still satisfies a number of the
tax factors discussed in NFIB. And even if the Individual Mandate is no longer salvageable as an exercise of
the Tax Power, it may now be viewed as a proper exercise of Congress’s Interstate Commerce Power because it does not compel anyone to do anything.
Finally, even if the Individual Mandate is unconstitutional, it is severable from the remainder of the
ACA. We know that because the 2017 Congress that

125a
passed the TCJA eliminated the shared-responsibility
payment but left the rest of the ACA intact.
So stated, this narrative is compelling. But it rests
on two crucial premises, without which it falls apart.
First, it is premised on a belief that written law is not
binding. Second, it is premised on the view that the
Supreme Court’s reasoning in NFIB did not simply
craft a saving construction but instead permanently
supplanted Congress’s intent by altering the very nature of the ACA. In the Court’s view, neither of these
premises hold and therefore neither does the narrative. The Court therefore finds the Intervenor Defendants are unlikely to succeed on the merits of their
appeal for at least the following basic reasons.
a.

Standing

The Intervenor Defendants assert that, on appeal,
they “are likely to establish that the Individual Plaintiffs do not have standing to maintain this action” because, after January 1, 2019, the Individual Plaintiffs
will not be put to a choice “between purchasing minimum essential coverage, on the one hand, and paying
the penalty for not doing so, on the other.” Intervenor
Defs.’ Mot. Stay 8, ECF No. 213-1 (citing Hotze v. Burwell, 784 F.3d 984, 993 (5th Cir. 2015)). The Court
finds it unlikely that the Fifth Circuit will hold the Individual Plaintiffs lack standing to challenge the constitutionality of the Individual Mandate—under Hotze
or otherwise.
In Hotze, the plaintiffs challenged the ACA as unconstitutional under the Origination Clause and the
Takings Clause, unlike the Individual Plaintiffs here
who, like the plaintiffs in NFIB, challenge the Individ-

126a
ual Mandate as beyond Congress’s enumerated powers. 8 In deciding the case, the Fifth Circuit did not
hold that an individual may challenge the constitutionality of the ACA only if the individual pleads that
they lack ACA-compliant coverage and are therefore
faced with a choice between purchasing insurance or
paying a penalty.9 Instead, it held on the basis of the
pleadings before it that the plaintiffs failed to adequately plead that precise dilemma and that doing so
would have been “the most straightforward” way to
demonstrate standing. Id. at 994 (“Accordingly, we
hold that Dr. Hotze has failed to demonstrate standing
on the most straightforward ground—that is, that the
ACA forces him to choose between paying the penalty
and purchasing compliant insurance.”).
Specifically, Dr. Hotze pleaded that the “ACA compels Plaintiff Hotze and other Texans to pay enormous
penalties to the federal government, or else purchase
health insurance that is far more expensive and less
useful than existing employer-based coverage.” Complaint at 1, Hotze v. Sebelius, 991 F. Supp. 2d 864 (S.D.
Tex. 2014) (No. 4:13-cv-01318). 10 This “purchase or
Compare Hotze, 784 F.3d at 986, with NFIB, 567 U.S. at 530–
32.

8

See Hotze, 784 F.3d at 993 (noting the distinction in other circuits that “plaintiffs . . . who already have minimum essential
coverage ordinarily will not have an injury in fact for standing
purposes” (emphasis added)).
9

See also id. at 6 (“Plaintiffs will suffer irreparable harm in being
compelled to switch to a more expensive government-approved insurance plan that does not cover or reimburse for desired medical
services.”); id. at 6–7 (“Plaintiffs will suffer unrecoverable financial losses from the implementation of ACA, which they will have
no practical way of recouping from the federal government or from
private, government-approved insurance carriers.”); id. at 7

10

127a
penalty” theory of economic injury forced the court to
contend with the fact that Dr. Hotze never actually
pleaded the facts necessary to support his own theory
of standing—i.e., that he was put to a concrete choice
between the costs of obeying 26 U.S.C. § 5000A(a) or
paying the penalty amount set by § 5000A(c).11 To the
contrary, the complaint there suggested Dr. Hotze
faced no such dilemma because he was covered by his
employer. See Hotze, 784 F.3d at 989 (“[T]he complaint
at no point clearly alleges that the health-insurance
policy that Braidwood already provides to Dr. Hotze
fails to satisfy the mandates.”).
Hotze, then, is not a broad holding that individuals
lack standing to challenge the Individual Mandate’s
constitutionality unless they first disobey that provision and fail to maintain compliant coverage. To read
Hotze in such a manner would run headlong into the
well-established doctrine that individuals need not
first disobey a law to earn standing to challenge it.12
(“Plaintiffs have already suffered harm by the reduction in market choice for affordable health insurance, as insurance premiums have already increased in the market due to ACA.”).
See Hotze, 784 F.3d at 994 (“Given the complaint’s allegation
that Dr. Hotze has an employer-provided health-insurance plan,
coupled with the complaint’s failure to allege that this plan falls
into the narrow category of employer-provided plans that do not
constitute ‘minimum essential coverage’ under § 5000A, we cannot ‘reasonably ... infer[ ]’ that Dr. Hotze lacks the minimum essential coverage required by the mandate.” (citations omitted)).

11

See, e.g., Steffel v. Thompson, 415 U.S. 452, 459 (1974); Planned
Parenthood of Gulf Coast, Inc. v. Gee, 862 F.3d 445, 455 (5th Cir.
2017), cert. denied, 139 S. Ct. 408 (2018) (“This argument ignores
the well- established principle that a threatened injury may be
sufficient to establish standing . . . The Individual Plaintiffs thus
need not wait to file suit until PPGC is forced to close its doors to

12

128a
Instead, Hotze is a narrow, fact-specific holding that
the plaintiff failed to adequately plead his own purchase-or-penalty theory of standing. Hotze, 784 F.3d
at 991 (“Thus, although we do not doubt that many
have suffered an injury in fact at the hands of the individual mandate, the plaintiffs’ complaint does not
adequately allege that Dr. Hotze is among them.” (emphasis added)).
Importantly, the Individual Plaintiffs here chart a
different course than Dr. Hotze. Their pleadings
clearly allege they are required by the Individual Mandate to maintain insurance they do not want to continue purchasing—i.e., they are required by a law to
continue activity they do not want to engage in—and
that this requirement is inherently beyond Congress’s
enumerated powers. See Am. Compl. 5, ECF No. 27
(“Mr. Hurley maintains minimum essential health insurance coverage, which he purchased on the ACAcreated exchange.”); id. at 27 (“In the absence of the
ACA, the Individual Plaintiffs would purchase a
health-insurance plan different from the ACA-compliant plans that they are currently required to purchase
were they afforded the option without the ACA.”); id.
at 28 (“Section 5000A’s individual mandate exceeded
Congress’s enumerated powers by forcing Individual
Plaintiffs to maintain ACA-compliant health insurance coverage.”).
The Fifth Circuit is therefore likely to find that the
Individual Plaintiffs pleaded a sufficient injury in two

them and all other Medicaid beneficiaries.” (citing Comsat Corp.
v. FCC, 250 F.3d 931, 936 (5th Cir. 2001); Loa–Herrera v. Trominski, 231 F.3d 984, 988 (5th Cir. 2000))).

129a
respects. 13 First, unlike the purely theoretical and
contradictory allegations in Hotze, 14 the Individual
Plaintiffs here actually allege a clear and present injury. Indeed, the Individual Plaintiffs put it quite
plainly: “In the absence of the ACA, the Individual
Plaintiffs would purchase a health-insurance plan different from the ACA-compliant plans that they are
currently required to purchase.” 15 Compl. 27, ECF
No. 27. There is no equivocation, there is no speculation. The Individual Plaintiffs allege they are bound to
purchase something they do not want to purchase and
that if they were not so bound they would not make
the purchase.16 And whereas Dr. Hotze would face his
See, e.g., Time Warner Cable, Inc. v. Hudson, 667 F.3d 630, 636
(5th Cir. 2012) (holding the plaintiffs alleged a “sufficient economic and constitutional injury” (emphasis in original)).

13

See Complaint at 1–7, Hotze, 991 F. Supp. 2d 864 (S.D. Tex.
2014) (No. 4:13-cv-01318).

14

It is also worth noting that the Fifth Circuit in Hotze held that
Dr. Hotze failed to adequately plead an injury caused by the possibility of being faced with a choice between accepting undesirable
health insurance or violating the Individual Mandate only because that injury presupposed the decision of a third party—
Dr. Hotze’s employer. See Hotze, 784 F.3d at 995 (“The existence
of Dr. Hotze’s alleged injury rests on . . . a third-party decision:
Dr. Hotze will be injured by the individual mandate, the plaintiffs
say, because, once the employer mandate takes effect, Braidwood
may offer him less desirable insurance, which may prompt him
to drop his employer-provided insurance, which he will not be
able to do without violating the individual mandate. Speculation
about a decision made by a third party . . . constitutes an essential link in this chain of causation.”). The court therefore left open
the possibility that such a choice could constitute sufficient injury
if not contingent on a third-party decision. The Individual Plaintiffs allege such an injury here. See Am. Compl. 27, ECF No. 27.
15

16

See Doe v. Chao, 540 U.S. 614, 624–25 (2004) (noting that “an

130a
injury only were his employer to stop providing ACAcompliant coverage, the Individual Plaintiffs here face
their alleged injury now—they are being required to
continue buying something they do not want.
Second, as discussed in the Court’s Order,17 the Individual Plaintiffs sufficiently allege that they are the
direct objects of an unconstitutional exercise of power
traceable to the Individual Mandate that will be redressed by a holding that the mandate is invalid. 18
That is to say, the Individual Plaintiffs allege a
straightforward constitutional injury: Congress legislated in a way the Constitution does not allow and the
individual subjected to an adverse effect has injury enough to
open the courthouse door”); Steel Co. v. Citizens for Better Environment, 523 U.S. 83, 103 (1998) (noting “the constitutional ‘case’
or ‘controversy’ . . . point has always been the same: whether a
plaintiff ‘personally would benefit in a tangible way from the
court’s intervention.’” (quoting Warth v. Seldin, 422 U.S. 490, 508
(1975))).
17

See December 14, 2018 Order 16–17, ECF No. 211.

Compl. 26, ECF No. 27 (“The ACA injures Individual Plaintiffs
Hurley and Nantz by mandating that they purchase minimum essential health insurance coverage despite the Supreme Court’s determination that the requirement is unconstitutional.”); id. at 27
(“Individual Plaintiffs have an obligation to comply with the individual mandate under the ACA while it remains federal law,
despite the provision’s unconstitutionality.”); id. at 5 (“Mr. Hurley is subject to the individual mandate and objects to being required by federal law to comply with it.”); id. at 6 (“Mr. Nantz is
subject to the individual mandate and objects to being required
by federal law to comply with it.”); id. at 27 (“Each of the injuries
to Individual Plaintiffs is caused by the Defendants’ continued enforcement of the Affordable Care Act, and each of these injuries
will be redressed by a declaratory judgment from this Court pronouncing the Affordable Care Act unconstitutional.”).
18

131a
Individual Plaintiffs are the direct object of that legislation. The “alleged violation[] of the Constitution here
[is] not immaterial, but form[s], rather, the sole basis
of the relief sought.” Bell v. Hood, 327 U.S. 678, 683
(1946). “And it is established practice for [the Supreme] Court to sustain the jurisdiction of federal
courts to issue injunctions to protect rights safeguarded by the Constitution.” Id. at 684.
The Individual Plaintiffs’ allegation is therefore
likely to satisfy the test for constitutional injury on appeal.19 And to the extent existing constitutional-injury

See, e.g., Hudson, 667 F.3d at 636–37 (“TCA and Time Warner
need not prove that they will sustain a quantifiable economic injury. Cf. Minneapolis Star & Tribune Co. v. Minn. Comm’r of Revenue, 460 U.S. 575, 588 (1983) (observing that ‘the very selection
of the press for special treatment threatens the press not only
with the current differential treatment, but with the possibility
of subsequent differentially more burdensome treatment’ and
‘[t]hus, even without actually imposing an extra burden on the
press, the government might be able to achieve censorial effects’).
S.B. 5 subjects the plaintiffs to disparate treatment. . . Because the
legislation targets the plaintiffs for exclusion from this benefit provided to similarly situated speakers, TCA and Time Warner have
shown constitutional injury sufficient to establish standing.”);
Texas Cable & Telecomms. Ass’n v. Hudson, 265 F. App’x 210,
217–18 (5th Cir. 2008) (“In addition to competitive or economic
injury, a constitutional injury also provides standing.”); Duarte
ex rel. Duarte v. City of Lewisville, 759 F.3d 514, 520 (5th Cir.
2014) (holding plaintiff sufficiently pleaded constitutional injury
because he alleged he was “the target of the . . . ordinance restricting where registered child sex offenders, like him, can live”);
Hollis v. Lynch, 827 F.3d 436, 441–42 (5th Cir. 2016) (holding
plaintiff pleaded sufficient constitutional injury by challenging
law banning machine guns as infringing Second Amendment
rights and then holding the Second Amendment challenge failed

19

132a
doctrine deals largely with the infringement of enumerated rights, rather than the violation of the Constitution’s structural protection of rights, the Court
finds it unlikely the Fifth Circuit would rely on such
an untenable distinction. 20 The Individual Plaintiffs
on the merits); accord Ne. Fla. Chapter of Associated Gen. Contractors of Am. v. City of Jacksonville, 508 U.S. 656, 664–66
(1993).
See U.S. CONST. AMEND. IX (“The enumeration in the Constitution, of certain rights, shall not be construed to deny or disparage
others retained by the people.”); United States v. Lopez, 514 U.S.
549, 552 (1995) (“We start with first principles. The Constitution
creates a Federal Government of enumerated powers . . . As
James Madison wrote: ‘The powers delegated by the proposed
Constitution to the federal government are few and defined.
Those which are to remain in the State governments are numerous and indefinite.’ . . . This constitutionally mandated division of
authority ‘was adopted by the Framers to ensure protection of our
fundamental liberties.’” (citations omitted)); cf Bond v. United
States, 564 U.S. 211, 221 (2011) (“The Framers concluded that allocation of powers between the National Government and the
States enhances freedom . . . by protecting the people, from whom
all governmental powers are derived.”); id. (“[F]ederalism secures
to citizens the liberties that derive from the diffusion of sovereign
power.” (quoting New York v. United States, 505 U.S. 144, 181
(1992))); id. (“Federalism secures the freedom of the individual.”);
id. at 222 (“The structural principles secured by the separation of
powers protect the individual as well.”); id. (“In the precedents of
this Court, the claims of individuals . . . have been the principal
source of judicial decisions concerning separation of powers and
checks and balances.”); PHH Corp. v. Consumer Fin. Prot. Bureau, 881 F.3d 75, 164 (D.C. Cir. 2018) (en banc) (Kavanaugh, J.,
dissenting) (“To prevent tyranny and protect individual liberty,
the Framers of the Constitution separated the legislative, executive, and judicial powers of the new national government.”). See
also THE FEDERALIST NO. 84 (Alexander Hamilton) (“[W]hy declare that things shall not be done which there is no power to do?
Why, for instance, should it be said that the liberty of the press

20

133a
allege they are subject to a congressional act that inherently exceeds that body’s power. And “[i]f the constitutional structure of our Government that protects
individual liberty is compromised, individuals who
suffer otherwise justiciable injury”—such as the requirement to purchase an unwanted product—“may
object.” Bond, 564 U.S. at 223.
This raises one final point: The Intervenor Defendants argue the Individual Plaintiffs cannot plead a
constitutional injury (or any justiciable injury, for that
matter) because the Individual Mandate no longer
compels compliance. See Intervenor Defs.’ Mot. Stay 8,
ECF No. 213-1 (“Beginning January 1, 2019, the Individual Plaintiffs will no longer be on the horns of that
dilemma; as a result, the Fifth Circuit is likely to hold
that they lack standing.”). But standing analysis and
merits analysis are fundamentally separate inquiries,
and this line of attack conflates them. 21 That is, it
shall not be restrained, when no power is given by which restrictions may be imposed?”); RANDY E. BARNETT, OUR REPUBLICAN CONSTITUTION 191 (2016) (“Madison’s blasé attitude about
the Tenth Amendment was in stark contrast with the imperative
he felt to add what eventually became the Ninth Amendment.
This provision was needed, he said, to guard against ‘one of the
most plausible arguments I have ever heard urged against the admission of a bill of rights into this system, namely, that ‘by enumerating particular exceptions to the grant of power, it would
disparage those rights which were not placed in that enumeration.’” (citations omitted)).
See Arizona State Legislature v. Arizona Indep. Redistricting
Comm’n, 135 S. Ct. 2652, 2663 (2015) (“[O]ne must not ‘confus[e]
weakness on the merits with absence of Article III standing.’” (citing Davis v. United States, 131 S.Ct. 2419, 2434 n. 10 (2011);
Warth, 422 U.S. at 500)); Steel Co., 523 U.S. at 94 (noting the
Ninth Circuit’s “doctrine of hypothetical jurisdiction” and
“declin[ing] to endorse such an approach because it carries the
21

134a
rests on the premise that written law, like § 5000A(a),
is not binding—which is one of the Intervenor Defendants’ premiere merits arguments in this case.22 That
the Individual Mandate does nothing is the Intervenor
Defendants’ leading argument for why the mandate
permissibly “regulates” interstate commerce. 23 Putting aside the logical difficulty of that argument, the
Supreme Court has made clear that whether a challenged “statute in fact constitutes an abridgment of
the plaintiff’s” constitutional protections “is, of course,
irrelevant to the standing analysis.” 24 So, the Fifth
Circuit is unlikely to skip ahead to the merits to deter-

courts beyond the bounds of authorized judicial action and thus
offends fundamental principles of separation of powers”);
Whitmore v. Arkansas, 495 U.S. 149, 155 (1990) (“Our threshold
inquiry into standing ‘in no way depends on the merits of the [petitioner’s] contention’ . . . and we thus put aside for now [petitioner’s] Eighth Amendment challenge and consider whether he
has established the existence of a ‘case or controversy.’” (quoting
Warth, 422 U.S. at 500)); Bell, 327 U.S. at 682 (“[I]t is well settled
that the failure to state a proper cause of action calls for a judgment on the merits, and not for a dismissal for want of jurisdiction.”).
See December 14, 2018 Order 17, ECF No. 211 (“But this argument begs a leading question in this case by assuming the Individual Plaintiffs need not comply with the Individual Mandate.”).

22

23 See, e.g., Intervenor Defs.’ Mot. Stay 9, ECF No. 213-1 (“In
NFIB, The Supreme Court held that the requirement of maintaining minimum coverage went beyond Congress’s powers under
the Commerce Clause because it ‘compels individuals’ to participate in commerce . . . But once the penalty for failing to maintain
coverage is reduced to zero, it will lose its coercive effect.” (citation omitted)).
24

Meese v. Keene, 481 U.S. 465, 473 (1987) (citation omitted).

135a
mine § 5000A(a) is non-binding and therefore constitutional and then revert to the standing analysis to
use its merits determination to conclude there was no
standing to reach the merits in the first place. It is instead likely to hold that the Intervenor Defendants’
merits argument that the Individual Plaintiffs need
not comply with the law is an inappropriate ground for
challenging standing 25 —and likely inappropriate on
the merits.
This then brings into focus the proper injury inquiry for the Individual Plaintiffs’ constitutional challenge: Do the Individual Plaintiffs sufficiently allege
that the Individual Mandate operates to injure them?
The inquiry is not whether the Individual Plaintiffs
are injured if they break the law—i.e., if they disobey
the Individual Mandate. The Court does not ask
whether a plaintiff is injured by a challenged law if
See, e.g., Gee, 862 F.3d at 455 (“LDHH also argues that the Individual Plaintiffs have not and will not sustain any legal injury
. . . because the Individual Plaintiffs have a right to choose only
a ‘qualified’ provider, and PPGC is no longer a qualified provider.
This contention turns on the sole substantive question before us
on appeal, and we decline to allow LDHH to bootstrap this issue
into our standing inquiry.”); Duarte, 759 F.3d at 520 (“The factors
the district court found significant may ultimately bear on
whether Duarte can show constitutional injury to merit an award
of damages or injunctive relief—on which we express no opinion.
But the district court improperly relied on these considerations
in dismissing the Duartes’ constitutional challenge for lack of
standing.”); Croft v. Governor of Texas, 562 F.3d 735, 746 (5th Cir.
2009) (“The ADF amicus claims that a moment of silence cannot
violate the Establishment Clause, as there is no active religious
component. But that is a question to be determined on the merits,
which must come after determining whether we have jurisdiction
to hear the case.”).

25

136a
they choose to disregard the law they challenge as unconstitutional—the injury arises from following the
law as Congress intended. That is the entire point of a
constitutional challenge. Were courts to assess
whether plaintiffs are injured by disregarding allegedly unconstitutional laws, courts would not only be
implicitly sanctioning lawlessness but would be foreclosing a large swath of constitutional challenges already entertained by the Supreme Court.26
In this regard, the Individual Plaintiffs’ alleged injury—the requirement to purchase an unwanted product—is not self-inflicted, it is congressionally inflicted.
Congress intended to achieve something through the
For example, the Supreme Court did not ask in Clements v.
Fashing whether the officeholders would be injured if they simply
disregarded the law and did not resign their current offices upon
announcing candidacy. 457 U.S. 957, 961–62 (1982) (“We find the
uncontested allegations in the complaint sufficient to create an
actual case or controversy. The officeholder-appellees have alleged that they have not and will not announce their candidacy
for higher judicial office because such action will constitute an
automatic resignation of their current offices pursuant to § 65.”).
And Chief Justice Marshall never asked whether William Marbury would be injured if he ignored the law and began serving as
a justice of the peace without an official commission from James
Madison. See Marbury v. Madison, 5 U.S. 137, 137 (1803) (“This
motion was supported by affidavits of the following facts; that notice of this motion had been given to Mr. Madison; that Mr. Adams, the late president of the United States, nominated the
applicants to the senate for their advice and consent to be appointed justices of the peace of the district of Columbia; that the
senate advised and consented to the appointments; that commissions in due form were signed by the said president appointing
them justices, &c. and that the seal of the United States was in
due form affixed to the said commissions by the secretary of state;
that the applicants have requested Mr. Madison to deliver them
their said commissions, who has not complied with that request.”).

26

137a
Individual Mandate, the Individual Plaintiffs allege,
that is beyond its constitutional reach. It would be illogical to ask whether the allegedly unconstitutional
Individual Mandate injures the Individual Plaintiffs
when it is ignored. The answer is obviously “no,” but it
is also obviously irrelevant. Answering whether the
Individual Mandate injures the Plaintiffs by unconstitutionally requiring them to do something requires analyzing what the law requires them to do, not whether
the Plaintiffs can get away with not doing it.
In sum, the pleadings satisfy Hotze and otherwise
sufficiently state a constitutional injury sufficient to
meet the Article III requirements of standing. And to
the extent an independent, justiciable injury other
than regulation by unconstitutional legislation is necessary, the Individual Plaintiffs have alleged that,
too—they are required to purchase a product that, in
the absence of § 5000A(a), they allege they would not
purchase. If the Fifth Circuit has held that an allegation of death to whooping cranes—majestic as they
are—is sufficient injury-in-fact to confer standing on
an individual,27 surely it is unlikely to hold that an allegation of unconstitutional coercion is not. And while
it may not agree on the merits of that allegation, it
may not thereby dismiss it at the threshold. The Court
therefore finds the Intervenor Defendants are unlikely
to succeed on their standing argument.
b.

Merits

The Intervenor Defendants also contend they are
likely to succeed on the merits of the Plaintiffs’ claims.
First, the Intervenor Defendants assert they are likely
See Aransas Project v. Shaw, 775 F.3d 641, 648 (5th Cir. 2014)
(per curiam) (holding plaintiff sufficiently “alleged injury (death
to cranes and injury to those who enjoy them)”).

27

138a
to succeed in arguing the Individual Mandate “can
still be upheld as a lawful exercises of Congress’s taxing power” because “Section 5000A will retain most of
the features that the Supreme Court pointed to in concluding that it could fairly be construed as a tax” and
because “the Fifth Circuit is unlikely to share this
Court’s view that the production of revenue at all
times is the sine qua non of a tax.” Intervenor Defs.’
Mot. Stay 8–9, ECF No. 213-1. They also assert the
Fifth Circuit “has upheld the constitutionality of a
statute that taxed the making of machine guns, even
though federal law had subsequently banned the possession of machine guns, and even though the federal
government no longer collected the tax.” Id. at 9
(United States v. Ardoin, 19 F.3d 177, 179–80 (5th Cir.
1994)).
Next, the Intervenor Defendants argue they “are
likely to succeed on their alternative theory that, if the
minimum coverage provision can no longer be fairly
construed as a tax, it no longer violates the Commerce
Clause” because “once the penalty for failing to maintain coverage is reduced to zero, it will lose its coercive
effect.” Id. The Intervenor Defendants then insist
that, even if the Fifth Circuit holds the Individual
Mandate unconstitutional, the court is likely to hold
that “the appropriate remedy is to strike the amendment and order that the statute operate the way it did
before the amendment was adopted.” Id. (citing Frost
v. Corp. Comm’n Okla., 278 U.S. 515, 525 (1928)). Finally, the Intervenor Defendants argue that, even if
they lose on all the above arguments, they “are likely
to succeed on their argument” that the Individual
Mandate “is severable from the rest of the ACA.” Id.
at 10. This is because the 2017 Congress “zeroed out
the penalty for failing to maintain minimum coverage
while leaving the rest of the ACA intact.” Id.

139a
The Court disagrees with each of the Intervenor
Defendants’ contentions for the reasons set out in the
Court’s 55 pages of analysis in the December 14, 2018
Order. See ECF No. 211. But the Court finds it appropriate to briefly summarize the logic of why the Intervenor Defendants’ arguments, though well-made, are
ultimately unavailing and unlikely to succeed on appeal.
i.
Unconstitutional Under the Tax
Power28
The Individual Mandate can no longer be saved as
an exercise of Congress’s Tax Power for the following
reasons:


The Individual Mandate, 26 U.S.C.
§ 5000A(a), and the shared-responsibility
payment, §§ 5000A(b) and (c), are textually
and functionally distinct.29



The Supreme Court’s decision in NFIB recognized this distinction.30

28

See December 14, 2018 Order 19–27, ECF No. 211.

29

Id. at 20–22.

See id. at 22 (“NFIB does not contravene Congress’s intent to
separate the Individual Mandate and shared- responsibility penalty. To the extent the Supreme Court held § 5000A could be
fairly read as a tax, it reasoned only that the Individual Mandate
could be viewed as part and parcel of a provision supported by
the Tax Power—not that the Individual Mandate itself was a tax.
The Supreme Court stated its ‘precedent demonstrate[d] that
Congress had the power to impose the exaction in § 5000A under
the taxing power’—and § 5000A(b) is the exaction—‘and that
§ 5000A need not be read to do more than impose a tax. That is
sufficient to sustain it.’” (quoting NFIB, 567 U.S. at 570 (emphasis added))).
30

140a


The Supreme Court held the Individual
Mandate could be saved under Congress’s
Tax Power because it triggered the sharedresponsibility payment, which could be
plausibly read as a tax.31



The Supreme Court held the shared-responsibility payment could be treated as the tax
the Individual Mandate triggered based on
the following factors: The payment
o “is paid into the Treasury by ‘taxpayer[s]’ when they file their tax returns,”
o “does not apply to individuals who do not
pay federal income taxes because their
household income is less than the filing
threshold,”
o “amount is determined by such familiar
factors as taxable income, number of dependents, and joint filing status,”
o “is found in the Internal Revenue Code
and enforced by the IRS,” and
o “yields the essential feature of any tax:
It produces at least some revenue for the
Government.”32



In light of the TCJA, § 5000A(b) no longer “looks
like a tax in many respects.”33 It now fails at
least Factor 1 (no longer paid by taxpayers into
the Treasury), Factor 3 (no amount and $0 is

31

Id. at 23–24.

32

NFIB, 567 U.S. at 563–64.

33

Id. at 563; see December 14, 2018 Order 24–25, ECF No. 211.

141a
not determined by familiar factors), Factor 4
(not enforced by the IRS) and, crucially, Factor 5 (no longer yields the “essential feature” of
a tax).


Section 5000A(b) now fails four out of the five
factors identified by the Supreme Court as justifying its saving construction, including the
one feature the Supreme Court identified as
“essential.”34 The mandate therefore no longer
triggers a tax.

Accordingly, the Court finds the Fifth Circuit is
likely to draw a straight line from the majority’s reasoning in NFIB and agree that the Individual Mandate cannot be sustained under the saving
construction that construed the mandate as triggering
a tax.35
The Intervenor Defendants contend that “the Fifth Circuit is
unlikely to share this Court’s view that the production of revenue
at all times is the sine qua non of a tax.” Intervenor Defs.’ Mot.
Stay 9. This Court does not have a view on the issue. But the
Supreme Court does. See NFIB, 567 U.S. at 564 (reasoning that
“the essential feature of any tax” is that “[i]t produces at least
some revenue for the Government”). And the Court finds that the
Fifth Circuit is likely to follow it.
34

Nothing in United States v. Ardoin, 19 F.3d 177 (5th Cir. 1994),
alters this analysis. There, the Fifth Circuit held that 26 U.S.C.
§§ 5821, 5861(d), (e), (f), (l), 5871, and 5845 remained permissible
exercises of Congress’s Tax Power even though the provisions
taxed an illegal activity and an Executive branch agency refused
to accept applications to pay the taxes created by the provisions.
Ardoin, 19 F.3d at 179–80. The Ardoin decision does not abrogate
the Supreme Court’s holding that the generation of revenue is the
essential feature of a tax—and not only because a Fifth Circuit
opinion ought not be read to contravene Supreme Court precedent. The two attacks on the constitutionality of the tax provisions
in Ardoin were that they (1) taxed an activity that was no longer

35

142a
ii.

Unconstitutional Under the Interstate Commerce Power36

The Individual Mandate continues to be unsustainable under Congress’s Interstate Commerce Power, as
the Supreme Court already held, for the following reasons:


The Supreme Court held the Individual Mandate is unconstitutional under the Interstate
Commerce Clause.37

legal and (2) were no longer enforced by the Bureau of Alcohol, Tobacco, and Firearms (ATF). As to the first challenge, the court
reasoned that “Congress can tax illegal conduct” so that
“[a]lthough it is illegal to possess or manufacture these weapons,
one illegally doing so would be required to register them with ATF
and pay taxes on them.” Id. at 180. The illegality of the activity did
not render the legislation a nullity. Here, even though applicable
individuals are required to purchase ACA-compliant health insurance, if someone disobeyed that requirement they would not
be subject to a tax—because it is gone. The Intervenor Defendants
make that point repeatedly. As to the second challenge, the court
reasoned that, whatever the agency’s enforcement decisions, the
legislation continued to give “ATF . . . the authority to tax nowillegal machineguns . . . Thus, the basis for ATF’s authority to regulate— the taxing power—still exists; it is merely not exercised.”
Id. Here, however, the IRS’s authority to tax noncompliance is
gone. In other words, Ardoin confirms that legislative text is the
proper object of any analysis of legislative activity—Executive actions do not constitutionalize or de-constitutionalize Legislative
actions. And here, Congress itself legislatively eliminated the
shared-responsibility payment.
36

See December 14, 2018 Order 27–34, ECF No. 211.

37

NFIB, 567 U.S. at 572 (majority).

143a


The Individual Mandate no longer triggers a
tax, so the saving construction crafted in NFIB
no longer applies.38



Even under the saving construction crafted in
NFIB, the Individual Mandate was a requirement to act—otherwise, the failure to act would
not have triggered a tax.39



All that remains now is a written law with plain
text that mandates the Individual Plaintiffs to
purchase minimum essential coverage—which
the evidence suggests they and others will do.40

See Josh Blackman, Undone: the New Constitutional Challenge
to Obamacare, 23 TEX. REV. L. & POL. (forthcoming 2018) (manuscript at 17) (“Now that the penalty has been zeroed out, and the
saving construction cannot hold, we are left with ‘[t]he most
straightforward reading of the mandate.’ What is that reading?
Section 5000A ‘commands individuals to purchase insurance.’”
(quoting NFIB, 567 U.S. at 562)).

38

See December 14, 2018 Order 32–33, ECF No. 211; accord Intervenor Defs.’ Mot. Stay 9, ECF No. 213- 1 (“In NFIB, the Supreme Court held that the requirement of maintaining minimum
coverage went beyond Congress’s powers under the Commerce
Clause because it ‘compels individuals’ to participate in commerce.” (citing NFIB, 567 U.S. at 552) (first emphasis added, second emphasis in Motion)). As the Intervenor Defendants
recognize, the Supreme Court in NFIB did not hold that the
shared-responsibility payment impermissibly compelled the purchase of health insurance. Instead, the Chief Justice reasoned
that “[t]he individual mandate . . . compels individuals to become
active in commerce by purchasing a product.” NFIB, 567 U.S. at
552 (Roberts, C.J.) (first emphasis added). The elimination of the
shared-responsibility payment, but not the Individual Mandate,
does not obviate that text-driven reasoning.

39

See December 14, 2018 Order 29–30, ECF No. 211; accord
Blackman, supra note 38, at 12 (“According to a November 8, 2017

40

144a
o Plain text confirms the Individual Mandate is a mandate.41 It is entitled, “Requirement to maintain minimum
essential coverage.”42 It states, “An applicable individual shall . . . ensure that
the individual . . . is covered.”43
o Five Supreme Court Justices concluded
“[t]he most straightforward reading of
the mandate is that it commands individuals to purchase insurance. After all,
it states that individuals ‘shall’ maintain health insurance.”44
report from CBO and the Joint Committee on Taxation, CBO observed that ‘with no penalty at all, only a small number of people
who enroll in insurance because of the mandate under current
law would continue to do so solely because of a willingness to comply with the law.’ The number is no doubt ‘small,’ but it is not
zero. No matter how small this class is, such virtuous individuals
do exist. Therefore, a certain number of individuals are still affected by a penalty-less mandate. The mandate still has force,
even if no penalty accompanies it.” (citation omitted)).
See December 14, 2018 Order, 30–32, ECF No. 211. See also
United States v. Kaluza, 780 F.3d 647, 658 (5th Cir. 2015) (“When
construing statutes and regulations, we begin with the assumption that the words were meant to express their ordinary meaning.” (quoting Bouchikhi v. Holder, 676 F.3d 173, 177 (5th
Cir.2012))); Wheeler v. Pilgrim’s Pride Corp., 591 F.3d 355, 364
(5th Cir. 2009) (en banc) (Jones, J., concurring) (“Proper statutory
analysis begins with the plain text of the statute.”).
41

42

26 U.S.C. § 5000A(a) (emphasis added).

Id. (emphasis added); see Fed. Express Corp. v. Holowecki, 552
U.S. 389, 399 (2008) (reasoning “‘shall’ imposes obligations on
agencies to act”); Lopez v. Davis, 531 U.S. 230, 241 (2001) (noting
“shall” indicates an intent to “impose discretionless obligations”).

43

44

NFIB, 567 U.S. at 562 (Roberts, C.J.); id. at 662 (joint dissent)

145a
o Surrounding text confirms the Individual Mandate creates an obligation in the
absence of the shared-responsibility
payment.45 Section 5000A(e), for example, “did and still does exempt some individuals from the eliminated sharedresponsibility payment but not the Individual Mandate.” 46 Section 5000A(d)
“exempted, and continues to exempt,
certain individuals from the Individual
Mandate itself.”47

(“In this case, there is simply no way, ‘without doing violence to
the fair meaning of the words used,’ Grenada County Supervisors
v. Brogden, 112 U.S. 261, 269 (1884), to escape what Congress
enacted: a mandate that individuals maintain minimum essential coverage, enforced by a penalty.”).
Id. at 665 (joint dissent) (noting that “some are exempt from
the tax who are not exempt from the mandate—a distinction that
would make no sense if the mandate were not a mandate”); see
Doe v. KPMG, LLP, 398 F.3d 686, 688 (5th Cir. 2005) (“When interpreting a statute, we start with the plain text, and read all
parts of the statute together to produce a harmonious whole.”).

45

46 December 14, 2018 Order 33, ECF No. 211. It is not surprising
Congress would subject some individuals to the mandate but not
the penalty. Congress’s stated goal was to “add millions of new
consumers to the health insurance market, increasing the supply
of, and demand for, health care services, and . . . increase the
number and share of Americans who are insured.” 42 U.S.C.
§ 18091(2)(C). Congress made a policy decision that some individuals should not be subject to the penalty but should still be bound
to satisfy their legal obligation to maintain minimum essential
coverage. That policy decision has always been embedded in the
ACA’s plain text.
47

December 14, 2018 Order 33, ECF No. 211.

146a
o Reading the Individual Mandate to be
anything other than a mandate would
twice violate the canon against surplusage by rendering the mandatory words
of § 5000A(a) ineffective—i.e., “requirement” and “shall”—and rendering whole
provisions of § 5000A ineffective—i.e.,
§§ 5000A(d) and (e).48


48

Written law is binding, with or without the
specter of an enforcement provision.49

Id. at 31; accord NFIB, 567 U.S. at 665 (joint dissent).

49 December 14, 2018 Order 29–30, ECF No. 211. The Intervenor
Defendants assert the Plaintiffs are not bound by federal law unless compelled by “force, threats, or overwhelming pressure.” See
Intervenor Defs.’ Mot. Stay 9, ECF No. 213-1. In other words,
“might makes right.” But “might makes right” is incompatible
with the concept of a “government of laws, and not of men.” See
John Adams, NOVANGULS ESSAYS NO. 7 (Feb. 6, 1775). And it is
incompatible with the concepts of equality and, relatedly, government by consent. See THE DECLARATION OF INDEPENDENCE (U.S.
1776) (“We hold these truths to be self-evident, that all men are
created equal, that they are endowed by their Creator with certain unalienable Rights, that among these are Life, Liberty and
the pursuit of Happiness. That to secure these rights, Governments are instituted among Men, deriving their just powers from
the consent of the governed.” (emphasis added)). That the binding
nature of law is justified by something other than brute force is a
first principle of American society and in the very nature of a written Constitution—as well as constitutionally sanctioned statutes.
Cf. Nicholas A. Dranias, Consideration As Contract: A Secular
Natural Law of Contracts, 12 TEX. REV. L. & POL. 267, 270–71
(2008) (contrasting those such as John Locke and St. Thomas
Aquinas “who viewed law as deriving its justification from natural
principles of morality [against] those who viewed law as having,
and needing, no justification other than the force that backs it”
and noting that “Lockean philosophy provided the theoretical

147a
o The Individual Mandate, § 5000A(a), is
federal law—having satisfied the Constitution’s bicameralism and presentment requirements—and federal law is
inherently binding on those within its jurisdiction.50 Not even the Founders, who
were leery of Federal power, argued otherwise.51
substance of the Declaration of Independence, the Federalist Papers, the popularly distributed pamphlets of Thomas Paine, and
the Constitution”); id. (noting Locke rejected the “pre-philosophical tradition best exemplified by the words of Thrasymachus in
Plato’s Republic: ‘I say that justice is simply what is good for the
stronger’”); Hadley Arkes, The Natural Law Challenge, 36 HARV.
J.L. & PUB. POL’Y 961, 963 (2013) (“He [John Marshall] assumed
[in Gibbons v. Ogden] that all of his literate readers understood
that, before we can carry out a demonstration, certain axioms had
to be in place—like the law of contradiction. They were things
that had to be grasped, as the saying went, per se nota as true in
themselves. As Hamilton put it in the Federalist No. 31, there are
certain ‘primary truths, or first principles, upon which all subsequent reasonings must depend.’ They contain, he said, ‘an internal evidence which antecedent to all reflection or combination
commands the assent of the mind.’” (citations omitted)). In any
event, the Intervenor Defendants’ view does not comport with
NFIB’s recognition that the Individual Mandate itself is compulsory. See NFIB, 567 U.S. at 552 (Roberts, C.J.) (“The individual
mandate . . . compels individuals to become active in commerce
by purchasing a product.” (first emphasis added)).
See, e.g., U.S. CONST. art. VI. (“[T]he laws of the United States
. . . shall be the supreme law of the land; and the judges in every
state shall be bound thereby.”); United States v. Grumka, 728
F.2d 794, 797 (6th Cir. 1984) (per curiam) (“It is the duty of all
citizens to obey the law . . . .”); Montero v. City of Yonkers, 890
F.3d 386, 396 (2d Cir. 2018) (noting the “obligation as a citizen to
obey the law”).

50

51

See, e.g., THE FEDERALIST NO. 28 (Alexander Hamilton) (“It

148a
o This is as true with respect to the Constitution as it is with respect to the Individual
Mandate:
Most
of
the
Constitution’s provisions are unaccompanied by a penalty—tax or otherwise.
Yet time and again courts recognize the
Constitution, as written law, is inherently binding.52
merits particular attention in this place, that the laws of the Confederacy as to the enumerated and legitimate objects of its jurisdiction will become the Supreme Law of the land, to the
observance of which all officers, legislative, executive, and judicial
in each State will be bound by the sanctity of an oath.” (emphasis
added)).
52 Consider, for example, a suit against the President brought by
Intervenor Defendant the District of Columbia alleging violations
of the Constitution’s Emoluments Clauses. See Complaint ¶ 2,
District of Columbia v. Trump, No. 8:17-cv-01596 (D. Md. June
12, 2017), ECF No. 1. The Foreign Emoluments Clause provides
that “no person holding any office of profit or trust under them,
shall, without the consent of the Congress, accept of any present,
emolument, office, or title, of any kind whatever, from any king,
prince, or foreign state.” U.S. CONST. art. I, § 9, cl. 8. (emphasis
added). The Domestic Emoluments Clause provides that “[t]he
President shall, at stated times, receive for his services, a compensation, which shall neither be increased nor diminished during the period for which he shall have been elected, and he shall
not receive within that period any other emolument from the
United States, or any of them.” Id. art. II, § 1, cl. 7 (emphasis
added). Neither of the clauses includes an enforcement provision—certainly, neither imposes a tax penalty. But both use the
word “shall,” and both are binding by nature. Intervenor Defendant the District of Columbia understands that basic truth in the
context of its suit against the President. There, the District of
Columbia asserts, “Applied to President Trump’s diverse dealings, the text and purpose of the clause speak as one: absent the
consent of Congress, private enrichment through the receipt of
benefits from foreign governments is prohibited.” Complaint ¶ 6,

149a
The Individual Mandate no longer triggers a tax
and therefore can no longer be read as an exercise of
Congress’s Tax Power. That being true, the Court
finds the Fifth Circuit is unlikely to either disagree
with the Supreme Court’s NFIB holding that the mandate is unsustainable under Congress’s Interstate
Commerce Power or accept the alternative theory that
the mandate, though it regulates interstate conduct,
is simply not binding.
iii.

Frost Is Not Dispositive53

Frost does not control or require invalidating Congress’s tax bill for the following reasons:


In Frost, the plaintiff challenged the later-intime legislation. 54 Here, the Plaintiffs do not
challenge the later-in-time legislation.55

Trump, No. 8:17-cv-01596 (D. Md. June 12, 2017), ECF No. 1 (emphasis added); accord Pls.’ Opp’n Mot. Dismiss 59, No. 8:17-cv01596 (D. Md. Nov. 7, 2017) (“Because ‘the President is bound to
abide by the requirements’ of these Clauses, his obligation to comply with them ‘is ministerial and not discretionary.’” (citation
omitted) (emphasis added)). The President is prohibited not by
“force, threats, or overwhelming pressure” but by the text and
purpose of a provision that states what he shall and “shall not”
do. The Individual Mandate is no different.
53

See December 14, 2018 Order 54 n.34, ECF No. 211.

Frost, 278 U.S. at 518–19; see id. at 519 (pleading that “that the
proviso, as construed and applied by the commission . . . was invalid as contravening the due process and equal protection of the
law clauses of the Fourteenth Amendment” (emphasis added)).

54

55 See Am. Compl. 28, ECF No. 27 (“Section 5000A’s individual
mandate exceeds Congress’s enumerated powers by forcing Individual Plaintiffs to maintain ACA-compliant health insurance
coverage.”). To acknowledge what the Plaintiffs claim and do not
claim is not to “conclude that a party can plead its way around

150a


In Frost, all parties agreed the earlier-in-time
legislation was constitutional—and the Supreme Court expressly relied on that concession. 56 Here, the entire case is about the
constitutionality of the earlier-in-time legislation.



In Frost, the later-in-time legislation did not
render an earlier law unconstitutional—it was
itself unconstitutional because it created disparately treated classes. 57 Here, the later-intime TCJA is constitutional.
o Anyways, the later-in-time TCJA does
not render the ACA unconstitutional—it

Frost.” Intervenor Defs.’ Mot. Stay 10, ECF No. 213-1. It is a
recognition of the fundamental rule in district court proceedings
that a claim not raised in the complaint is not properly before the
court. Cf. Cutrera v. Bd. Supervisors La. State Univ., 429 F.3d
108, 113 (5th Cir. 2005) (“A claim which is not raised in the complaint . . . is not properly before the court.”); Fisher v. Metropolitan
Life Ins. Co., 895 F.2d 1073, 1078 (5th Cir. 1990) (“As the district
court correctly noted, this claim was not raised in [plaintiff’s] second amended complaint . . . and, as such, was not properly before
the court.”).
Frost, 278 U.S. at 519 (“Both parties definitely concede the validity of these provisions, and, for present purposes at least, we
accept that view.”); id. at 526 (“Here it is conceded that the statute, before the amendment, was entirely valid.”).
56

Id. at 524 (noting the “classification created by the proviso” (emphasis added)); id. (“[T]he proviso, as here construed and applied,
baldly creates one rule for a natural person and a different and
contrary rule for an artificial person.” (emphasis added)); id. (reasoning the proviso, not the original law, “produces a classification”); id. (reasoning the proviso, not the original law, “is
essentially arbitrary”); id. at 525 (acknowledging “the inequality
created by” the proviso, not the original law).

57

151a
abrogates the ground on which the Supreme Court concluded the ACA could
be saved.58


Frost stands only for the proposition that courts
may invalidate unconstitutional action and preserve constitutional action; it does not empower
the judiciary to construe constitutional action
as unconstitutional to preserve unconstitutional action as constitutional.

For these reasons, the Fifth Circuit is unlikely to
invalidate Congress’s constitutional tax law under the
guise of Frost, a decision that invalidated an unconstitutional law. To read Frost as empowering courts to
invalidate Congress’s constitutional legislation to save
a judicial opinion that admittedly construed unconstitutional legislation as something other than what
Congress intended would go above and beyond any
limits on the judicial power yet seen.
iv.

Individual Mandate Inseverable59

The Individual Mandate is entirely inseverable for
the following straightforward reasons:

See NFIB, 567 U.S. at 574–75 (Roberts, C.J.) (“[T]he statute
reads more naturally as a command to buy insurance than as a
tax, and I would uphold it as a command if the Constitution allowed it. It is only because the Commerce Clause does not authorize such a command that it is necessary to reach the taxing power
question. And it is only because we have a duty to construe a
statute to save it, if fairly possible, that § 5000A can be interpreted as a tax. Without deciding the Commerce Clause question,
I would find no basis to adopt such a saving construction.” (emphasis added)).

58

59

See December 14, 2018 Order 34–55, ECF No. 211.

152a


The test for severability is congressional intent.60



Congressional intent is expressed through enacted text.61

See id. at 35–37; accord Minnesota v. Mille Lacs Band of Chippewa Indians, 526 U.S. 172, 191 (1999) (“The inquiry into
whether a statute is severable is essentially an inquiry into legislative intent.”); Alaska Airlines, Inc. v. Brock, 480 U.S. 678, 685
(1987) (“The more relevant inquiry in evaluating severability is
whether the statute will function in a manner consistent with the
intent of Congress.” (emphasis in original)); Regan v. Time, Inc.,
468 U.S. 641, 653 (1984) (plurality) (“Whether an unconstitutional provision is severable from the remainder of the statute in
which it appears is largely a question of legislative intent, but the
presumption is in favor of severability.”). But see R.R. Ret. Bd. v.
Alton R.R. Co., 295 U.S. 330, 362 (1935) (majority) (recognizing
“the presumption . . . of an intent that, unless the act operates as
an entirety, it shall be wholly ineffective” (citing Williams v.
Standard Oil Co., 278 U.S. 235, 242 (1929); Utah Power & Light
Co. v. Pfost, 286 U.S. 165, 184 (1932))).
60

Connecticut Nat’l Bank v. Germain, 503 U.S. 249, 253–54
(1992) (“[I]n interpreting a statute a court should always turn
first to one, cardinal canon before all others. We have stated time
and again that courts must presume that a legislature says in a
statute what it means and means in a statute what it says
there.”); United States v. Ron Pair Enterprises, Inc., 489 U.S. 235,
241 (1989) (“The task of resolving the dispute over the meaning
of [a provision] begins where all such inquiries must begin: with
the language of the statute itself.” (citing Landreth Timber Co. v.
Landreth, 471 U.S. 681, 685 (1985))); Kaluza, 780 F.3d at 658
(“The starting point in discerning congressional intent is the existing statutory text.” (quoting Lamie v. U.S. Trustee, 540 U.S.
526, 534 (2004))); Hotze, 784 F.3d at 997 (noting “the best evidence of Congress’s intent is the statutory text” (quoting NFIB,
567 U.S. at 544)); EEOC v. Hernando Bank, Inc., 724 F.2d 1188,
1190 (5th Cir. 1984) (“Congressional intent and purpose are best
determined by an analysis of the language of the statute in question.”).
61

153a


If the enacted text is unambiguous, no further
inquiry is permitted.62



The enacted text is unambiguous: The Individual Mandate is “essential” to the ACA.63
o The Supreme Court relied on the import
of this plain text before and after the exchanges were created and the Individual
Mandate was in effect.64

Germain, 503 U.S. at 253–54 (“When the words of a statute are
unambiguous, this first canon is also the last: ‘judicial inquiry is
complete.’”); Ron Pair, 489 U.S. at 241 (“[W]here, as here, the
statute’s language is plain, ‘the sole function of the courts is to enforce it according to its terms.’” (quoting Caminetti v. United
States, 242 U.S. 470, 485 (1917))).

62

63

See December 14, 2018 Order 37–41, ECF No. 211.

See December 14, 2018 Order 41–46, ECF No. 211; King v. Burwell, 135 S. Ct. 2480, 2487 (2015) (citing 42 U.S.C. § 18091(2)(I));
NFIB, 567 U.S. at 556 (Roberts, C.J.) (“It is precisely because
these individuals, as an actuarial class, incur relatively low
health care costs that the mandate helps counter the effect of
forcing insurance companies to cover others who impose greater
costs than their premiums are allowed to reflect.” (citing 42
U.S.C. § 18091(2)(I))); id. at 596 (Ginsburg, J., joined by Breyer,
Kagan, and Sotomayor, JJ.) (“A central aim of the ACA is to reduce the number of uninsured U.S. residents . . . The minimum
coverage provision advances this objective.” (citing 42 U.S.C. §§
18091(2)(C) and (I))); id. at 650 (joint dissent) (“First, the Government submits that § 5000A is ‘integral to the Affordable Care
Act’s insurance reforms’ and ‘necessary to make effective the
Act's core reforms.’ . . . Congress included a ‘finding’ to similar
effect in the Act itself.” (citations omitted)).
64

154a
o The past two Administrations have
agreed the Individual Mandate is inseverable from the guaranteed-issue and
community-rating provisions.65
o No Congress—not in 2017, not ever—repealed the Individual Mandate.66
o No Congress—not in 2017, not ever—repealed the ACA’s Findings.67
o The Court cannot rely on the 2017 Congress’s elimination of the shared- responsibility payment to treat the textually
and functionally distinct Individual
Mandate as implicitly repealed when
Congress left the Individual Mandate as
enacted text and left in place other text
that calls the Individual Mandate—not
the functionally distinct shared-responsibility payment—“essential.”68
65

See December 14, 2018 Order 42, n.29, ECF No. 211.

See 26 U.S.C. § 5000A(a). The 2017 Congress, in passing the
TCJA, reduced the shared-responsibility payment to $0. It did
not repeal the Individual Mandate.

66

See 42 U.S.C. § 18091. “All told, Congress stated three separate
times that the Individual Mandate is essential to the ACA. That
is once, twice, three times and plainly. It also stated the absence of
the Individual Mandate would ‘undercut’ its ‘regulation of the
health insurance market.’ Thirteen different times, Congress explained how the Individual Mandate stood as the keystone of the
ACA. And six times, Congress explained it was not just the Individual Mandate, but the Individual Mandate ‘together with the
other provisions’ that allowed the ACA to function as Congress
intended.” December 14, 2018 Order 40, ECF No. 211. The 2017
Congress did not repeal this plain text.
67

68

See Epic Sys. Corp. v. Lewis, 138 S. Ct. 1612, 1624 (2018) (“The

155a
o The Constitution’s separation of powers
prohibits the Court from doing for Congress what Congress tried and failed to
do itself.69
intention must be clear and manifest. And in approaching a
claimed conflict, we come armed with the strong presumption
that repeals by implication are disfavored and that Congress will
specifically address preexisting law when it wishes to suspend its
normal operations in a later statute.” (cleaned up)); Nat’l Ass’n of
Home Builders v. Defs. of Wildlife, 551 U.S. 644, 664 (2007) (“The
Ninth Circuit's reading of § 7(a)(2) would not only abrogate
§ 402(b)’s statutory mandate, but also result in the implicit repeal
of many additional otherwise categorical statutory commands . . .
While the language of § 7(a)(2) does not explicitly repeal any provision of the CWA (or any other statute), reading it for all that it
might be worth runs foursquare into our presumption against implied repeals.”); Posadas v. Nat’l City Bank of New York, 296 U.S.
497, 503 (1936) (“The amending act just described”—like the
TCJA—“contains no words of repeal; and if it effected a repeal of
section 25 of the 1913 act, it did so by implication only. The cardinal rule is that repeals by implication are not favored.”); Lockhart
v. United States, 546 U.S. 142, 149 (2005) (Scalia, J., concurring)
(noting an “already-powerful presumption against implied repeals”); United States v. Cavada, 821 F.2d 1046, 1047 (5th Cir.
1987) (“We say, therefore, that there is a presumption against
implicit repeal.”); Victorian v. Miller, 813 F.2d 718, 721 (5th Cir.
1987).
69 For example, the House passed H.R. 3762 in 2015 which included a repeal of the Individual Mandate. See CONGRESSIONAL
RESEARCH SERVICE, LEGISLATIVE ACTIONS IN THE 112TH, 113TH,
AND 114TH CONGRESSES TO REPEAL, DEFUND, OR DELAY THE AFFORDABLE CARE ACT 7 (February 7, 2017). But that version of the
bill could not garner the necessary votes in the Senate: “Lacking
. . . a supermajority in the Senate, the Republicans chose instead
to modify the provisions so that they would not violate the Byrd
Rule. The Senate version kept the mandates but eliminated the
penalties for noncompliance.” Id. at 8. This is one example of how
Congress attempted to, but did not, repeal the mandate. And it is

156a
o Floor statements and policy arguments
do not supplant enacted text or allow the
Court to construe what Congress did
and did not do as what a party asserts
Congress almost did and did not do.70


Congress included a severability clause for
Medicaid Expansion but not for the Individual
Mandate, which Congress called “essential.”71

a powerful illustration of why the thing Congress did do—eliminate the shared-responsibility payment—is not the thing Congress did not do—repeal the Individual Mandate. Yet the
Intervenor Defendants insist the Court must construe the former
as the latter. This is far beyond the Court’s power. See Epic Sys.
Corp., 138 S. Ct. at 1624 (“[I]t’s the job of Congress by legislation,
not this Court by supposition, both to write the laws and to repeal
them.”); United States v. Goldenberg, 168 U.S. 95, 102–03 (1897)
(“The primary and general rule of statutory construction is that
the intent of the lawmaker is to be found in the language that he
has used. He is presumed to know the meaning of words and the
rules of grammar. The courts have no function of legislation, and
simply seek to ascertain the will of the legislator.”).
See, e.g., Intervenor Defs.’ Resp. 29–30, ECF No. 91 (collecting
statements by members of 2017 Congress). “More fundamentally,
. . . intentions do not count unless they are enshrined in a text
that makes it through the constitutional processes of bicameralism and presentment.” Murphy v. Nat’l Collegiate Athletic Ass’n,
138 S. Ct. 1461, 1487 (2018) (Thomas, J., concurring) (citing Wyeth v. Levine, 555 U.S. 555, 586–588 (2009) (Thomas, J., concurring in judgment)). But “[b]ecause we have a Government of laws,
not of men, we are governed by legislated text, not legislators’
intentions—and especially not legislators’ hypothetical intentions.” Id. (cleaned up).

70

See December 14, 2018 Order 40, n.26, ECF No. 211. As noted
in the December 14, 2018 Order, the absence of a severability
clause is by no means dispositive, but it is certainly of evidentiary
value in a situation where one provision—the Individual Mandate—was called “essential” and contained no severability clause

71

157a


The 2017 Congress’s “decision” to not repeal the
remainder of the ACA was not a “decision” that
supports an inference of severability intent—it
was a consequence of the TCJA being passed as
part of the budget and reconciliation process.72



If Congress intends to sever the Individual
Mandate from the remainder of the ACA, Congress can sever the Individual Mandate from
the remainder of the ACA. The Court cannot do
that for Congress.73

while another part of the statute—Medicaid Expansion—was not
called “essential,” did contain a severability clause, and was expressly held by the Supreme Court to be severable to the extent
necessary due to the severability clause. See NFIB, 567 U.S. at
586 (Roberts, C.J., joined by Breyer and Kagan, JJ.) (noting the
Supreme Court was “follow[ing] Congress’s explicit textual instruction”); id. at 645 (Ginsburg, J., joined by Sotomayor, J.) (“I
agree . . . that the Medicaid Act’s severability clause determines
the appropriate remedy.”); see also id. at 544 (majority) (“Where
Congress uses certain language in one part of a statute and different language in another, it is generally presumed that Congress
acts intentionally.” (citing Russello v. United States, 464 U.S. 16,
23 (1983))).
See CONGRESSIONAL RESEARCH SERVICE, THE BUDGET RECONPROCESS: STAGES OF CONSIDERATION ii (January 4,
2017) (“In adopting a budget resolution, Congress is agreeing
upon its budgetary goals for the upcoming fiscal year. Because it
is in the form of a concurrent resolution, however, it is not presented to the President or enacted into law. As a consequence, any
statutory changes concerning spending or revenues that are necessary to implement these policies must be enacted in separate
legislation.”). Even if it were appropriate to look beyond the unambiguous text of the ACA, in other words, the 2017 Congress
demonstrated no legislative intent to leave the ACA intact when
it passed the TCJA because the TCJA gave Congress no legislative choice on the matter.

72

CILIATION

73

See, e.g., Alton, 295 U.S. at 362 (“[W]e cannot rewrite a statute

158a
Accordingly, the Fifth Circuit is unlikely to accept
the Intervenor Defendants’ countertextual severability argument based on extratextual evidence.74 Policy
arguments and countertextual evidence do not change

and give it an effect altogether different from that sought by the
measure viewed as a whole.”); Hill v. Wallace, 259 U.S. 44, 70
(1922) (severing an inseverable statute would be “legislative
work beyond the power and function of the court”); Oneale v.
Thornton, 10 U.S. 53, 68 (1810) (“Men use a language calculated
to express the idea they mean to convey. If the legislature had
contemplated various and successive sales, so that any intermediate contract or purchaser was within the view of the lawmaker
and intended to be affected by the power of resale given to the
commissioners, the words employed would have been essentially
different from those actually used.”).
The Intervenor Defendants assert, “Nor is the Fifth Circuit
likely to conclude that the 2017 Congress demonstrated an intent
to unwind the entire ACA by choosing not to repeal Section 5000A(a) or 42 U.S.C. § 18091.” Intervenor Defs.’ Mot. Stay
10 n.5, ECF No. 213-1. This is a mischaracterization of the
Court’s reasoning and conclusion. The Court did not conclude “the
2017 Congress demonstrated an intent to unwind the entire
ACA”—it concluded exactly the opposite. The Court concluded
that, if any intent can be inferred from the 2017 Congress’s budget
and reconciliation legislation at all, it is that Congress intended to
preserve the Individual Mandate—which remains on the books—
because it understood the mandate was “essential” to the remainder of the ACA. In other words, the enacted text the Court has to
work with unequivocally communicates that (1) the Individual
Mandate is essential to the ACA functioning as Congress intended, (2) the mandate operates independently of the tax penalty, and (3) the mandate remains on the books. And because
courts are better positioned to interpret written law than pick
policy, Congress must be the one to repeal the Individual Mandate if that is what it intends to do. It has not.

74

159a
the text Congress enacted, and “[a]s Justice Kagan recently stated, ‘we’re all textualists now.’” 75 This reflects a deep-seated respected within the judiciary for
its role within the separation of powers: Discerning
congressional intent from the end product of a constitutionally mandated process for legislative action. “If
the text is sufficiently clear, the text usually controls.
The text of the law is the law.”76 And the enacted text
could not be clearer as to Congress’s intent that the
Individual Mandate not be severed from the ACA. To
accept the Intervenor Defendants’ countertextual argument based on extratextual evidence would represent a breathtaking conception of the judicial power.77
75 Brett M. Kavanaugh, Fixing Statutory Interpretation, 129
HARV. L. REV. 2118, 2118 (2016) (reviewing Robert A. Katzmann,
JUDGING STATUTES (2014)) (citation omitted). See John F. Manning, Textualism and Legislative Intent, 91 VA. L. REV. 419, 424
(2005) (“Textualists . . . deny that Congress has a collective will
apart from the outcomes of the complex legislative process that
conditions its ability to translate raw policy impulses or intentions into finished legislation. For them, intended meaning never
emerges unfiltered; it must survive a process that includes committee approval, logrolling, the need for floor time, threatened
filibusters, conference committees, veto threats, and the like. For
better or worse, only the statutory text navigates all those hurdles. Accordingly, whereas intentionalists believe that legislatures have coherent and identifiable but unexpressed policy
intentions, textualists believe that the only meaningful collective
legislative intentions are those reflected in the public meaning of
the final statutory text.”)
76

Kavanaugh, supra note 75, at 2118.

77 See Transcript of Oral Argument at 36, NFIB, 567 U.S. 519
(2012) (No. 11-393) (“JUSTICE KENNEDY: When you say judicial restraint, you are echoing the earlier premise that it increases the judicial power if the judiciary strikes down other
provisions of the Act. I suggest to you it might be quite the opposite. We would be exercising the judicial power if one Act was—

160a
2.

The Equities Favor a Stay

As to the remaining elements of the stay analysis,
the Intervenor Defendants assert “[t]he equities . . .
tip overwhelmingly in favor of a stay.” Intervenor
Defs.’ Mot. Stay 11, ECF No. 213-1. To this point, the
Intervenor Defendants catalog the real-life impact the
Court’s December 14, 2018 Order is likely to have in
the absence of time for lawmakers to respond. See id.
at 13 (“Suddenly declaring [the ACA] void would cause
chaos for patients, providers, insurance carriers, and
the federal and state governments.”). Meanwhile, the
Intervenor Defendants point out, “since open enrollment in Texas for 2019 has concluded, the Individual
Plaintiffs have already purchased (or declined to purchase) ACA-compliant insurance for 2019. In other
words, the Court’s decision cannot affect the choices
that they have already made for next year.” Id. at 12.
The Plaintiffs suggest certifying the Order for appeal and therefore do not brief the stay analysis; instead, they “leave to the Court’s discretion whether [a
stay] may be appropriate under these unique Circumstances.” Pls.’ Resp. 5–6, ECF No. 216. The Federal
Defendants “do not object to Intervenor-Defendants’
request that the Court stay enforcement of the Order
pending appeal, given the potential for disruption to
the healthcare markets if immediate implementation
were required.” Fed. Defs.’ Resp. 10–11, ECF No. 216.
“Indeed, the ACA has now been in effect for several
years,” the Federal Defendants continue, “and it is in
one provision was stricken and the others remained to impose a
risk on insurance companies that Congress had never intended.
By reason of this Court, we would have a new regime that Congress did not provide for, did not consider. That, it seems to me
can be argued at least to be a more extreme exercise of judicial
power than to strike- than striking the whole.”).

161a
the parties’ and the public’s interest that appellate review be exhausted before the Federal Defendants
begin implementing the Court’s judgment.” Id. at 11.
The Intervenor Defendants’ arguments on the equities of a stay are well-taken. And the Plaintiffs’ and
Federal Defendants’ agreement, or lack of disagreement, that a stay is warranted for those reasons is telling. The Court therefore GRANTS the Intervenor
Defendants’ request for a stay of the Rule 54(b) Final
Judgment on the December 14, 2018 Order.
IV. CONCLUSION
“The American rule of law . . . depends on neutral,
impartial judges who say what the law is, not what the
law should be.”78 And courts must refrain from resolving policy disputes, relying instead on text-based decisions. The more courts step into breaches for
Congress, the more courts will be called upon to step
into breaches for Congress. That would represent a
fundamental shift in the Constitution’s careful balancing of powers—not only on the Judiciary-Legislature
plane, but also on the citizen-government plane. If the
judicial power encompasses ignoring unambiguous enacted text—the text citizens read to know what their
representatives have done—to approximate what a
judge believes Congress meant to do, but did not, then
policymaking lies in the hands of unelected judges and
Congress may transfer politically unwinnable issues
to the bench. This the Constitution does not allow.
This the Supreme Court does not allow. And for those
reasons, the Court finds it is powerless to read the
ACA as the Intervenor Defendants request and believes the Fifth Circuit is unlikely to disagree.
78

Kavanaugh, supra note 75, at 2119.

162a
But because many everyday Americans would otherwise face great uncertainty during the pendency of
appeal, the Court finds that the December 14, 2018
Order declaring the Individual Mandate unconstitutional and inseverable should be stayed. Accordingly,
the Court ORDERS that the December 14, 2018 Order, (ECF No. 211), and the Partial Final Judgment
severing Count I and finalizing that Order—which
will issue by separate order—be stayed during the
pendency of the Order’s appeal.
SO ORDERED on this 30th day of December,
2018.
/s/Reed O’Connor
Reed O’Connor
UNITED STATES DISTRICT JUDGE

163a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
No. 4:18-cv-00167-O
TEXAS, et al., Plaintiffs,
v.
UNITED STATES OF AMERICA, et al.,
Defendants,
CALIFORNIA, et al., Intervenors-Defendants.
MEMORANDUM OPINION AND ORDER
(Doc. 211) Filed December 14, 2018
The United States healthcare system touches millions of lives in a daily and deeply personal way.
Health-insurance policy is therefore a politically
charged affair—inflaming emotions and testing civility. But Article III courts, the Supreme Court has confirmed, are not tasked with, nor are they suited to,
policymaking. 1 Instead, courts resolve discrete cases
and controversies. And sometimes, a court must determine whether the Constitution grants Congress the
power it asserts and what results if it does not. If a
party shows that a policymaker exceeded the authority granted it by the Constitution, the fruit of that unauthorized action cannot stand.

1 See Nat’l Fed’n of Indep. Businesses v. Sebelius (NFIB), 567 U.S.
519, 530–38 (2012) (noting the wisdom of legislative policy is entrusted to the Nation’s elected leaders).

164a
Here, the Plaintiffs allege that, following passage
of the Tax Cuts and Jobs Act of 2017 (TCJA), the Individual Mandate in the Patient Protection and Affordable Care Act (ACA) is unconstitutional. They say it is
no longer fairly readable as an exercise of Congress’s
Tax Power and continues to be unsustainable under
the Interstate Commerce Clause. They further urge
that, if they are correct, the balance of the ACA is untenable as inseverable from the Invalid Mandate.
Resolution of these claims rests at the intersection
of the ACA, the Supreme Court’s decision in NFIB,
and the TCJA. In NFIB, the Supreme Court held the
Individual Mandate was unconstitutional under the
Interstate Commerce Clause but could fairly be read
as an exercise of Congress’s Tax Power because it triggered a tax. The TCJA eliminated that tax. The Supreme Court’s reasoning in NFIB—buttressed by
other binding precedent and plain text—thus compels
the conclusion that the Individual Mandate may no
longer be upheld under the Tax Power. And because
the Individual Mandate continues to mandate the purchase of health insurance, it remains unsustainable
under the Interstate Commerce Clause—as the Supreme Court already held.
Finally, Congress stated many times unequivocally—through enacted text signed by the President—
that the Individual Mandate is “essential” to the ACA.
And this essentiality, the ACA’s text makes clear,
means the mandate must work “together with the
other provisions” for the Act to function as intended.
All nine Justices to review the ACA acknowledged this
text and Congress’s manifest intent to establish the
Individual Mandate as the ACA’s “essential” provision. The current and previous Administrations have

165a
recognized that, too. Because rewriting the ACA without its “essential” feature is beyond the power of an
Article III court, the Court thus adheres to Congress’s
textually expressed intent and binding Supreme
Court precedent to find the Individual Mandate is inseverable from the ACA’s remaining provisions.
Construing the Plaintiffs’ Application for Preliminary Injunction, (ECF No. 39), as a motion for partial
summary judgment, the Court therefore DENIES
Plaintiffs’ request for an injunction but GRANTS
summary judgment on Count I of the Amended Complaint. See FED. R. CIV. P. 56(f); July 16, 2018 Order,
ECF No. 176.
I.

BACKGROUND

More than any factual developments, the background to this case involves the nuances of the ACA,
NFIB, and the TCJA, which the Court traces below.
A.

The ACA

The ACA became law on March 23, 2010. See Patient Protection and Affordable Care Act, Pub. L. 111148, 124 Stat. 119-1045 (2010). Congress intended the
ACA to achieve “near-universal” health-insurance coverage and to “lower health insurance premiums”
through the “creation of effective health insurance
markets” and new statutory requirements for individuals and insurance companies. See, e.g., 42 U.S.C.
§§ 18091(2)(D), (2)(F), and (2)(I). It pursued these
goals through a carefully balanced restructuring of the
Nation’s health-insurance ecosystem.
For starters, the ACA established a “[r]equirement
to maintain minimum essential coverage”—commonly
known as the “Individual Mandate.” 26 U.S.C.
§ 5000A(a). To compel compliance with the Individual

166a
Mandate, Congress imposed a tax penalty on individuals who were subject to the requirement but chose to
disobey it. Id. § 5000A(b). The ACA labeled this penalty the “[s]hared responsibility payment.” It was originally to be assessed at either $695.00 or a 2.5 percent
share of a family’s household income—whichever was
greater. Id. § 5000A(c).
From the start, Congress exempted some individuals from Individual Mandate. For example: those qualifying
for
a
“[r]eligious
exemption[],”
id.
§ 5000A(d)(2)(A); “member[s] of a health care sharing
ministry,” id. § 5000(d)(2)(B); individuals who are
“not . . . citizen[s] or national[s] of the United
States . . . or alien[s] lawfully present in the United
States,” id. § 5000A(d)(3); and “[i]ncarcerated individuals,” id. § 5000A(d)(4). At the same time, Congress
exempted five categories of individuals from the
shared-responsibility payment but not the Individual
Mandate. See id. § 5000A(e). This means several classes of individuals are obligated by § 5000A(a) to obtain
minimum-essential coverage but are not subject to the
tax penalty for failure to do so.2
Congress also wanted to ensure affordable health
insurance for those with pre-existing conditions. See
42 U.S.C. § 18091(2)(I) (“By significantly increasing
health insurance coverage, the [Individual Mandate],

These classes included “[i]ndividuals who cannot afford coverage,” id. § 5000A(e)(1); taxpayers with income “less than 100 percent of the poverty line for the size of the family involved,” id.
§ 5000A(e)(2); members of an Indian tribe, id. § 5000A(e)(3); individuals experiencing “short coverage gaps” in health insurance,
id. § 5000A(e)(4); and individuals who have received a “hardship”
exemption from the Secretary of Health and Human Services, id.
§ 5000A(e)(5).

2

167a
together with the other provisions of this Act, will minimize . . . adverse selection and broaden the health insurance risk pool to include healthy individuals, which
will lower health insurance premiums . . . [and]
creat[e] effective health insurance markets in which
improved health insurance products that are guaranteed issue and do not exclude coverage of pre-existing
conditions can be sold.”). Congress therefore required
insurers to cover high-risk individuals via the “guaranteed-issue” and “community-rating” provisions. The
guaranteed-issue provision requires insurers to “accept every employer and individual in the State that
applies for . . . coverage.” Id. § 300gg-1. The community-rating provision prohibits insurers from charging
higher rates to individuals based on age, sex, health
status, or other factors. Id. § 300gg-4.
The ACA includes many other integral regulations
and taxes as well. These include, among other things,
an excise tax on high-cost insurance plans, 26 U.S.C.
§ 4980I; the elimination of coverage limits, 42 U.S.C.
§ 300gg-11; and a provision allowing dependent children to remain on their parents’ insurance until age
26, id. § 300gg-14(a). The ACA also implemented an
employer mandate and an employer-responsibility assessment. These provisions require employers with at
least fifty full-time employees to pay the federal government a penalty if they fail to provide their employees with ACA-compliant health-plan options. See 26
U.S.C. § 4980H.
But just as Congress funneled nearly all Americans into health-insurance coverage on the one hand—
through the Individual Mandate and employer mandate, e.g.—it also significantly reduced reimbursements to hospitals by more than $200 billion over ten

168a
years on the other. 42 U.S.C. §§ 1395ww(b)(3)(B)(xi)–
(xii), 1395ww(q), 1395ww(r), and 1396r-4(f)(7).
Notably, several ACA provisions are tied to another signature reform—the creation and subsidization of health-insurance exchanges. See id. §§ 18031–
44. Through these and other provisions, the ACA allocated billions of federal dollars to subsidize the purchase of health insurance through government-run
exchanges. Plus, the ACA expanded the scope of Medicaid, adding millions of people to the eligibility roster.
See id. § 1396a(a)(10)(A)(i)(VIII).
The ACA also lays out hundreds of minor provisions, spanning the Act’s 900-plus pages of legislative
text, that complement the above-mentioned major provisions and others.
B.

NFIB

After the ACA took effect, states, individuals, and
businesses challenged its constitutionality in federal
courts across the country.3 One of those cases reached
the Supreme Court in 2012. See NFIB, 567 U.S. at 519.
In NFIB, twenty-six states, along with several individuals and an organization of independent businesses,
challenged the ACA’s Individual Mandate and Medicaid expansion as exceeding Congress’s enumerated
powers. In short, the Supreme Court held the Individual Mandate was beyond Congress’s Interstate Commerce Power but salvageable under its Tax Power.

In the interest of brevity, a full history of the lower-court decisions leading up to NFIB is not included here. But legal scholars
have documented that history to help explain this complex statutory scheme and the Supreme Court’s decision in 2012. See, e.g.,
JOSH BLACKMAN, UNPRECEDENTED: THE CONSTITUTIONAL CHALLENGE TO OBAMACARE 79–158 (2013) [hereinafter “BLACKMAN”].
3

169a
The decision was highly splintered and warrants explanation.
1.

Chief Justice Roberts

Chief Justice Roberts authored a lengthy opinion
considering several issues. See id. at 530–89. Only certain parts of that opinion garnered a majority of votes
or otherwise reached a conclusion agreed to by a majority of the Supreme Court. Here are the pertinent
parts.
In Part III-A, Chief Justice Roberts concluded the
Individual Mandate is not a valid exercise of Congress’s power under the Interstate Commerce Clause.
Id. at 546–61 (Roberts, C.J.). The Government argued
the Individual Mandate could be sustained under the
Interstate Commerce Clause because individual decisions to not buy health insurance collectively “ha[ve] a
substantial and deleterious effect on interstate commerce.” Id. at 548–49 (citing Brief for United States).
It also asserted insurance reforms without a mandate
would create cost-shifting problems whereby insurers
would increase premiums to cover the costs of highrisk individuals. Id. at 547–48.
The Chief Justice disagreed and held the Interstate Commerce Clause authorizes regulating “activity,” not inactivity. Id. at 553. He warned the
Government’s theory would “extend[] the sphere of
[Congress’s] activity and draw[] all power into its impetuous vortex.” Id. at 554 (quoting THE FEDERALIST
NO. 48, at 309 (James Madison)). “The Framers gave
Congress the power to regulate commerce,” he reasoned, “not to compel it.” Id. at 555 (emphasis in original).
Though no other Justice joined this part of the
Chief Justice’s opinion, the “joint dissent”— consisting

170a
of Justices Scalia, Kennedy, Thomas, and Alito—
reached the same conclusion on the Interstate Commerce Clause question. Id. at 657 (joint dissent). Accordingly, a majority of the Supreme Court found the
Individual Mandate is unconstitutional under the Interstate Commerce Clause, 4 and even the four Justices not reaching that conclusion recognized it as the
holding of the Court. See id. at 572 (majority) (“The
Court today holds that our Constitution protects us
from federal regulation under the Commerce Clause
so long as we abstain from the regulated activity.”).
In Part III-B, the Chief Justice concluded that, because the Individual Mandate is impermissible under
the Interstate Commerce Clause, the Supreme Court
was obligated to entertain the Government’s argument that the mandate could be upheld under the Tax
Power. Id. at 561–63 (Roberts, C.J.). He noted that
“[t]he most straightforward reading of the mandate is
that it commands individuals to purchase insurance.”
Id. at 562. “But, for the reasons explained above, the
Commerce Clause does not give Congress that power.”
Id.
In Part III-C, the Chief Justice wrote a majority
opinion, joined by Justices Ginsburg, Breyer, Sotomayor, and Kagan, holding that 26 U.S.C. § 5000A—
including the Individual Mandate and the shared-responsibility payment—was a constitutional exercise of
Congress’s Tax Power. Id. at 563–74 (majority). The
Supreme Court’s analysis in this section focused more
on the shared-responsibility payment than on the Individual Mandate. See, e.g., id. at 563 (“The exaction
The same five Justices also found that the Individual Mandate
could not be upheld as an essential component of the ACA’s insurance reforms under the Necessary and Proper Clause. Id. at
560 (Roberts, C.J.); id. at 654–55 (joint dissent).

4

171a
the Affordable Care Act imposes on those without
health insurance looks like a tax in many respects.
The ‘[s]hared responsibility payment,’ as the statute
entitles it, is paid into the Treasury . . . .”); id. at 566
(“The same analysis here suggests that the shared responsibility payment may for constitutional purposes
be considered a tax.”); id. at 568 (reasoning “the
shared responsibility payment merely imposes a tax
citizens may lawfully choose to pay in lieu of buying
health insurance”); id. at 569 (“Our precedent demonstrates that Congress had the power to impose the exaction in § 5000A under the taxing power.” (emphasis
added)).
The Supreme Court’s conclusion that § 5000A constituted a constitutional exercise of Congress’s Tax
Power turned on several factors. First, the shared-responsibility payment “is paid into the Treasury by taxpayers when they file their tax returns.” Id. at 563
(cleaned up). Second, the amount owed under the ACA
“is determined by such familiar factors as taxable income, number of dependents, and joint filing status.”
Id. (citing 26 U.S.C. §§ 5000A(b)(3), (c)(2), (c)(4)). And
“[t]he requirement to pay is found in the Internal Revenue Code and enforced by the IRS, which . . . must
assess and collect it ‘in the same manner as taxes.’” Id.
at 563–64. Third and finally, the shared-responsibility
payment “yields the essential feature of any tax: It produces at least some revenue for the Government.” Id.
at 564 (citing United States v. Kahriger, 345 U.S. 22,
28 n.4 (1953)) (emphasis added). On these bases, the
Supreme Court held, “The Federal Government does
have the power to impose a tax on those without
health insurance. Section 5000A is therefore constitutional, because it can reasonably be read as a tax.” Id.
at 575.

172a
Finally, in Part IV, Chief Justice Roberts was
joined by Justices Breyer and Kagan in concluding
that the ACA’s Medicaid-expansion provisions unconstitutionally coerced States into compliance—but
given the existence of a severability clause, the unconstitutional portion of the Medicaid provisions could be
severed. Id. at 575–88 (Roberts, C.J., joined by Breyer
and Kagan, JJ.). While Justice Ginsburg, joined by
Justice Sotomayor, disagreed that the ACA’s mandatory Medicaid expansion was unconstitutionally coercive, see id. at 624–45 (Ginsburg, J., joined by
Sotomayor, J.), she agreed with the Chief Justice’s
conclusion—only because the Chief Justice found the
expansion unconstitutional—that the offending provisions could be severed from the remainder of the Act,
see id. at 645 (“But in view of THE CHIEF JUSTICE’s
disposition, I agree with him that the Medicaid Act’s
severability clause determines the appropriate remedy.”).
2.

Joint Dissent

Justices Scalia, Kennedy, Thomas, and Alito
agreed with the Chief Justice that the Individual Mandate exceeds Congress’s powers under the Interstate
Commerce and Necessary and Proper Clauses, but
they concluded § 5000A could not be characterized as
a tax.5 Id. at 652–57 (joint dissent). The joint dissent
noted that Congress rejected an earlier version of the
ACA that “imposed a tax instead of a requirementwith-penalty” and reasoned that characterizing
§ 5000A, including the Individual Mandate, as a tax

The joint dissent also agreed the ACA’s Medicaid expansion exceeded “Congress’ power to attach conditions to federal grants to
the States.” NFIB, 567 U.S. at 671.

5

173a
was therefore contrary to congressional intent. Id. at
669 (citations omitted).
Because the joint dissenters concluded the Individual Mandate and the Medicaid expansion were unconstitutional, they—and only they—addressed whether
“all other provisions of the Act must fall as well.” Id.
at 691. The dissenters noted that the ACA “was passed
to enable affordable, ‘near universal’ health insurance
coverage.” Id. at 694 (citing 42 U.S.C. § 18091(2)(D)).
And to effectuate this goal, the ACA “consists of mandates and other requirements; comprehensive regulation and penalties; some undoubted taxes; and
increases in some governmental expenditures, decreases in others.” Id. The dissenters then asked
whether this “closely interrelated” scheme could “function in a coherent way and as Congress would have
intended, even when the major provisions establishing
the Individual Mandate and Medicaid Expansion are
themselves invalid.” Id. at 691, 694. They opined it
could not.
In passing the ACA, the dissenters noted, Congress
understood the fiscal concerns surrounding healthcare
reform and engineered a system whereby “it did not
intend to impose the inevitable costs on any one industry or group of individuals.” Id. at 694. The dissenters
reasoned the ACA “attempts to achieve near-universal
health insurance coverage by spreading its costs to individuals, insurers, governments, hospitals, and employers—while, at the same time, offsetting
significant portions of those costs with new benefits to
each group.” Id. at 695. In a nutshell:
the Federal Government bears the burden of
paying billions for the new entitlements mandated by the Medicaid Expansion and federal
subsidies for insurance purchases on the exchanges; but it benefits from reductions in the

174a
reimbursements it pays to hospitals. Hospitals
lose those reimbursements; but they benefit
from the decrease in uncompensated care, for
under the insurance regulations it is easier for
individuals with pre-existing conditions to
purchase coverage that increases payments to
hospitals. Insurance companies bear new costs
imposed by a collection of insurance regulations and taxes, including “guaranteed issue”
and “community rating” requirements to give
coverage regardless of the insured’s pre-existing conditions; but the insurers benefit from
the new, healthy purchasers who are forced by
the Individual Mandate to buy the insurers’
product and from the new low-income Medicaid recipients who will enroll in insurance
companies’ Medicaid-funded managed care
programs. In summary, the Individual Mandate and Medicaid Expansion offset insurance
regulations and taxes, which offset reduced reimbursements to hospitals, which offset increases in federal spending.
Id. at 695–96. “In summary, the Individual Mandate
and Medicaid Expansion offset insurance regulations
and taxes, which offset reduced reimbursements to
hospitals, which offset increases in federal spending.”
Id. at 696. And Congress intended the Individual Mandate and Medicaid Expansion to work together with
the rest of the ACA. Id. (citing 42 U.S.C.
§§ 18091(2)(C), (2)(E), (2)(F), (2)(G), (2)(I), (2)(J)).
Next, the joint dissenters detailed the ACA’s major
provisions. They concluded, given the above, that
these provisions—insurance regulations and taxes;
hospital-reimbursement reductions and other reductions in Medicare expenditures; health-insurance exchanges and their federal subsidies; and the employerresponsibility assessment—are all inseverable from

175a
the Individual Mandate. See id. at 697–703. They concluded the same with respect to the ACA’s minor provisions. See, e.g., id. at 704 (“if the major provision
were unconstitutional, Congress would not have
passed the minor one”). In sum, the joint dissenters
would have declared the ACA “invalid in its entirety.”
Id. at 707.
C.

The TCJA

On December 22, 2017, the Tax Cuts and Jobs Act
of 2017 was signed into law. See Pub. L. No. 115-97,
131 Stat. 2054 (2017). Congress passed the TCJA
through budget reconciliation, “an expedited procedure [for] considering legislation that would bring existing spending, revenue, and debt limit laws into
compliance with the current fiscal priorities established in the annual budget resolution.” Megan S.
Lynch & James V. Saturno, The Budget Reconciliation
Process: Stages of Consideration, at 1, CONGRESSIONAL
RESEARCH SERVICE (Jan. 4, 2017). Budget reconciliation limits congressional action to fiscal matters.
In the TCJA, Congress reduced the ACA’s sharedresponsibility payment to zero, effective January 1,
2019. See TCJA § 11081. Congress took no other action
pertaining to the ACA. Nor could it. The reconciliation
process limited Congress to doing exactly what it did:
reducing taxes. See Fed. Defs.’ Resp. 16 n.4, ECF No.
92 (“Although Congress was able to revoke the tax
penalty, it could not have revoked the guaranteed-issue or community-rating provisions through reconciliation.”); Sept. 5, 2018 Hr’g Tr. at 36:7–12 (Intervenor
Defendants) [hereinafter “Hr’g Tr.”] (“Congress did
not repeal any part of the ACA, including the shared
responsibility payment. In fact, it could not do so
through the budget reconciliation procedures it
used.”).

176a
II. PROCEDURAL BACKGROUND
Plaintiffs are the States of Alabama, Arizona, Arkansas, Florida, Georgia, Indiana, Kansas, Louisiana,
Mississippi, Missouri, Nebraska, North Dakota, South
Carolina, South Dakota, Tennessee, Texas, Utah,
West Virginia, Wisconsin, Governor Paul LePage of
Maine (the “State Plaintiffs”), and individuals Neill
Hurley and John Nantz (the “Individual Plaintiffs”
and, collectively with the State Plaintiffs, “Plaintiffs”).
Defendants are the United States of America, the
United States Department of Health and Human Services (“HHS”), Alex Azar, in his official capacity as
Secretary of HHS, the United States Internal Revenue
Service (the “IRS”), and David J. Kautter, in his official capacity as Acting Commissioner of Internal Revenue (collectively, the “Federal Defendants”).
Finally, the States of California, Connecticut, Delaware, Hawaii, Illinois, Kentucky, Massachusetts,
Minnesota, New Jersey, New York, North Carolina,
Oregon, Rhode Island, Vermont, Virginia, and Washington, and the District of Columbia intervened as defendants (collectively, the “Intervenor Defendants”).
The Plaintiffs sued the Federal Defendants seeking, among other things, a declaration that the Individual Mandate, as amended by the TCJA, is
unconstitutional and that the remainder of the ACA is
inseverable. Am. Compl. 2, ECF No. 27. Their theory
is that, because the TCJA eliminated the shared-responsibility tax payment, the tax-based saving construction developed in NFIB no longer applies. Id. at
2–3. Plaintiffs further argue that, as the four joint dissenters reasoned in NFIB, the Individual Mandate is
inseverable from the rest of the ACA. Pls.’ Br. Prelim.

177a
Inj. 35, ECF No. 40 (citing NFIB, 567 U.S. at 691–703
(joint dissent)) [hereinafter “Pls.’ Br.”].
The Federal Defendants agree the Individual Mandate is unconstitutional and inseverable from the
ACA’s pre-existing-condition provisions. But they argue all other ACA provisions are severable from the
mandate. The Intervenor Defendants argue all the
Plaintiffs’ claims fail.
The Plaintiffs filed an Application for Preliminary
Injunction, (ECF No. 39), on April 26, 2018; the Federal Defendants and the Intervenor Defendants responded, (ECF Nos. 91 and 92), on June 7, 2018; and
Plaintiffs replied, (ECF No. 175), on July 5, 2018. Because the Federal Defendants argued a judgment, as
opposed to an injunction, was more appropriate, the
Court provided notice of its intent to resolve the issues
in this case on summary judgment. See July 16, 2018
Order, ECF No. 176 (citing FED. R. CIV. P. 56(f)(3)).
The parties responded. See ECF Nos. 177–79.
The Plaintiffs argued they desire a preliminary injunction but are unopposed to “simultaneously considering Plaintiffs’ application as a motion for partial
summary judgment on the constitutionality of the
ACA’s mandate.” See Pls.’ Resp. July 16, 2018 Order,
ECF No. 181 (emphasis in original). The Intervenor
Defendants opposed converting the preliminary-injunction briefing to a summary-judgment ruling because they wished to more fully brief issues such as
Article III standing, the Interstate Commerce Clause,
and the scope of injunctive relief. Intervenor Defs.’
Resp. July 16, 2018 Order 2, ECF No. 182. At the hearing, the Federal Defendants requested the Court “to
defer any ruling until after the close of the open enrollment period which is in mid December, [as] that

178a
would ensure that there is no disruption to the open
enrollment period.” Hr’g Tr. at 30:15–18.
The Court finds the Intervenor Defendants adequately briefed and argued at the September 5, 2018
hearing the standing and Interstate Commerce Clause
issues. The Court therefore construes the application
as a motion for partial summary judgment.
III. LEGAL STANDARDS
A.

Article III Standing

“Every party that comes before a federal court
must establish that it has standing to pursue its
claims.” Cibolo Waste, Inc. v. City of San Antonio, 718
F.3d 469, 473 (5th Cir. 2013). Standing doctrine is
rooted in the Constitution’s grant of judicial power to
adjudicate cases or controversies. “The doctrine developed in our case law to ensure that federal courts do
not exceed their authority as it has been traditionally
understood.” Spokeo, Inc. v. Robins, 136 S. Ct. 1540,
1547 (2016).
“The doctrine of standing asks ‘whether the litigant
is entitled to have the court decide the merits of the
dispute or of particular issues.’” Cibolo Waste, 718
F.3d at 473 (quoting Elk Grove Unified Sch. Dist. v.
Newdow, 542 U.S. 1, 11 (2004)). Standing has both
constitutional and prudential components. See id.
(quoting Elk Grove, 542 U.S. at 11) (stating standing
“contain[s] two strands: Article III standing . . . and
prudential standing”). The “irreducible constitutional
minimum” of Article III standing consists of three elements. Spokeo, 135 S. Ct. at 1547; Lujan v. Defenders
of Wildlife, 504 U.S. 555, 560 (1992). The plaintiff
must have (1) suffered an injury in fact (2) that is
fairly traceable to the challenged conduct of the de-

179a
fendant and (3) that is likely to be redressed by a favorable decision. Lujan, 504 U.S. at 560–61. It is not
necessary for all plaintiffs to demonstrate Article III
standing. Rather, “one party with standing is sufficient to satisfy Article III’s case-or-controversy requirement.” Texas v. United States, 809 F.3d 134, 151
(5th Cir. 2015) (quoting Rumsfeld v. Forum for Academic & Institutional Rights, Inc., 547 U.S. 47, 52 n.2
(2006)).
“Prudential standing requirements exist in addition to ‘the immutable requirements of Article III,’ . . .
as an integral part of ‘judicial self-government.’”
ACORN v. Fowler, 178 F.3d 350, 362 (5th Cir. 1999)
(quoting Lujan, 504 U.S. at 560). “The goal of this selfgovernance is to determine whether the plaintiff ‘is a
proper party to invoke judicial resolution of the dispute and the exercise of the court’s remedial power.’”
Id. (quoting Bender v. Williamsport Area Sch. Dist.,
475 U.S. 534, 546 n.8 (1986)). The Supreme Court has
observed that prudential standing encompasses “at
least three broad principles,” including “the general
prohibition on a litigant’s raising another person’s legal rights . . . .” Lexmark Int’l, Inc. v. Static Control
Components, Inc., 134 S. Ct. 1377, 1386 (2014); Cibolo
Waste, 718 F.3d at 474 (quoting Elk Grove, 542 U.S. at
12).
As the parties invoking jurisdiction, the Plaintiffs
must show the requirements of standing are satisfied.
See Ramming v. United States, 281 F.3d 158, 161 (5th
Cir. 2001).
B.

Summary Judgment

Summary judgment is proper when the pleadings
and evidence show “that there is no genuine dispute
as to any material fact and the movant is entitled to

180a
judgment as a matter of law.” FED. R. CIV. P. 56(a).
“[T]he substantive law will identify which facts are
material.” Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248 (1986). A genuine issue of material fact exists
“if the evidence is such that a reasonable jury could
return a verdict for the nonmoving party.” Id. The movant makes a showing that there is no genuine issue
of material fact by informing the court of the basis of
its motion and by identifying the portions of the record
that reveal there are no genuine material-fact issues.
See FED. R. CIV. P. 56(c); Celotex Corp. v. Catrett, 477
U.S. 317, 323 (1986).
When reviewing the evidence on a motion for summary judgment, the court must resolve all reasonable
doubts and inferences in the light most favorable to
the non-movant. See Walker v. Sears, Roebuck & Co.,
853 F.2d 355, 358 (5th Cir. 1988). The court cannot
make a credibility determination in light of conflicting
evidence or competing inferences. Anderson, 477 U.S.
at 255. And if there appears to be some support for the
disputed allegations, such that “reasonable minds
could differ as to the import of the evidence,” the court
must deny the motion for summary judgment. Id. at
250.
IV. ANALYSIS
The Court’s analysis involves three separate inquiries and conclusions. First, the Court finds the Parties satisfy the applicable standing requirements.
Second, the Court finds the Individual Mandate can
no longer be fairly read as an exercise of Congress’s
Tax Power and is still impermissible under the Interstate Commerce Clause—meaning the Individual
Mandate is unconstitutional. Third, the Court finds
the Individual Mandate is essential to and inseverable
from the remainder of the ACA.

181a
A.

Article III Standing

No party initially challenged the Plaintiffs’ standing. But amici raised the issue6 and the Intervenor Defendants addressed it at oral argument. See, e.g., Hr’g
Tr. at 52–58; 64–68. And because Article III standing
is a requirement of subject-matter jurisdiction, it cannot be waived. See FW/PBS, Inc. v. City of Dallas, 493
U.S. 215, 231 (1990) (“The federal courts are under an
independent obligation to examine their own jurisdiction.”).
The Individual Plaintiffs, who are citizens and residents of the State of Texas, challenge the Individual
Mandate as an unconstitutional requirement to purchase ACA-compliant health insurance. They argue
they are injured by the “obligation to comply with the
individual mandate . . . despite the provision’s unconstitutionality.” Am. Compl. ¶ 43, ECF No. 27. Injuryin-fact must be both particularized and concrete, not
conjectural or hypothetical. Spokeo, 136 S. Ct. at 1548
(quoting Lujan, 504 U.S. at 560). For an injury to be
particularized, it “must affect the plaintiff in a personal and individual way.” Id. Under Lujan, a concrete
and particularized injury generally exists if the “plaintiff is himself an object of the action (or forgone action)
at issue. If he is, there is ordinarily little question that
the action or inaction has caused him injury, and that
The American Medical Association filed an amicus brief that argued the Individual Plaintiffs lack standing because they “seek to
leverage their own voluntary decisions to purchase minimum essential coverage into cognizable injuries-in-fact” and therefore
impermissibly base standing on a self-inflicted injury. See Br. of
the Am. Med. Ass’n et al. 7, ECF No. 113. The Association also
challenged the State Plaintiffs’ standing, arguing their alleged
injury is too attenuated and speculative to support standing. See
id. at 11–12.

6

182a
a judgment preventing or requiring the action will redress it.” Lujan, 504 U.S. at 561–62. The question of
“whether someone is in fact an object of a regulation is
a flexible inquiry rooted in common sense” and “underlies all three elements of standing.” Contender Farms,
LLP v. USDA, 779 F.3d 258, 264, 266 (5th Cir. 2015).
In Contender Farms, a company and its principal,
McGartland, challenged a regulation under the Horse
Protection Act that required certain entities to suspend horse trainers who engaged in “soring.” Id. at
262. The Fifth Circuit analyzed whether the plaintiffs
had standing to challenge the regulation and the scope
of the agency’s rulemaking authority. Applying a
“commonsense approach to the facts in [the] case,” the
court held first that the plaintiffs were the object of
the challenged regulation because the regulation “target[ed] participants in Tennessee walking horse
events like Contender Farms and McGartland.” Id. at
265. Second, the court determined the regulation
amounted to an increased regulatory burden because
it subjected the plaintiffs to “harsher, mandatory penalties” for violation of the soring rules—it also required competitors to “take additional measures to
avoid even the appearance of soring.” Id. at 266. Because “[a]n increased regulatory burden typically satisfies the injury in fact requirement,” and because the
Fifth Circuit found that causation and redressability
naturally flowed from the type of injury alleged, the
plaintiffs satisfied Article III standing. Id.
Here, the Individual Plaintiffs are the object of the
Individual Mandate. It requires them to purchase and
maintain certain health-insurance coverage. See 26
U.S.C. § 5000A(a); see also Pls.’ App. Supp. Prelim.
Inj., Ex. A (Nantz Decl.) ¶ 15, ECF No. 41 (“I am obli-

183a
gated to comply with the [ACA’s] individual mandate”); Pls.’ App. Supp. Prelim. Inj., Ex. B (Hurley
Decl.) ¶ 15, ECF No. 41 (“I continue to maintain minimum essential health coverage because I am obligated . . . .”). Cf. Lujan, 504 U.S. at 561–62; Time
Warner Cable, Inc. v. Hudson, 667 F.3d 630, 636 (5th
Cir. 2012).
The American Medical Association argues the Individual Plaintiffs have created their own financial injury because they can choose not to comply with the
Individual Mandate and, beginning in January 2019,
no penalty will be assessed against them. See Br. Am.
Med. Ass’n 8–9, ECF No. 113; Hr’g Tr. at 37:9–16. But
this argument begs a leading question in this case by
assuming the Individual Plaintiffs need not comply
with the Individual Mandate. Moreover, a showing of
economic injury is not required.
In warning lower courts not to conflate the “actualinjury inquiry with the underlying merits” of a claim,
the Fifth Circuit recognizes that standing can be established where a plaintiff alleges that a federal statute or regulation “deters the exercise of his
constitutional rights.” Duarte, 759 F.3d at 520. Here,
the Individual Plaintiffs allege just that. They claim
“Section 5000A’s individual mandate exceeded Congress’s enumerated powers by forcing Individual
Plaintiffs to maintain ACA-compliant health insurance coverage.” Am. Compl. ¶ 49, ECF No. 27. Intervenor Defendants, meanwhile, contend the Individual
Mandate remains a constitutional exercise of Congress’s tax or regulatory authority. As a result, the
“conflicting contentions of the parties . . . present a
real, substantial controversy between parties having
adverse legal interests, a dispute definite and concrete, not hypothetical or abstract.” Babbitt v. United

184a
Farm Workers Nat’l Union, 442 U.S. 289, 298 (1979)
(quoting Railway Mail Assn. v. Corsi, 326 U.S. 88, 93
(1945)). The Individual Plaintiffs have therefore sufficiently alleged an injury in fact that sits at the center
of a live controversy.
“Causation and redressability then flow naturally
from” the injury created by the Individual Mandate.
Contender Farms, 779 F.3d at 266. Without it, the Individual Plaintiffs would not be required to maintain
health-insurance coverage and would not be subject to
an increased regulatory burden. A favorable decision
for the Plaintiffs—a declaration that the Individual
Mandate is unconstitutional—would redress the alleged injury. The Individual Plaintiffs, for example,
would be free to forego purchasing health insurance
altogether or to otherwise purchase health insurance
below the “minimum essential coverage” better suited
to their health and financial realities. At a minimum,
they would be freed from what they essentially allege
to be arbitrary governance.
The Court finds the Individual Plaintiffs have
standing to challenge the constitutionality of the Individual Mandate. 7 And because the Individual Plaintiffs
have
standing,
the
case-or-controversy
requirement is met. See Watt v. Energy Action Educ.
Found., 454 U.S. 151, 160 (1981) (“Because we find

The Court does not analyze whether the Individual Plaintiffs
have prudential standing to bring their claims because “prudential standing (unlike Article III standing) is not jurisdictional,
meaning that prudential standing has been forfeited” and is not
properly before the court, if, like here, no party contests it. Grocery Mfrs. Ass’n v. EPA, 693 F.3d 169, 181 (D.C. Cir. 2012) (Kavanaugh, J., dissenting).

7

185a
California has standing, we do not consider the standing of the other plaintiffs.”); Rumsfeld, 547 U.S. at 53
n.2.
B.

The Individual Mandate

With standing satisfied, the Court “must . . . determine whether the Constitution grants Congress powers it now asserts, but which many States and
individuals believe it does not possess.” NFIB, 567
U.S. at 534 (Roberts, C.J.). The Court recalls the principles undergirding NFIB. Namely, “deference in matters of policy cannot . . . become abdication in matters
of law.” Id. at 538. This means “respect for Congress’s
policy judgments . . . can never extend so far as to disavow restraints on federal power that the Constitution
carefully constructed.” Id. “The peculiar circumstances of the moment may render a measure more or
less wise, but cannot render it more or less constitutional.” Id. (quoting Chief Justice John Marshall, A
Friend of the Constitution No. V, Alexandria Gazette,
July 5, 1819, reprinted in JOHN MARSHALL’S DEFENSE
OF MCCULLOCH V. MARYLAND 190–91 (G. Gunther ed.
1969)). “And there can be no question that it is the responsibility of this Court to enforce the limits on federal power by striking down acts of Congress that
transgress those limits.” Id. (citing Marbury v. Madison, 5 U.S. 137, 175–76 (1803)).
The question of constitutionality is straightforward: Is the Individual Mandate a constitutional exercise of Congress’s enumerated powers when the
shared-responsibility payment is zero? Because the
Supreme Court upheld the Individual Mandate under
Congress’s Tax Power, the Court will begin there before proceeding to an Interstate Commerce Clause

186a
analysis. The Court finds that both plain text and Supreme Court precedent dictate that the Individual
Mandate is unconstitutional under either provision.
1.

Congress’s Tax Power

In NFIB, the Supreme Court held 26 U.S.C.
§ 5000A to be a constitutional exercise of Congress’s
Tax Power. Id. at 570 (majority) (“Our precedent
demonstrates that Congress had the power to impose
the exaction in § 5000A under the taxing power, and
that § 5000A need not be read to do more than impose
a tax. That is sufficient to sustain it.”). That power authorizes Congress to “lay and collect Taxes, Duties,
Imposts, and Excises, to pay the Debts and provide for
the common Defence and general Welfare of the
United States.” U.S. CONST. art. I, § 8, cl. 1. Previously,
the shared-responsibility provision, 26 U.S.C.
§ 5000A(b), imposed an “exaction” for failure to obey
the Individual Mandate, id. § 5000A(a). The question
here is whether an eliminated shared-responsibility
exaction continues to justify construing the Individual
Mandate as an exercise of Congress’s Tax Power to implement § 5000A.
The Plaintiffs and Federal Defendants say “no.”
Pls.’ Br. 26, ECF No. 40; Fed. Defs.’ Resp. 11, ECF No.
92. The Intervenor Defendants, on the other hand, argue § 5000A can still fairly be read as a tax because it
continues to satisfy the tax factors discussed in NFIB,
including that previous shared-responsibility payments will make their way into the treasury for years
to come. Intervenor Defs.’ Resp. 16–22, ECF No. 91.
a.

Sections 5000A(a) and (b) Are Distinct

It is critical to clarify something at the outset: the
shared-responsibility payment, 26 U.S.C. § 5000A(b),
is distinct from the Individual Mandate, id.

187a
§ 5000A(a). For one thing, the latter is in subsection
(a) while the former is in subsection (b). 8 And the
Plaintiffs challenge only the Individual Mandate, not
the shared-responsibility penalty, as unconstitutional.
See, e.g., Am. Compl. ¶ 49, ECF No. 27 (“Section
5000A’s individual mandate exceeds Congress’s enumerated powers . . . .” (emphasis added)); id. (“the individual mandate cannot be upheld under any other
provision of the Constitution”); id. at ¶¶ 55–56
(“[A]fter Congress amended Section 5000A, it is no
longer possible to interpret this statute as a tax
enacted pursuant to a valid exercise of Congress’s
constitutional power to tax. Rather, the only reading
available is the most natural one; Section 5000A contains a stand-alone legal mandate . . . Accordingly, Section 5000A’s individual mandate is unconstitutional.”
(emphasis added)). The Court cannot ignore that the
Individual Mandate, § 5000A(a), is separate and distinct from the shared-responsibility penalty,
§ 5000A(b).9
Other ACA text and functionality demand
§§ 5000A(a) and (b) not be lumped together, too. Most
obviously, Congress exempted some individuals from
the shared-responsibility penalty but not the Individual Mandate. See 26 U.S.C. § 5000A(e). For example,
§ 5000A(e)(1) provides that “[i]ndividuals who cannot
afford coverage” are exempt from the penalty, but not
the mandate. Id. § 5000A(e)(1). “Members of Indian
Subsection (c) sets the amount of the shared-responsibility payment erected in subsection (b), see id. § 5000A(c), and it is the
subsection set at zero per cent by the TCJA, see TCJA § 11081(a).

8

See ANTONIN SCALIA & BRYAN A. GARNER, READING LAW: THE
INTERPRETATION OF LEGAL TEXTS 174–79 (2012) (Surplusage
Canon) [hereinafter “READING LAW”].
9

188a
tribes” are also subject to the mandate but not the penalty. See id. § 5000A(e)(3). Congress could not possibly
have intended the mandate and penalty to be treated
as one when it treated them as two.10
Congress’s codified ACA findings support the distinction as well. As the Plaintiffs argue, those “findings identify the individual mandate itself—‘[t]he
requirement’ to purchase health insurance”—while
“making no mention of the separate tax penalty that
attaches to some individuals’ failure to comply with
the mandate.” Pls.’ Br. 8–9, ECF No. 40 (citation omitted) (emphasis in Plaintiffs’ Brief). The Court agrees
the findings highlight that Congress believed that, “if
there were no requirement”—i.e., no Individual Mandate—“many individuals would wait to purchase
health insurance until they needed care.” 42 U.S.C.
§ 18091(2)(I) (emphasis added). That is the belief it
acted on and on which it formed its intent.11
Federal agencies recognize this as well. See, e.g., CENTERS FOR
MEDICARE & MEDICAID SERVICES, ONE PAGER – INDIAN EXEMPhttps://marketplace.cms.gov/technical-assistance-reTION,
sources/exemption-indian-health-care-provider.pdf (last visited
December 2018) (“Under the Affordable Care Act, everyone who
can afford to is now required by law to have health coverage . . .
However, those who can’t afford coverage or meet other conditions may qualify for [a shared-responsibility-payment] exemption.”).
10

See also CONGRESSIONAL BUDGET OFFICE, KEY ISSUES IN ANAMAJOR HEALTH INSURANCE PROPOSALS 53 (Dec. 2008),
available at https://www.cbo.gov/sites/default/files/110th-congress-2007-2008/reports/12-18-keyissues.pdf (December 2008)
(“[S]ome compliance is generally observed, even when there is little or no enforcement of mandates. Compliance, then, is probably
affected by an individual’s personal values and by social norms.
Many individuals and employers would comply with a mandate,
even in the absence of penalties, because they believe in abiding
by the nation’s laws.”).
11

LYZING

189a
The 2010 Congress therefore intended the mandate and penalty to be distinct. The 2017 Congress solidified that intent. Section 11081 of the TCJA is
entitled “Elimination of shared responsibility payment for individuals failing to maintain minimum essential coverage.” TCJA § 11081. This section amends
26 U.S.C. § 5000A(c)—the provision setting the
amount of the shared-responsibility penalty, id.
§ 5000A(b)—to “[e]liminat[e]” the existing payment
and replace it with “Zero percent” and “$0.” TCJA
§ 11081(a). It does not eliminate the Individual Mandate. So, just as the 2010 Congress subjected some individuals to the Individual Mandate but no sharedresponsibility payment, the 2017 Congress subjected
all applicable individuals to the Individual Mandate
but no shared-responsibility payment. Congress never
intended the two things to be one.
As described below, the Supreme Court’s Tax
Power analysis in NFIB proceeded along these lines—
recognizing the Individual Mandate as separate and
distinct from the shared-responsibility penalty. This
distinction is critical to the Court’s remaining legal
analysis.
b.

Section 5000A(a) Can No Longer Be
Sustained as an Exercise of Congress’s
Tax Power

NFIB does not contravene Congress’s intent to separate the Individual Mandate and shared-responsibility penalty. To the extent the Supreme Court held
§ 5000A could be fairly read as a tax, it reasoned only
that the Individual Mandate could be viewed as part
and parcel of a provision supported by the Tax
Power—not that the Individual Mandate itself was a
tax.

190a
The Supreme Court stated its “precedent demonstrate[d] that Congress had the power to impose the
exaction in § 5000A under the taxing power”—and
§ 5000A(b) is the exaction—“and that § 5000A need
not be read to do more than impose a tax. That is sufficient to sustain it.” NFIB, 567 U.S. at 570 (emphasis
added). In other words, it was only because of the totally distinct shared-responsibility payment, or exaction, that the Supreme Court could construe § 5000A
as a tax provision. As the Government argued at the
time, and as Chief Justice Roberts recognized, that
meant “the mandate [could] be regarded as establishing a condition—not owning health insurance—that
triggers a tax.” Id. at 563 (Roberts, C.J.) (emphasis
added).
Put plainly, because Congress had the power to enact the shared-responsibility exaction, § 5000A(b), under the Tax Power, it was fairly possible to read the
Individual Mandate, § 5000A(a), as a functional part
of that tax also enacted under Congress’s Tax Power.
Therefore, § 5000A as a whole could be viewed as an
exercise of Congress’s Tax Power.
The majority’s analysis compels this conclusion.12
In its very first breath under Part III-C, the majority
reasoned:
The exaction the Affordable Care Act imposes
on those without health insurance looks like a
tax in many respects. The “[s]hared responsibility payment,” as the statute entitles it, is
paid into the Treasury by “taxpayer[s]” when
they file their tax returns. 26 U.S.C.
Accord Intervenor Defs.’ Resp. 17, ECF No. 91 (“In NFIB, the
Supreme Court explained that the shared responsibility payment
‘looks like’ a tax in several respects.” (emphasis added)).

12

191a
§ 5000A(b). It does not apply to individuals
who do not pay federal income taxes because
their household income is less than the filing
threshold in the Internal Revenue Code.
§ 5000A(e)(2). For taxpayers who do owe the
payment, its amount is determined by such familiar factors as taxable income, number of dependents,
and
joint
filing
status.
§§ 5000A(b)(3), (c)(2), (c)(4). The requirement
to pay is found in the Internal Revenue Code
and enforced by the IRS, which—as we previously explained—must assess and collect it “in
the same manner as taxes.”
NFIB, 567 U.S. at 563–64 (majority) (final citation to
ACA omitted). The Supreme Court’s baseline analysis
thus turned on the following: the exaction looks like a
tax; it is paid into the treasury; it does not apply to
individuals who pay no federal income taxes; familiar
tax factors are applied to folks who owe the payment;
and the requirement to pay is in the revenue code. Id.
Only one of those factors applies to the Individual
Mandate, § 5000A(a): it is in the Internal Revenue
Code. But the Individual Mandate is not in § 5000A(b),
is not called the shared-responsibility payment, is not
an exaction, is not paid into the Treasury or otherwise
a payment, does not exclude those who pay no federal
taxes for income reasons, and is not determined by familiar tax factors. Section 5000A(b) is all those things.
Crucially, after assessing § 5000A(b) against the
factors above, the Supreme Court concluded § 5000A
“yields the essential feature of any tax: It produces at
least some revenue for the Government.” Id. at 564
(citing United States v. Kahriger, 345 U.S. 22, 28 n. 4
(1953)).
The Supreme Court thus identified three basic criteria to conclude § 5000A could be viewed as an exercise of the Tax Power: (1) a payment is paid into the

192a
Treasury, (2) the payment amount is determined with
reference to income and other familiar factors, and
(3) the payment produces revenue for the Government. Id. at 563–64. In their brief, the Intervenor Defendants urge the “shared responsibility payment
continues to maintain these tax-like characteristics.”
Intervenor Defs.’ Resp. 18, ECF No. 91. But at the
hearing, they seemed to concede § 5000A will no longer
meet the first and second criteria starting January 1,
2019. See Hr’g Tr. at 70:10–16; 70:23–25. They instead
focus on the third factor, contending the “production of
revenue at all times is not a constitutional requirement for a lawful tax.” Intervenor Defs.’ Resp. 18, ECF
No. 91.
But the Intervenor Defendants downplay the Supreme Court’s most crucial conclusion: § 5000A
“yield[ed] the essential feature of any tax: It produce[d]
at least some revenue for the Government.” NFIB, 567
U.S. at 564 (emphasis added); accord Rosenberger v.
Rector and Visitors of Univ. of Virginia, 515 U.S. 819,
841 (1995) (“A tax, in the general understanding of the
term, and as used in the Constitution, signifies an exaction for the support of the Government.” (citation
omitted)). Not indicative, not common—essential. 13
Thus, the bottom line is the Individual Mandate was
buoyed by Congress’s Tax Power only because it “trigger[ed]” a provision that “produce[d] at least some revenue for the Government.” And it was high tide when
the Supreme Court decided NFIB because the sharedSee Essential, WEBSTER’S THIRD NEW INTERNATIONAL DICTION777 (1986) (defining as “of or relating to an essence”; “having
or realizing in itself the essence of its kind”; and “necessary, indispensable”); see also BLACK’S LAW DICTIONARY (10th ed. 2014)
(“1. Of, relating to, or involving the essence or intrinsic nature of
something. 2. Of the utmost importance; basic and necessary.”).
13

ARY

193a
responsibility payment was still a payment. But with
the TCJA, the tide has gone out. Section 5000A no
longer contains an exaction.
The Intervenor Defendants argue that “[e]ven if
Plaintiffs were correct that a constitutionally-valid tax
must produce revenue at all times”—a condition the
Supreme Court called essential—“it will be years before the shared responsibility payment ceases to do
so.” Intervenor Defs.’ Resp. 21, ECF No. 91. They contend that, due to the frequency of late payments and
deferrals, the government will continue to receive revenue from 2018 shared-responsibility payments “until
2020 or beyond.” Id.
Intervenor Defendants cite no authority for the
proposition that the relevant timeframe to analyze tax
revenue is the tax year in which it is remunerated.
Plaintiffs reply that “the revenue Intervenor-Defendants identify is attributable to tax year 2018.” Pls.’ Reply 8 n.9, ECF No. 175.
It is a well-accepted practice that tax revenue is attributable to the tax year in which it is assessed, not
the one in which it is paid. See, e.g., NFIB, 567 U.S. at
563 (“the payment is expected to raise about $4 billion
per year by 2017”) (emphasis added); CONGRESSIONAL
BUDGET OFFICE, ANALYSIS OF MAJOR HEALTH CARE
LEGISLATION ENACTED IN MARCH 2010, at 14 (Mar. 30,
2011) (analyzing by fiscal year estimated budgetary effects of ACA tax credits and revenue from excise
taxes). When individuals file tax returns in April 2019,
for example, the taxes they pay and the returns they
receive will affect the government’s 2018 tax-year revenue. The same holds true even if individuals receive
deferrals or make late payments in the months and
years thereafter. And at any rate, because the TCJA

194a
eliminated the shared-responsibility payment “beginning after December 31, 2018,” that provision no
longer produces revenue for the Government—present
tense—and any future monies that come in will be because the provision once produced revenue for the
Government—past tense. So, it is true the shared-responsibility payment once had the essential feature of
any tax. But it no longer does.
Finally, the Intervenor Defendants point to three
examples of Congress delaying or suspending taxes
within the ACA: the Cadillac Tax, the Medical Device
Tax, and the Health Insurance Providers Fee. Intervenor Defs.’ Resp. 18– 20. Drawing on these examples,
the Intervenor Defenders argue “[t]he shared responsibility payment has not been rendered unconstitutional merely because it will be $0 in 2019.” Id. at 18.
As an initial matter, suspending or delaying a tax
is not equivalent to eliminating it. And the TCJA does
not suspend collection of the shared-responsibility
payment, it eliminates it. See TCJA § 11081 (“Elimination of shared responsibility payment for individuals failing to maintain minimum essential coverage.”).
Put differently, until a change in law, there is no
shared-responsibility payment. True, Congress may
reinstate the payment in the future. But that would be
a change in law. The Court cannot rule on a hypothetical counterfactual. It may only “say what the law is,”
not what it someday could be. Marbury, 5 U.S. at 177.
But at a more fundamental level, the Intervenor
Defendants’ argument demonstrates they misapprehend the Plaintiffs’ basic position. The Intervenor Defendants assert: “The shared responsibility payment
has not been rendered unconstitutional merely because it will be $0 in 2019.” Intervenor Defs.’ Resp. 18,
ECF No. 91 (emphasis added). The Plaintiffs do not

195a
argue that; they argue the Individual Mandate is unconstitutional. And as the Court has explained, the
text of the ACA and TCJA, as well as the Supreme
Court’s reasoning in NFIB, all hinge on an understanding that the Individual Mandate and the sharedresponsibility payment are two very different creatures. The saving construction in NFIB was available
only because § 5000A(a) triggered a tax. 14 And
§ 5000A(b) was a tax because it produced some revenue for the Government. Sozinsky v. United States,
300 U.S. 506, 513–14 (1937); United States v. Ross,
458 F.2d 1144, 1145 (5th Cir. 1972) (“The test of validity is whether on its face the tax operates as a revenue
generating measure and the attendant regulations are
in aid of a revenue purpose.”).
Under the law as it now stands, the Individual
Mandate no longer “triggers a tax” beginning in 2019.
So long as the shared-responsibility payment is zero,
the saving construction articulated in NFIB is inapplicable and the Individual Mandate cannot be upheld
under Congress’s Tax Power. See NFIB, 567 U.S. at
574 (“Congress’s authority under the Taxing power is

14 This distinction also explains why the Cadillac Tax, the Medical Device Tax, and the Health Insurance Providers Fee are all
inapposite. Even if, for example, Congress had eliminated the
payment under Medical Device Tax—which it did not—the analogy would not hold for the fact pattern before the Court. Instead,
to make the Medical Device Tax analogous, it would need to contain a provision requiring all applicable individuals to purchase
medical devices. And it would also need to contain a separate provision taxing any applicable individual who did not purchase
medical devices. Then, if Congress delayed or suspended the tax
under that scheme, the Medical Device Tax would be at least usefully analogous. But the Medical Device Tax does not tax inactivity and is therefore unhelpful here.

196a
limited to requiring an individual to pay money into
the Federal Treasury, no more.” (emphasis added)).
2.

Congress’s Interstate Commerce Power

Because the Individual Mandate can no longer be
read as an exercise of Congress’s Tax Power, the Court
takes up the Intervenor Defendants’ argument that
the mandate is now sustainable under the Interstate
Commerce Clause.
The Constitution grants Congress the power to
“regulate Commerce . . . among the several States.”
U.S. CONST. art. 1, § 8, cl. 3. Before NFIB, the Supreme
Court had never considered whether Congress’s power
to regulate interstate commerce allowed it to compel
citizens into commerce—i.e., to regulate inactivity.
567 U.S. at 647 (joint dissent) (identifying issue of first
impression). As outlined above, the Supreme Court
concluded it does not. It therefore held the Individual
Mandate could not be sustained under the Interstate
Commerce Clause. See id. at 572 (majority).
The Plaintiffs argue this issue is decided because
the Supreme Court already concluded in NFIB that
the Individual Mandate cannot be upheld under the
Interstate Commerce Clause. Pls.’ Br. 22, ECF No.
40.15 The Intervenor Defendants respond that the Individual Mandate “may now be sustained under the
15 The Federal Defendants did not separately brief the Interstate
Commerce Clause issue but agree with the Plaintiffs. See Fed.
Defs.’ Resp. 11, ECF No. 92 (“[O]nce the associated financial penalty is gone, the ‘tax’ saving construction will no longer be fairly
possible and thus the individual mandate will be unconstitutional. As a majority of the Supreme Court held in NFIB, ‘[t]he
Federal Government does not have the power to order people to
buy health insurance. Section 5000A would therefore be unconstitutional if read as a command.’” (citations omitted)).

197a
Commerce Clause” because “with a tax of zero dollars,
there is no compulsion.” Intervenor Defs.’ Resp. 18
n.17, ECF No. 91. They argue the constitutional problem identified in NFIB—Congress “compelling the
purchase of insurance”—is no longer a problem because a tax of zero dollars imposes no legal consequence on individuals who do not comply with the
Individual Mandate. Id. (emphasis in original); see
also Hr’g Tr. at 37:9–25, 66:14–68:7.
The Individual Mandate provides: “An applicable
individual shall . . . ensure that the individual . . . is
covered under minimum essential coverage . . . .” 26
U.S.C. § 5000A(a). The Intervenor Defendants argue
the provision “gives the individuals the same choice
they’ve always had—to either purchase insurance or
pay the tax.” Hr’g Tr. at 67:17–19. But the Intervenor
Defendants’ position is logically self-defeating and
contrary to the evidence in this case, the language of
the ACA, and Fifth Circuit and Supreme Court precedent.
a.

The Intervenor Defendants’ Position Is
Logically Inconsistent

At the threshold, the Intervenor Defendants hope
to have their cake and eat it too by arguing the Individual Mandate does absolutely nothing but regulates
interstate commerce. That is, they first say the Individual Mandate “does not compel anyone to purchase
insurance.” Hr’g Tr. at 37:12. Yet they ask the Court
to find the provision “regulate[s] Commerce . . . among
the several States.” U.S. CONST. art. 1, § 8, cl. 3. The
Intervenor Defendants’ theory, then, is that Congress
regulates interstate commerce when it regulates nothing at all. But to “regulate” is “to govern or direct according to rule” and to “bring under the control of law

198a
or constituted authority.” WEBSTER’S THIRD NEW INTERNATIONAL DICTIONARY 1913 (1986). Accepting Intervenor Defendants’ theory that the Individual
Mandate does nothing thus requires finding that it is
not an exercise of Congress’s Interstate Commerce
Power. Cf. Gibbons v. Ogden, 22 U.S. 1, 189–90 (1824)
(“Commerce . . . is regulated by prescribing rules . . . .”
(emphasis added)).
b.

The Intervenor Defendants’ Position
Contradicts the Evidence

Despite the Intervenor Defendants’ logical gymnastics, the undisputed evidence in this case suggests
the Individual Mandate fixes an obligation. The Individual Plaintiffs assert they feel compelled to comply
with the law. Pls.’ App. Supp. Prelim. Inj., Ex. A
(Nantz Decl.) ¶ 15, ECF No. 41 (“I value compliance
with my legal obligations . . . [t]he repeal of the associated health insurance tax penalty did not relieve me
of the requirement to purchase health insurance”);
Pls.’ App. Supp. Prelim. Inj., Ex. B (Hurley Decl.) ¶ 15,
ECF No. 41 (“I continue to maintain minimum essential health coverage because I am obligated to comply
with the [ACA’s] individual mandate”). This should
come as no surprise. “It is the attribute of law, of
course, that it binds; it states a rule that will be regarded as compulsory for all who come within its jurisdiction.” HADLEY ARKES, FIRST THINGS: AN INQUIRY
INTO THE FIRST PRINCIPLES OF MORALS AND JUSTICE 11
(1986). Law therefore has an enormous influence on
social norms and individual conduct in society. See
CONGRESSIONAL BUDGET OFFICE, KEY ISSUES IN ANALYZING MAJOR HEALTH INSURANCE PROPOSALS at 53
(Dec. 2008) (noting compliance “is generally observed,
even when there is little or no enforcement”). That is
the point.

199a
Undoubtedly, now that the shared-responsibility
payment has been eliminated, more individuals will
choose not to comply with the Individual Mandate. See
CONGRESSIONAL BUDGET OFFICE, REPEALING THE INDIVIDUAL HEALTH INSURANCE MANDATE: AN UPDATED
ESTIMATE at 1 (Nov. 8, 2017). And that is likely to undermine Congress’s intent in passing the ACA: Nearuniversal healthcare and reduced healthcare costs.
See id. But the fact that many individuals will no
longer feel bound by the Individual Mandate does not
change either that some individuals will feel so
bound—such as the Individual Plaintiffs here—or that
the Individual Mandate is still law.
c.

The Intervenor Defendants’ Position Is
Contrary to Text and Binding Precedent

And therein lies the rub. The Individual Mandate
is law. 26 U.S.C. § 5000A(a). To be precise, the
“[r]equirement to maintain minimum essential coverage” is still law. Id. § 5000A(a) (emphasis added). As
the Intervenor Defendants concede, Congress “deliberately left the rest of the ACA untouched”—including
the Individual Mandate. Hr’g Tr. at 40:12–13.
That the Individual Mandate persists, the Court
must conclude, is no mistake. “[I]t is no more the
court’s function to revise by subtraction than by addition.” READING LAW, supra note 9, at 174. The surplusage canon holds that, while “[s]ometimes lawyers will
seek to have a crucially important word ignored,”
courts must “avoid a reading that renders some words
altogether redundant” or “pointless.” Id. at 174, 176.
And this is just as true when parties “argue that an
entire provision should be ignored.” Id. at 175; see also
Yates v. United States, 135 S. Ct. 1074, 1085 (2015)
(“We resist a reading . . . that would render superfluous an entire provision . . . .”).

200a
To accept the Intervenor Defendants’ argument
that the Individual Mandate does nothing would be
doubly sinful under the canon against surplusage—it
would require ignoring both the mandatory words of
the provision and the function of the provision itself.
As to the words of the provision, it is entitled, “Requirement to maintain minimum essential coverage,”
and provides that “[a]n applicable individual shall . . .
ensure” that she or he is covered under an appropriate
plan. 26 U.S.C. § 5000A(a). These words must be interpreted according to their plain meaning. See United
States v. Yeatts, 639 F.2d 1186, 1189 (5th Cir. 1981)
(“A basic canon of statutory construction is that words
should be interpreted as taking their ordinary and
plain meaning.” (citing Perrin v. United States, 444
U.S. 37, 42 (1980))); READING LAW, supra note 9, at 69.
The words “requirement” and “shall” are both mandatory. Webster’s defines “requirement” as “something required,” “something wanted or needed,” and
“something called for or demanded.” WEBSTER’S THIRD
NEW INTERNATIONAL DICTIONARY 1929 (1986). And it
provides the following as the non-archaic meaning of
“shall”: “used to express a command or exhortation.”
Id. at 2085. But a plethora of binding caselaw already
establishes that there is nothing permissive about a
Congressionally enacted requirement that properly16
employs the verbiage “shall.” See, e.g., Fed. Express
There are some instances where drafters improperly use the
word “shall” as part of a negative command. For example, “Neither party shall claim reimbursement for its expenses from the
other party.” READING LAW, supra note 9, at 113. In such an instance, “shall” means something more akin to the traditionally
permissive “may.” But § 5000A(a) is not a negative command.
And “[w]hen drafters use shall . . . correctly”—as in § 5000A(a)—
“the traditional rule holds”—i.e., “that shall is mandatory.” Id. at
112.
16

201a
Corp. v. Holowecki, 552 U.S. 389, 399 (2008) (reasoning “‘shall’ imposes obligations on agencies to act”);
Lopez v. Davis, 531 U.S. 230, 241 (2001) (noting “shall”
indicates an intent to “impose discretionless obligations”); Crane v. Napolitano, No. 3:12-cv-03247-O,
2013 WL 1744422, at *8 (N.D. Tex. Apr. 23, 2013),
aff’d sub nom. Crane v. Johnson, 783 F.3d 244 (5th
Cir. 2015) (“Congress’s use of the word ‘shall’ . . . imposes a mandatory obligation”).
This is precisely why Chief Justice Roberts, in explaining his road to the NFIB majority, noted that the
Individual Mandate “reads more naturally as a command to buy insurance.” NFIB, 567 U.S. at 574 (Roberts, C.J.). Indeed, the Chief Justice reasoned that he
“would uphold it as a command if the Constitution allowed it.” Id. But because courts “have a duty to construe a statute to save it, if fairly possible,” id., and
because “§ 5000A [could] be interpreted as a tax” at
the time, id., the Chief Justice construed the Individual Mandate “as establishing a condition . . . that triggers a tax,” id. at 563. In other words, to the extent the
majority construed the Individual Mandate as something other than a standalone mandate, it did so only
because it was possible to construe the provision as
triggering a tax. That “fundamental construct,” as the
Intervenor Defendants call it, see Hr’g Tr. at 66:15,
was just that—a construct. And in light of this Court’s
finding on the Tax Power today, the construct no
longer holds.
But even under the NFIB construct, the Individual
Mandate created an obligation. 17 As the majority
Cf. READING LAW, supra note 9, at 63 (Presumption Against
Ineffectiveness).

17

202a
noted, “the individual mandate clearly aims to induce
the purchase of health insurance.”18 NFIB, 567 U.S. at
567 (majority). It continued, “Neither the Act nor any
other law attaches negative legal consequences to not
buying health insurance, beyond requiring a payment
to the IRS.” Id. at 568. And the Government agreed at
the time, “if someone chooses to pay rather than obtain
health insurance, they have fully complied with the
law.” Id.
The logic of the NFIB construct is that an individual can comply with the law after disobeying the Individual Mandate only by paying the sharedresponsibility payment. “The only thing they may not
lawfully do is not buy health insurance and not pay
the resulting tax.” Id. at 574 n.11. But this means the
Individual Mandate is no more optional than the tax.
If an individual can satisfy the law only by satisfying either Condition 1 (the Individual Mandate) or
Condition 2 (the tax), then both conditions are equally
optional and mandatory. To state it differently, under
the NFIB construct, failing Condition 1 no more triggers Condition 2 than failing Condition 2 triggers Condition 1. So, an individual who disobeys the Individual
Mandate can satisfy the law only by paying a tax, but
an individual who disregards the tax can satisfy the
law only by obeying the Individual Mandate. And only
in a world where the Individual Mandate were truly
18 That conduct-inducing characteristic is what led five Justices
to conclude the Individual Mandate was unsustainable under the
Interstate Commerce Clause. See NFIB, 567 U.S. at 552 (Roberts,
C.J.) (“The individual mandate, however, does not regulate existing commercial activity. It instead compels individuals to become
active in commerce . . . .”); id. at 649 (joint dissent) (“To be sure,
purchasing insurance is ‘Commerce’; but one does not regulate
commerce that does not exist by compelling its existence.”).

203a
non-binding could an individual disobey the Individual Mandate and forego the tax. But under the NFIB
majority’s construct, that is not the case. That is because logic demands that the Individual Mandate was
never—pardon the oxymoron—a non-binding law.
The remainder of the ACA proves that, too. As
noted above, § 5000A(e), did and still does exempt
some individuals from the eliminated shared-responsibility payment but not the Individual Mandate—“a
distinction that would make no sense if the mandate
were not a mandate.” Id. at 665 (joint dissent). What
is more, Congress exempted, and continues to exempt,
certain individuals from the Individual Mandate itself. See 26 U.S.C. § 5000A(d)(1). Why would Congress
exempt individuals from a mandate that is not mandatory? To ask is to answer.
At least five Justices agreed the Individual Mandate reads more naturally as a command to buy health
insurance than as a tax, 19 and those five Justices
agreed the mandate could not pass muster under the
Interstate Commerce Clause. Given that the Individual Mandate no longer “triggers a tax,” the Court finds
the Individual Mandate now serves as a standalone
command that continues to be unconstitutional under
the Interstate Commerce Clause.

19 Justices Ginsburg, Breyer, Kagan, and Sotomayor seemingly
took no position on this construction but instead reasoned that
the Individual Mandate was constitutional even it were construed
as a command. See, e.g., NFIB, 567 U.S. at 610 (Ginsburg, J.,
joined by Breyer, Kagan, and Sotomayor, JJ.) (“Requiring individuals to obtain insurance unquestionably regulates the interstate health-insurance and health-care markets, both of them in
existence well before the enactment of the ACA.”).

204a
* * *
The Court today finds the Individual Mandate is
no longer fairly readable as an exercise of Congress’s
Tax Power and continues to be unsustainable under
Congress’s Interstate Commerce Power. The Court
therefore finds the Individual Mandate, unmoored
from a tax, is unconstitutional and GRANTS Plaintiffs’ claim for declaratory relief as to Count I of the
Amended Complaint.
C.

Severability

Since the Individual Mandate is unconstitutional,
the next question is whether that provision is severable from the rest of the ACA. The Plaintiffs and the
Federal Defendants agree, based on the text of 42
U.S.C. § 18091 and all the opinions in NFIB, that the
guaranteed-issue and community-rating provisions of
the ACA are inseverable from the Individual Mandate.
See Pls.’ Br. 30–35, ECF No. 40; Fed. Defs.’ Resp. 13–
16, ECF No. 92; Pls.’ Reply 9, ECF No. 175. The Plaintiffs, however, argue the Individual Mandate is inseverable from the entire ACA, pointing again to § 18091
and NFIB. Pls.’ Br. 27–40, ECF No. 40. The Intervenor
Defendants first argue the Individual Mandate is severable from all provisions in the ACA. Intervenor
Defs.’ Resp. 28–33, ECF No. 91. But they also specifically urge that the guaranteed-issue and communityrating provisions are severable from the Individual
Mandate. Id. at 33–43.
Notably, the parties dispute which Congress’s intent controls—the 2010 Congress that passed the ACA
or the 2017 Congress that passed the TCJA. See Pls.’
Reply 14, ECF No. 175 (arguing the intent of the 2010
Congress controls); Intervenor Defs.’ Resp. 28–30,

205a
ECF No. 91 (contending the intent of the 2017 Congress controls); Hr’g Tr. at 43–44. This is a bit of a red
herring because, applying the relevant standards, the
Court finds both Congresses manifested the same intent: The Individual Mandate is inseverable from the
entire ACA.
Because the story begins with the 2010 Congress,
the Court begins there as well, analyzing both plain
text and Supreme Court precedent. But first, a word
about severability doctrine.
1.

Severability Doctrine

The doctrine of severability is rooted in the separation of powers. See Ayotte v. Planned Parenthood of N.
New Eng., 546 U.S. 320, 329–30 (2006); Regan v. Time,
Inc., 468 U.S. 641, 652–53 (1984) (plurality opinion).
The Supreme Court has therefore frequently severed
unconstitutional provisions from constitutional
ones.20 This practice reflects a judicial duty to “try to
limit the solution to the problem.” Ayotte, 546 U.S. at
328. In other words, “a court should refrain from invalidating more of the statute than is necessary.” Regan, 468 U.S. at 652.
Severability, however, is possible only where “an
act of Congress contains unobjectionable provisions
separable from those found to be unconstitutional.” Id.
See, e.g., Chadha, 462 U.S. at 931–35 (severing the legislativeveto provision from the remainder of the Immigration and Nationality Act); Alaska Airlines, 480 U.S. at 684–97 (holding the
legislative-veto provision severable from the remainder of the Airline Deregulation Act of 1978); New York v. United States, 505 U.S.
at 186–87 (holding the take provision severable from the remainder of the Low-Level Radioactive Waste Policy Amendments Act
of 1985); Buckley v. Valeo, 424 U.S. 1, 108–09 (1976) (holding
campaign expenditure limits severable from other provisions in
the Federal Election Campaign Act of 1971).

20

206a
(quoting El Paso & Ne. R. Co. v. Gutierrez, 215 U.S.
87, 96 (1909)) (emphasis added). Were a court to overplay deference to sever an inseverable statute, it
would embrace the very evil the doctrine is designed
to deter. See, e.g., R.R. Ret. Bd. v. Alton R.R. Co., 295
U.S. 330, 362 (1935) (“[W]e cannot rewrite a statute
and give it an effect altogether different from that
sought by the measure viewed as a whole.”). Put
bluntly, severing an inseverable statute “is legislative
work beyond the power and function of the court.” Hill
v. Wallace, 259 U.S. 44, 70 (1922). For that reason, the
Supreme Court has also readily held whole statutes
unconstitutional due to an inseverable part.21
In light of these background principles, the test for
severability is often stated as follows: “Unless it is evident that the Legislature would not have enacted
those provisions which are within its power, independently of that which is not, the invalid part may be
dropped if what is left is fully operative as a law.”22
See, e.g., Wallace, 259 U.S. at 70 (“Section 4 with its penalty to
secure compliance with the regulations of Boards of Trade is so
interwoven with those regulations that they cannot be separated.
None of them can stand.”); Alton, 295 U.S. at 362 (“[W]e are confirmed by the petitioners’ argument that, as to some of the features we hold unenforceable, it is ‘unthinkable’ and ‘impossible’
that the Congress would have created the compulsory pension
system without them. They so affect the dominant aim of the
whole statute as to carry it down with them.”). See also Minnesota
v. Mille Lacs Band of Chippewa Indians, 526 U.S. 172, 191 (1999)
(applying “the severability standard for statutes” to an Executive
Order and holding “it is clear that President Taylor intended the
1850 order to stand or fall as a whole”).

21

22 This statement of the rule represents something of a departure
from the Supreme Court’s reasoning in other decisions that there
is a “presumption . . . of an intent that, unless the act operates as
an entirety, it shall be wholly ineffective.” Alton, 295 U.S. at 362

207a
Alaska Airlines, 480 U.S. at 684. Even under this
statement of the rule, “[t]he inquiry into whether a
statute is severable is essentially an inquiry into legislative intent.” Mille Lacs, 526 U.S. at 191.23 It “requires judges to determine what Congress would have
intended had it known that part of its statute was unconstitutional.” Murphy, 138 S. Ct. at 1486–87
(Thomas, J., concurring). And consistent with the separation of powers, “enacted text is the best indicator of
intent.” Nixon v. United States, 506 U.S. 224, 232
(1993); cf. United States v. Maturino, 887 F.3d 716,
723 (5th Cir. 2018) (“Text is the alpha and the omega
of the interpretive process.”).
So, a court’s severability analysis begins with a
bread-and-butter exercise: parsing a provision’s text
and gleaning the ordinary meaning. See Murphy, 138
S. Ct. at 1486 (Thomas, J., concurring) (“Because
courts cannot take a blue pencil to statutes, the severability doctrine must be an exercise in statutory interpretation.”). If the text reflects Congress’s intent that
an unconstitutional provision not be severed—i.e., if
“it is evident” Congress “would not have enacted those
provisions which are within its power, independently
of that which is not,” Alaska Airlines, 480 U.S. at
684—the analysis ends. The provision is inseverable.
If the text does not reflect a clear legislative intent,
however, the court must ask whether the constitutional provisions, severed from the unconstitutional
(citing Wallace, 259 U.S. at 70). But even as stated in Alton, the
crux of the inquiry is Congressional “intent.”
See Murphy v. Nat’l Collegiate Athletic Ass’n,, 138 S. Ct. 1461,
1485–87 (2018) (Thomas, J. concurring) (discussing the problems
with applying the modern severability doctrine as a remedy rather than an exercise in statutory interpretation).

23

208a
one, would remain “fully operative as a law.” Free Enterprise, 561 U.S. at 509 (citing New York, 505 U.S. at
186; Alaska Airlines, 480 U.S. at 684). This is because
“Congress could not have intended a constitutionally
flawed provision to be severed from the remainder of
the statute if the balance of the legislation is incapable
of functioning independently.” Alaska Airlines, 480
U.S. at 684. Here too the touchstone is intent.
Applying these standards, the Court finds the 2010
Congress expressed through plain text an unambiguous intent that the Individual Mandate not be severed
from the ACA. Supreme Court precedent supports
that finding. And in passing the TCJA through the reconciliation process, the 2017 Congress further entrenched the intent manifested by the 2010 Congress.
2.

The Intent of the 2010 Congress

The Intervenor Defendants contend that, “even if
it were proper to consider the legislative intent of the
2010 Congress that passed the minimum coverage
provision in its original . . . form— and to graft that
intent onto a statutory amendment passed by a different Congress—that would still be of no assistance to
Plaintiffs.” Intervenor Defs.’ Resp. 30, ECF No. 91.
They first briefly point to the fact that several ACA
provisions went into effect before the Individual Mandate. Id. at 31–32. They then argue that, “[i]n light of
the ACA’s numerous stand-alone provisions addressing a vast array of diverse topics, it is not remotely
‘evident’ that Congress would want the extraordinary
disruption that would be caused by” a finding of inseverability. Id. at 32–33. Finally, the Intervenor Defendants devote ten pages to explaining why the
Individual Mandate is specifically severable from the
guaranteed-issue and community-rating provisions,

209a
arguing Congress intended to end discriminatory underwriting practices and that Congress’s findings are
irrelevant as they focused on an adverse-selection
problem that no longer exists. Id. at 33–43.
a.

The ACA’s Plain Text

“[T]he touchstone for any decision about remedy is
legislative intent, for a court cannot use its remedial
powers to circumvent the intent of the legislature.”
Ayotte, 546 U.S. at 330 (citation and quotation marks
omitted). And if it is “the well-established rule that the
plain language of the enacted text is the best indicator
of intent,” Nixon, 506 U.S. at 232, then the intent of
the 2010 Congress could not be clearer. Congress codified its intent plainly in 42 U.S.C. § 18091, “Requirement to maintain minimum essential coverage;
findings.” Those findings are not mere legislative history—they are enacted text that underwent the Constitution’s requirements of bicameralism and
presentment; agreed to by both houses of Congress
and signed into law by President Obama. See INS v.
Chadha, 462 U.S. 919, 951 (1983) (noting “the Framers were acutely conscious that the bicameral requirement and the Presentment Clauses would serve
essential constitutional functions” and “[i]t emerges
clearly that the prescription for legislative action . . .
represents the Framers’ decision that the legislative
power of the Federal government be exercised in accord with a single, finely wrought and exhaustively
considered, procedure”).
The findings state Congress intended to “significantly increas[e] healthcare coverage,” “lower health
insurance premiums,” ensure that “improved health
insurance products that are guaranteed issue,” and
ensure that such health insurance products “do not exclude coverage of pre-existing conditions.” 42 U.S.C.

210a
§ 18091(2)(I). And Congress intended to achieve those
goals in a very specific way. Congress knew that “[i]n
the absence of the requirement, 24 some individuals
would make an economic and financial decision to
forego health insurance coverage and attempt to selfinsure, which increases financial risks to households
and medical providers.” Id. § 18091(2)(A). So, Congress designed “[t]he requirement, together with the
other provisions of this Act” to “add millions of new
customers to the health insurance market.” Id.
§ 18091(2)(C) (emphasis added).
“The requirement,” Congress intended, would
“achieve[] near-universal coverage”—a major goal of
the ACA—“by building upon and strengthening the
private employer-based health insurance system.” Id.
§ 18091(2)(D). Congress believed this would work because “[i]n Massachusetts, a similar requirement
ha[d] strengthened private employer-based coverage.”
Id. Moreover, Congress stated “the requirement, together with the other provisions of this Act, will significantly reduce [the] economic cost” caused by
uninsured individuals. Id. § 18091(2)(E). Congress
also intended the Individual Mandate to achieve another stated goal: “By significantly reducing the number of the uninsured, the requirement, together with
the other provisions of this Act, will lower health insurance premiums.” Id. § 18091(2)(F). And “the requirement, together with the other provisions of this
Act,” Congress stated, “will improve financial security
for families.” Id. § 18091(2)(G).

24 In § 18091, the Individual Mandate is “referred to as the ‘requirement.’” Id. § 18091(1).

211a
If there were any lingering doubt Congress intended the Individual Mandate to be inseverable, Congress removed it: “The requirement is an essential part
of this larger regulation of economic activity, and the
absence of the requirement would undercut Federal
regulation of the health insurance market.” Id.
§ 18091(2)(H) (emphasis added). That is because, “if
there were no requirement, many individuals would
wait to purchase health insurance until they needed
care.” Id. §18091(2)(I). And that would undermine the
entire project. So, Congress intended “the requirement, together with the other provisions of this Act,”
to “minimize this adverse selection and broaden the
health insurance risk pool . . . which will lower health
insurance premiums.” Id. In other words, “[t]he requirement is essential to creating effective health insurance markets in which improved health insurance
products that are guaranteed issue and do not exclude
coverage of pre-existing conditions can be sold.” Id.
(emphasis added).
Congress closed by adding that it intended “the requirement, together with the other provisions,” to “significantly reduce administrative costs and lower
health insurance premiums.” Id. § 18091(2)(J). “The
requirement is essential,” Congress reiterated, “to creating effective health insurance markets that do not
require underwriting and eliminate its associated administrative costs.” Id. (emphasis added).
All told, Congress stated three separate times that
the Individual Mandate is essential to the ACA.25 That
is once, twice, three times and plainly. It also stated
See supra note 13 (defining “essential” as, among other imperatives, “the essence of its kind,” “indispensable,” and “[o]f the utmost importance; basic and necessary”) (citations omitted).

25

212a
the absence of the Individual Mandate would “undercut” its “regulation of the health insurance market.”
Thirteen different times, Congress explained how the
Individual Mandate stood as the keystone of the ACA.
And six times, Congress explained it was not just the
Individual Mandate, but the Individual Mandate “together with the other provisions” that allowed the
ACA to function as Congress intended.
As the Supreme Court has repeatedly explained,
“The best evidence of congressional intent . . . is the
statutory text that Congress enacted.”26 Marx v. Gen.
26 It is also instructive to consider what text Congress did not enact. In NFIB, the Supreme Court held that the unconstitutional
portions of the ACA’s Medicaid-expansion provisions could be
severed from the constitutional portions because Congress included a severability clause. See NFIB, 567 U.S. at 585–86 (Roberts, C.J., joined by Breyer and Kagan, JJ.); id. at 645 (Ginsburg,
J., joined by Sotomayor, J.). In severing the unconstitutional portions of the Medicaid-expansion provisions, the Supreme Court
was “follow[ing] Congress’s explicit textual instruction.” Id. at
586 (Roberts, C.J., joined by Breyer and Kagan, JJ.); accord id.
at 645 (Ginsburg, J., joined by Sotomayor, J.) (“I agree . . . that
the Medicaid Act’s severability clause determines the appropriate
remedy.” (emphasis added)). The Supreme Court’s Medicaid-severability analysis in NFIB thus supports this Court’s finding of
Individual Mandate inseverability in two ways. First, it confirms
the Court must foremost look to Congress’s “explicit textual instruction”—here, that the mandate is “essential” to the ACA. See
42 U.S.C. § 18091(2). Second, it confirms Congress knew exactly
how to signal its intent that an offending ACA provision be severed from non-offending provisions—i.e., through enacted text.
Cf. Gozlon-Peretz v. United States, 498 U.S. 395, 404 (1991)
(“[W]here Congress includes particular language in one section of
a statute but omits it in another section of the same Act, it is
generally presumed that Congress acts intentionally and purposely in the disparate inclusion or exclusion.” (quoting Russello
v. United States, 464 U.S. 16, 23 (1983))). Yet Congress sent up

213a
Revenue Corp., 568 U.S. 371, 392 n.4 (2013) (citing
West Virginia Univ. Hospitals, Inc. v. Casey, 499 U.S.
83, 98 (1991)).27 On the issue of severability, the text
of the ACA is unequivocal. Virtually every subsection
of 42 U.S.C.§ 18091 is teeming with Congress’s intent
that the Individual Mandate be inseverable—because
it is essential—from the entire ACA—because it must
work together with the other provisions.
On the unambiguous enacted text alone, the Court
finds the Individual Mandate is inseverable from the
Act to which it is essential.28
no such signals anywhere in the ACA with respect to the Individual Mandate. While not dispositive, the lack of a severability
clause covering the Individual Mandate is therefore not only consistent with Congress’s repeated statements that the Individual
Mandate is “essential” to the ACA but also probative of Congress’s intent on its own terms.
See also EEOC v. Hernando Bank, Inc., 724 F.2d 1188, 1190
(5th Cir. 1984) (noting severability requires “the court [to] inquire into whether Congress would have enacted the remainder
of the statute in the absence of the invalid provision” and reasoning “Congressional intent and purpose are best determined by an
analysis of the language of the statute in question”).

27

See Barnhart v. Sigmon Coal Co., 534 U.S. 438, 450 (2002) (reasoning statutory construction “ceases if the statutory language is
unambiguous and the statutory scheme is coherent and consistent” (cleaned up)); Connecticut Nat’l Bank v. Germain, 503
U.S. 249, 253–54 (1992) (“[I]n interpreting a statute a court
should always turn first to one, cardinal canon before all others.
We have stated time and again that courts must presume that a
legislature says in a statute what it means and means in a statute what it says there . . . When the words of a statute are unambiguous, then, this first canon is also the last: ‘judicial inquiry is
complete.’” (citing United States v. Ron Pair Enters., Inc., 489
U.S. 235, 241–42 (1989); Rubin v. United States, 449 U.S. 424,
430 (1981); United States v. Goldenberg, 168 U.S. 95, 102–03

28

214a
b.

The Supreme Court’s ACA Decisions

While the ACA’s plain text alone justifies finding
complete inseverability, this text-based conclusion is
further compelled by two separate Supreme Court decisions. All nine Justices to address the issue, for example, agreed the Individual Mandate is inseverable
from at least the pre-existing-condition provisions.29
In NFIB, Chief Justice Roberts explained “Congress
addressed the problem of those who cannot obtain insurance coverage because of preexisting conditions or
other health issues . . . through the [ACA’s] ‘guaranteed-issue’ and ‘community-rating’ provisions.” NFIB,
567 U.S. at 547–48 (Roberts, C.J.). But these “reforms

(1897); and Oneale v. Thornton, 6 Cranch 53, 68 (1810))).
The Federal Defendants here are consistent in taking the same
position the previous administration took during the NFIB litigation. See Br. for Resp. (Severability) at 45, NFIB, 567 U.S. 519
(No. 11-393) (“Congress’s findings establish that the guaranteedissue and community-rating provisions are inseverable from the
minimum coverage provision.”); id. at 11; see also Memorandum
from Att’y Gen. Jefferson B. Sessions III for Speaker Paul Ryan
(June 7, 2018) (on file with the Dep’t of Justice) (noting that, “[i]n
NFIB, the Department previously argued that if Section 5000A(a) is unconstitutional, it is severable from the ACA’s
other provisions, except” the guaranteed-issue and communityrating provisions). Also notable is that many of the Intervenor
Defendants appeared as amici in NFIB and expressly declined to
challenge the Government’s concession that the community-rating and guaranteed-issue provisions were inseverable from the
Individual Mandate. See Br. for California et al. as Amici Curiae
Supporting Respondents at 3 n.2, NFIB, 567 U.S. 519 (No. 11393) (“Respondents have conceded that the guaranteed issue and
community rating provisions that go into effect in 2014 should be
invalidated if the Court concludes the minimum coverage provision is unconstitutional. Amici States do not seek to challenge
this concession.”). But that was then, and this is now.
29

215a
sharply exacerbate [the] problem” of healthy individuals foregoing health insurance. Id. at 548. “The reforms also threaten to impose massive new costs on
insurers,” the Chief Justice continued. Id. “The individual mandate was Congress’s solution to these problems. By requiring that individuals purchase health
insurance, the mandate prevents cost shifting . . .
[and] allows insurers to subsidize the costs of covering
the unhealthy individuals the reforms require them to
accept.” Id. The Individual Mandate, the Chief Justice
thus explained, was the fulcrum on which the macrolevel trade-offs pivoted.
Justice Ginsburg, joined by Justices Breyer, Kagan, and Sotomayor, agreed. She wrote: “To make its
chosen approach work . . . Congress had to use some
new tools, including a requirement that most individuals obtain private health insurance coverage.” Id. at
596 (Ginsburg, J., joined by Breyer, Kagan, and Sotomayor, JJ.) (citing 26 U.S.C.§ 5000A) (emphasis
added). She elaborated: “To ensure that individuals
with medical histories have access to affordable insurance, Congress devised a three-part solution.” Id. at
597. Part one: guaranteed issue. Id. Part two: community rating. Id. “But these two provisions, Congress
comprehended, could not work effectively unless individuals were given a powerful incentive to obtain insurance.” Id. (emphasis added). Congress drew this
lesson from the “disastrous” results of seven different
states that experienced “skyrocketing insurance premium costs, reductions in individuals with coverage,
and reductions in insurance products and providers”
after “enact[ing] guaranteed-issue and communityrating laws without requiring universal acquisition of
insurance coverage.” Id. at 597–98 (citations and quotation marks omitted).

216a
Based on these lessons, “Congress comprehended
that guaranteed-issue and community-rating laws
alone will not work.” Id. at 598 (emphasis added). So,
taking a cue from Massachusetts, “Congress passed
the minimum coverage provision as a key component
of the ACA.” Id. at 599 (emphasis added). As did the
Chief Justice, then, Justices Ginsburg, Breyer, Kagan,
and Sotomayor all understood what Congress understood: Without the Individual Mandate, the guaranteed-issue and community-rating provisions “could
not work.”
Make that nine Justices. As the joint dissent explained, “Insurance companies bear new costs imposed by a collection of insurance regulations and
taxes, including ‘guaranteed issue’ and ‘community
rating’ requirements to give coverage regardless of the
insured’s pre-existing conditions.” Id. at 695 (joint dissent). But, keeping with the careful balance described
by the other Justices, “the insurers benefit from the
new, healthy purchasers who are forced by the Individual Mandate to buy the insurers’ product and from
the new low-income Medicaid recipients who will enroll in insurance companies’ Medicaid-funded managed care programs.” Id. at 695–96. Because the
Supreme Court held the ACA’s Medicaid Expansion
could not be compulsory, see id. at 575–85 (Roberts,
C.J.), the Court’s finding today that the Individual
Mandate is unconstitutional means both components
the joint dissenters found to be inseverable from the
pre-existing-conditions provisions have now fallen.
In King v. Burwell, the Supreme Court reaffirmed
many of the Justices’ severability conclusions from
NFIB. See 135 S. Ct. 2480, 2485–87 (2015). There, a
six-Justice majority recounted the history of several

217a
states attempting to expand health-insurance coverage without implementing a mandate—an experiment
that repeatedly “led to an economic ‘death spiral.’” Id.
at 2486. It then explained what all nine Justices in
NFIB expressed: the guaranteed-issue provision, the
community-rating provision, and the Individual Mandate “are closely intertwined.” Id. at 2487. And citing
directly to Congress’s findings for support,30 the Supreme Court stated unequivocally: “Congress found
that the guaranteed issue and community rating requirements would not work without the coverage requirement.” Id. (citing 42 U.S.C. § 18091(2)(I))
(emphasis added).
So, after King, the Government31 and all nine Justices had agreed that at least the guaranteed-issue
and community-rating provisions “could not work”
without the Individual Mandate. 32 And all of them
cited Congress’s findings in reaching that conclusion.

30 As noted above, the Intervenor Defendants argue Congress’s
ACA findings are no longer relevant to severability because they
addressed only how the ACA would be created, not how it would
work. See Intervenor Defs,’ Resp. 39–43, ECF No. 91. But the Supreme Court relied on those findings in 2015—after the ACA was
up and running—when deciding King. See 135 S. Ct. at 2487.

See Randy Barnett, Commandeering the People: Why the Individual Health Insurance Mandate Is Unconstitutional, 5 N.Y.U.
J.L. & LIBERTY 581, 614–21 (2010) (detailing the Government’s
position leading up to the NFIB litigation that the Individual
Mandate was constitutional under the Interstate Commerce
Clause because it was “essential” to “a broader regulatory
scheme”).
31

32 The Intervenor Defendants nearly agree. See Intervenor Defs,’
Resp. 37, ECF No. 91 (“To be sure, Congress intended that the
requirement to purchase health insurance, along with the com-

218a
But the reasoning in the above opinions also confirms the Individual Mandate is inseverable from the
entirety of the ACA. See, e.g., King, 135 S. Ct. at 2486
(noting the successful Massachusetts model used by
Congress relied not only on a mandate but instead
on “[t]he combination of these three reforms—insurance market regulations, a coverage mandate, and tax
credits” (emphasis added)). Notably, the joint dissent
in NFIB was the only block of Justices to fully consider
severability because it was the only block of Justices
to find the Individual Mandate unconstitutional—
which is now the controlling framework. And they explained why the Individual Mandate was inseverable
from the ACA as a whole. That explanation is consistent with the reasoning offered in the Chief Justice’s opinion and in Justice Ginsburg’s opinion.
The joint dissent first detailed how “[t]he whole design of the [ACA] is to balance the costs and benefits
affecting each set of regulated parties.” Id. at 694; accord id. at 548 (Roberts, C.J.) (noting “the mandate
prevents cost shifting”); id. at 593 (Ginsburg, J., joined
by Breyer, Kagan, and Sotomayor, JJ.) (noting Congress wanted to address “[t]hose with health insurance subsidiz[ing] the medical care of those without
it”). To that end, “individuals are required to obtain
health insurance”; insurers must “sell them insurance
regardless of . . . pre-existing conditions and . . . comply with a host of other regulations . . . [and] pay new
taxes”; “States are expected to expand Medicaid eligibility and to create regulated marketplaces”; “[s]ome
persons who cannot afford insurance are provided it
through the Medicaid Expansion, and others are aided
munity-rating and guaranteed-issue provisions, would work together harmoniously to increase the number of insured Americans and lower premiums.”).

219a
in their purchase of insurance through federal subsidies”; “[t]he Federal Government’s increased spending
is offset by new taxes and cuts in other federal expenditures”; and certain employers “must either provide
employees with adequate health benefits or pay a financial exaction.” Id. at 694–95 (joint dissent) (citations omitted). “In short,” the joint dissent explained,
“the Act attempts to achieve near-universal health insurance coverage by spreading its costs to individuals,
insurers, governments, hospitals, and employers—
while, at the same time, offsetting significant portions
of those costs with new benefits to each group.” Id. at
695; accord id. at 596 (Ginsburg, J., joined by Breyer,
Kagan, and Sotomayor, JJ.) (“A central aim of the ACA
is to reduce the number of uninsured U.S. residents . . . The minimum coverage provision advances
this objective.” (citing 42 U.S.C. §§ 18091(2)(C) and
(I))). Congress, in other words, “did not intend to impose the inevitable costs on any one industry or group
of individuals.” Id. at 694 (joint dissent); accord id. at
548 (Roberts, C.J.) (noting “the mandate forces into
the insurance risk pool more healthy individuals,
whose premiums on average will be higher than their
health care expenses” which “allows insurers to subsidize the costs of covering the unhealthy individuals
the reforms require them to accept”).
As the joint dissent concluded, “the Act’s major provisions are interdependent.” Id. at 696 (joint dissent).
Indeed, the ACA “refers to these interdependencies as
‘shared responsibility.’” Id. (citations omitted). And
the joint dissent cited Congress’s findings to buttress
its conclusion on the Individual Mandate’s complete
inseverability, noting that “[i]n at least six places, the
Act describes the Individual Mandate as working ‘together with the other provisions of this Act.’” Id. (citing 42 U.S.C. §§ 18091(2)(C), (E), (F), (G), (I), and (J)).

220a
The joint dissent further noted that the ACA “calls the
Individual Mandate ‘an essential part’ of federal regulation of health insurance and warns that ‘the absence
of the requirement would undercut Federal regulation
of the health insurance market.’” Id. (citing 42 U.S.C.
§ 18091(2)(H)).
“In sum, Congress passed the minimum coverage
provision as a key component of the ACA.” Id. at 599
(Ginsburg, J., joined by Breyer, Kagan, and Sotomayor, JJ.) (emphasis added); accord id. at 539 (majority) (“This case concerns constitutional challenges
to two key provisions, commonly referred to as the individual mandate and the Medicaid expansion.” (emphasis added)). Not a key component of the
guaranteed-issue and community-rating provisions,
but of the ACA. The Supreme Court’s only reasoning
on the topic thus supports what the text says: The Individual Mandate is essential to the ACA.
c.

The Individual Mandate is Inseverable
from the Entire ACA

The ACA’s text and the Supreme Court’s decisions
in NFIB and King thus make clear the Individual
Mandate is inseverable from the ACA. As Justice Ginsburg explained, “Congress could have taken
over the health-insurance market by establishing a
tax-and-spend federal program like Social Security.”
Id. at 595 (Ginsburg, J., joined by Breyer, Kagan, and
Sotomayor, JJ.). But it did not. “Instead of going this
route, Congress enacted the ACA . . . To make its chosen approach work, however, Congress had to use . . .
a requirement that most individuals obtain private
health insurance coverage.” Id. (citing 26 U.S.C.
§ 5000A). That requirement—the Individual Mandate—was essential to the ACA’s architecture. Congress intended it to place the Act’s myriad parts in

221a
perfect tension. Without it, Congress and the Supreme
Court have stated, that architectural design fails.
“Without a mandate, premiums would skyrocket. The
guaranteed issue and community rating provisions, in
the absence of the individual mandate, would create
an unsustainable death spiral of costs, thus crippling
the entire law.” BLACKMAN, supra note 3, at 147; accord NFIB, 567 U.S. at 597 (Ginsburg, J., joined by
Breyer, Kagan, and Sotomayor, JJ.) (noting the mandate was essential to staving off “skyrocketing insurance premium costs”). Congress simply never intended
failure.
Yet the parties focus on particular provisions. It is
like watching a slow game of Jenga, each party poking
at a different provision to see if the ACA falls. Meanwhile, Congress was explicit: The Individual Mandate
is essential to the ACA, and that essentiality requires
the mandate to work together with the Act’s other provisions. See 42 U.S.C. § 18091. If the “other provisions”
were severed and preserved, they would no longer be
working together with the mandate and therefore no
longer working as Congress intended. On that basis
alone, the Court must find the Individual Mandate inseverable from the ACA. To find otherwise would be to
introduce an entirely new regulatory scheme never intended by Congress or signed by the President. And
the Court “cannot rewrite a statute and give it an effect altogether different from that sought by the measure viewed as a whole.” Murphy, 138 S. Ct. at 1482
(quoting Alton, 295 U.S. at 362).
Even if the Court preferred to ignore the clear text
of § 18091 and parse the ACA’s provisions one by one,
the text- and precedent-based conclusion would only
be reinforced: Upholding the ACA in the absence of the
Individual Mandate would change the “effect” of the

222a
ACA “as a whole.” See Alton, 295 U.S. at 362. For example, the Individual Mandate reduces the financial
risk forced upon insurance companies and their customers by the ACA’s major regulations and taxes. See
42 U.S.C. §§ 18091(2)(C), (I). If the regulations and
taxes were severed from the Individual Mandate, insurance companies would face billions of dollars in
ACA-imposed regulatory and tax costs without the
benefit of an expanded risk pool and customer base—
a choice no Congress made and one contrary to the
text. See NFIB, 567 U.S. at 698 (joint dissent); 42
U.S.C. § 18091(2)(C) and (I). Similarly, the ACA “reduce[d] payments by the Federal Government to hospitals by more than $200 billion over 10 years.” NFIB,
567 U.S. at 699 (joint dissent). Without the Individual
Mandate (or forced Medicaid expansion), hospitals
would encounter massive losses due to providing uncompensated care. See BLACKMAN, supra note 3, at 2–
4 (discussing the free-rider and cost-shifting problems
in healthcare). This would, as Plaintiffs argue, “distort
the ACA’s design of ‘shared responsibility.’” Pls.’
Br. 36, ECF No. 40 (citing NFIB, 567 U.S. at 699 (joint
dissent)).
The story is the same with respect to the ACA’s
other major provisions, too. The ACA allocates billions
of dollars in subsidies to help individuals purchase a
government-designed health-insurance product on exchanges established by the States (or the federal government). See, e.g., 26 U.S.C. § 36B; 42 U.S.C. § 18071.
But if the Individual Mandate falls, and especially if
the pre-existing-condition provisions fall, upholding
the subsidies and exchanges would transform the ACA
into a law that subsidizes the kinds of discriminatory
products Congress sought to abolish at, presumably,
the re-inflated prices it sought to suppress. Cf. Williams v. Standard Oil Co. of Louisiana, 278 U.S. 235,

223a
244 (1929), overruled in part on other grounds by Olsen v. Nebraska ex rel. W. Reference & Bond Ass’n, 313
U.S. 236 (1941) (“The taxes imposed by section 10 are
solely for the purpose of defraying the expenses of the
division of motors and motor fuels, and since the functions of that division practically come to an end with
the failure of the price-fixing features of the law, it is
unreasonable to suppose that the Legislature would be
willing to authorize the collection of a fund for a use
which no longer exists.”).
Nor did Congress ever contemplate, never mind intend, a duty on employers, see 26 U.S.C. § 4980H, to
cover the “skyrocketing insurance premium costs” of
their employees that would inevitably result from removing “a key component of the ACA.” (Ginsburg, J.,
joined by Breyer, Kagan, and Sotomayor, JJ.). And the
Medicaid-expansion provisions were designed to serve
and assist fulfillment of the Individual Mandate and
offset reduced hospital reimbursements by aiding
“low-income individuals who are simply not able to obtain insurance.” Id. at 685 (joint dissent).
The result is no different with respect to the ACA’s
minor provisions. For example, the Intervenor Defendants assert that, “[i]n addition to protecting consumers with preexisting medical conditions, Congress also
enacted the guaranteed-issue and community-rating
provisions to reduce administrative costs and lower
premiums.” Intervenor Defs.’ Resp. 35, ECF No. 91;
see also id. at 34 (“Congress independently sought to
end discriminatory underwriting practices and to
lower administrative costs.”). But Congress stated explicitly that the Individual Mandate “is essential to
creating effective health insurance markets that do
not require underwriting and eliminate its associated

224a
administrative costs.” 42 U.S.C. § 18091(2)(J) (emphasis added). At any rate, to the extent most of the minor
provisions “are mere adjuncts of the” now-unconstitutional Individual Mandate and nonmandatory Medicaid expansion, “or mere aids to their effective
execution,” if the Individual Mandate “be stricken
down as invalid” then “the existence of the [minor provisions] becomes without object.” Williams, 278 U.S.
at 243.
Perhaps it is impossible to know which minor provisions Congress would have passed absent the Individual Mandate. But the level of legislative guesswork
entailed in reconstructing the ACA’s innumerable
trade-offs without the one feature Congress called “essential” is plainly beyond the judicial power. See Alton,
295 U.S. at 362; Wallace, 259 U.S. at 70. And there is
every reason to believe Congress would not have enacted the ACA absent the Individual Mandate—given
the Act’s text as interpreted by the Supreme Court—
but “no reason to believe that Congress would have enacted [the minor provisions] independently.” NFIB,
567 U.S. at 705 (joint dissent).
In sum, the Individual Mandate “is so interwoven
with [the ACA’s] regulations that they cannot be separated. None of them can stand.” Wallace, 259 U.S. at
70.
* **
Neither the ACA’s text nor Supreme Court precedent leave any doubt. The 2010 Congress never intended the ACA “to impose massive new costs on
insurers” while allowing widespread “cost shifting.”
Id. at 548 (Roberts, C.J.). It never intended the ACA
to go on without the signature provision that everyone
knew would “make its chosen approach work”—the

225a
signature provision Congress “had to use.” Id. at 596
(Ginsburg, J., joined by Breyer, Kagan, and Sotomayor, JJ.). It never agreed to a law that would lead
to “disastrous” results like “skyrocketing insurance
premium costs, reductions in individuals with coverage, and reductions in insurance products and providers.” Id. at 597–98 (citations and quotation marks
omitted). And Congress never intended to excise “a
key component of the ACA.” Id. at 599.
Historical context confirms Congress would not
have enacted the ACA absent the constitutional infirmities.33 See Free Enterprise, 561 U.S. at 509 (considering “the statute’s text” and “historical context”).
Every state’s attempt to do so failed miserably. See
King, 135 S. Ct. at 2485–86. To leave the ACA in place
without the Individual Mandate—or, even more drastically, to leave it in place without either the Individual Mandate or the provisions covering pre-existing
conditions as the Federal Defendants suggest—would
thus be wildly inconsistent “with Congress’ basic objectives in enacting the statute.” Booker, 543 U.S. at
259 (citing Regan, 468 U.S. at 653).
This tells the Court all it needs to know. Based on
unambiguous text, Supreme Court guidance, and historical context, the Court finds “it is evident that the
Legislature would not have enacted” the ACA “independently of” the Individual Mandate. Alaska Airlines, 480 U.S. at 684. That is to say, Congress “would
not have enacted those provisions which are within its
power, independently of [those] which [are] not.” Murphy, 138 S. Ct. at 1482 (quoting Alaska Airlines, 480
See, id. (“In coupling the minimum coverage provision with
guaranteed-issue and community-rating prescriptions, Congress
followed Massachusetts’ lead.”).

33

226a
U.S. at 684). “Though this inquiry can sometimes be
elusive, the answer here seems clear.” Free Enterprise,
561 U.S. at 509 (cleaned up). Congress intended the
Individual Mandate to serve as the keystone, the
linchpin of the ACA. That is a conclusion the Court can
reach without marching through every nook and
cranny of the ACA’s 900-plus pages because Congress
plainly told the public when it wrote the ACA that
“[t]he minimum coverage provision is . . . an ‘essential
par[t] of a larger regulation of economic activity’” and
“without the provision, ‘the regulatory scheme [w]ould
be undercut.’” NFIB, 567 U.S. at 619 (Ginsburg, J.,
joined by Breyer, Kagan, and Sotomayor, JJ.) (quoting
but not citing Congress’s findings in 42 U.S.C.
§ 18091).
In the face of overwhelming textual and Supreme
Court clarity, the Court finds “it is ‘unthinkable’ and
‘impossible’ that the Congress would have created the”
ACA’s delicately balanced regulatory scheme without
the Individual Mandate. Alton, 295 U.S. at 362. The
Individual Mandate “so affect[s] the dominant aim of
the whole statute as to carry it down with” it. Id. To
find otherwise would “rewrite [the ACA] and give it an
effect altogether different from that sought by the
measure viewed as a whole.” Alton, 295 U.S. at 362.
Employing such a strained view of severance would be
tantamount to “legislative work beyond the power and
function of the court.” Wallace, 259 U.S. at 70.
3.

The Intent of the 2017 Congress

Looking for any severability-related intent in the
2017 Congress is a fool’s errand because the 2017
“Congress did not repeal any part of the ACA, including the shared responsibility payment. In fact, it could
not do so through the budget reconciliation procedures

227a
that it used.” Hr’g Tr. at 36:7–10 (Intervenor Defendants); accord id. at 98:1–3 (Federal Defendants) (“The
only thing that we know for sure about Congress’ intent in 2017 . . . is that Congress wanted to pass a tax
cut.”). So, asking what the 2017 Congress intended
with respect to the ACA qua the ACA is unhelpful.
There is no answer.
But suppose it is true the intent of the TCJA-enacting Congress of 2017 controls severability rather
than the intent of the ACA-enacting Congress of 2010.
The Intervenor Defendants argue the Court should infer that, by eliminating the shared-responsibility payment while leaving the rest of the ACA intact, the
2017 Congress intended to preserve the balance of the
ACA. Intervenor Defs.’ Resp. 28–30, ECF No. 91; Hr’g
Tr. at 42:10–11 (“The 2017 Congress that amended
§ 5000A(c) deliberately left the rest of the ACA intact . . . .”).
But consider what Congress did not do in 2017—or
ever. First and foremost, it did not repeal the Individual Mandate. As the Court described in great detail,
see supra Part IV.B.1.a, the shared-responsibility payment is not the Individual Mandate. That matters.
The Individual Mandate, not the shared-responsibility
payment, is “essential” to the ACA. See 42 U.S.C.
§ 18091. And the 2017 Congress did not repeal it. Accord Hr’g Tr. at 42:10–11 (Intervenor Defendants)
(“The 2017 Congress that amended § 5000A(c) deliberately left the rest of the ACA intact . . . .”). So, at best,
searching the 2017 Congress’s legislation for severability-related intent would create an inference that the
2017 Congress, like the 2010 Congress, intended to
preserve the Individual Mandate because the 2017
Congress, like the 2010 Congress, knew that provision

228a
is essential to the ACA. Intervenor Defendants’ argument that the 2017 Congress manifested an intent of
severability is therefore unavailing. Indeed, one would
have to take the incorrect view that the shared-responsibility payment is the Individual Mandate to accept the argument that the 2017 Congress, by
eliminating the payment, intended to sever the Individual Mandate.
Secondly, the 2017 Congress did not repeal 42
U.S.C. § 18091, which every Supreme Court Justice to
review the ACA cited and which definitively establishes Congress’s intent that the Individual Mandate
be “an essential part of” its “regulation of the health
insurance market.” 42 U.S.C. § 18091(2)(H); see generally supra Part IV.C.1.a. Finally, given the 2017 Congress repealed neither the Individual Mandate nor
§ 18091, the 2017 Congress did nothing to repudiate
or otherwise supersede the Supreme Court’s NFIB
and King opinions detailing the Individual Mandate’s
essentiality to the ACA.
The Intervenor Defendants thus ask the Court to
infer a severability-related intent from a Congress
that did not and could not amend the ACA and that
therefore did not and could not repeal the Individual
Mandate or the enacted text stating the mandate is
“essential” to the whole scheme when working “together with the other provisions.” They then ask the
Court “to graft that intent” onto the Congress that did
pass the ACA, that did employ the Individual Mandate as the keystone, and that did memorialize its intent through enacted text stating the Individual
Mandate is essential.
The Court finds the 2017 Congress had no intent
with respect to the Individual Mandate’s severability.
But even if it did, the Court would find that “here we

229a
know exactly what Congress intended based on what
Congress actually did.” Hr’g Tr. at 42:8–10 (Intervenor
Defendants). If the 2017 Congress had any relevant
intent, it was to preserve § 18091 and to preserve the
Individual Mandate, which the 2017 Congress must
have agreed was essential to the ACA.
4.

Severability Conclusion34

34 The Intervenor Defendants also argue the Court should forego
a traditional severability analysis and instead remedy the harm
to Plaintiffs by striking TCJA § 11081. Intervenor Defs.’ Resp.
22–24, ECF No. 91. For this, the Intervenor Defendants rely on
Frost v. Corporation Commission of Oklahoma, a case in which
the Supreme Court held that “when a valid statute is amended
and the amendment is unconstitutional, the amendment ‘is a nullity and, therefore, powerless to work any change in the existing
statute . . . .’” 278 U.S. 515, 525–27 (1928) (citation omitted) (emphasis added). Frost is inapposite. There, the Appellant challenged the amendment, not the original statute, on equalprotection grounds and won. Id. at 517, 523–24. The Supreme
Court held the amendment to be “a nullity,” not because it rendered the original statute unconstitutional but because it was unconstitutional itself. Id. at 526 (reasoning that because “the
amendment is void for unconstitutionality, it cannot be given” “its
practical effect [which] would be to repeal by implication the requirement of the existing statute in respect of public necessity”
(emphasis added)). The original statute therefore was permitted
to “stand as the only valid expression of legislative intent.” Id. at
527. But here, the Plaintiffs challenge the original statute, not
the TCJA. Nor would it make sense for them to challenge the
TCJA—Congress has plenary power to lay and repeal taxes, as
the Intervenor Defendants argue. See, e.g., Intervener Defs.’
Resp. 19, ECF No. 91 (“In light of the broad taxing power afforded
by the Constitution, it is not unusual for Congress to enact taxes
with delayed effective dates . . . .”); accord Pls.’ Reply 13–14, ECF
No. 175 (citing Brushaber v. Union Pac. R.R. Co., 240 U.S. 1, 12
(1916)); Hr’g Tr. at 72:23–24. Plus, the TCJA repeals nothing “by
implication.” And at any rate, Frost is not a license for courts to

230a
In some ways, the question before the Court involves the intent of both the 2010 and 2017 Congresses. The former enacted the ACA. The latter
sawed off the last leg it stood on. But however one
slices it, the following is clear: The 2010 Congress memorialized that it knew the Individual Mandate was
the ACA keystone, see 42 U.S.C. § 18091; the Supreme
Court stated repeatedly that it knew Congress knew
that, see, e.g., NFIB, 567 U.S. at 547 (Roberts, C.J.)
(citing 42 U.S.C. § 18091(2)(F)); King, 135 S. Ct. at
2487 (citing 42 U.S.C. § 18091(2)(I)); and knowing the
Supreme Court knew what the 2010 Congress had
known, the 2017 Congress did not repeal the Individual Mandate and did not repeal § 18091.
“The principle of separation of powers was not
simply an abstract generalization in the minds of the
Framers: it was woven into the documents that they
drafted in Philadelphia in the summer of 1787.”
Chadha, 462 U.S. at 946 (quoting Buckley, 424 U.S. at
124). For that reason, the Court respects Congress’s
reach out and hold unchallenged constitutional acts unconstitutional as a remedial safety valve. See Josh Blackman, Undone:
the New Constitutional Challenge to Obamacare, 23 TEX. REV. L.
& POL. (forthcoming 2018) (manuscript at 35–36) (“Frost’s bite is
not available in Texas v. United States for a simple reason. Because of how Texas structured its challenge, the district court is
presented with a narrower menu of options with respect to severability. No one—not the Plaintiffs, not the Intervenors—has
challenged the constitutionality of the TCJA. Federal courts lack
a roving license to flip through the U.S. Code with a red pencil to
void one statute in order to save another. Invalidating the 2017
tax cut is simply not an option in the Texas litigation because it
has not been challenged.” (citations omitted)). To the extent Frost
is relevant here, it stands only for the proposition that a court
should hold unconstitutional acts invalid and constitutional ones
valid. The unconstitutional act in this case is the Individual Mandate, not the TCJA.

231a
plain language. And here, “[t]he language is plain.
There is no room for construction, unless it be as to the
effect of the Constitution.” In re Trade-Mark Cases,
100 U.S. 82, 99 (1879). “To limit this statute in the
manner now asked for,” therefore “would be to make a
new law, not to enforce an old one. This is no part of
[the Court’s] duty.” Id.
The Court finds the Individual Mandate “is essential to” and inseverable from “the other provisions of”
the ACA.
V. CONCLUSION
For the reasons stated above, the Court grants
Plaintiffs partial summary judgment and declares the
Individual Mandate, 26 U.S.C. § 5000A(a), UNCONSTITUTIONAL. Further, the Court declares the remaining provisions of the ACA, Pub. L. 111-148, are
INSEVERABLE and therefore INVALID. The Court
GRANTS Plaintiffs’ claim for declaratory relief in
Count I of the Amended Complaint.
SO ORDERED on this 14th day of December,
2018.
/s/ Reed O’Connor
Reed O’Connor
UNITED STATES DISTRICT JUDGE

232a
APPENDIX F
1. U.S. Const. art. I § 8, cl. 1 provides:
The Congress shall have Power To lay and collect
Taxes, Duties, Imposts and Excises, to pay the Debts
and provide for the common Defence and general Welfare of the United States; but all Duties, Imposts and
Excises shall be uniform throughout the United
States;
2. U.S. Const. art. I § 8, cl. 3 provides:
The Congress shall have Power . . . To regulate Commerce with foreign Nations, and among the several
States, and with the Indian Tribes;
3. 26 U.S.C. § 5000A provides:
(a) Requirement to maintain minimum essential coverage.—An applicable individual shall for
each month beginning after 2013 ensure that the individual, and any dependent of the individual who is an
applicable individual, is covered under minimum essential coverage for such month.
(b) Shared responsibility payment.—
(1) In general.—If a taxpayer who is an applicable individual, or an applicable individual for whom
the taxpayer is liable under paragraph (3), fails to
meet the requirement of subsection (a) for 1 or more
months, then, except as provided in subsection (e),
there is hereby imposed on the taxpayer a penalty
with respect to such failures in the amount determined under subsection (c).
(2) Inclusion with return.—Any penalty imposed by this section with respect to any month shall

233a
be included with a taxpayer’s return under chapter 1
for the taxable year which includes such month.
(3) Payment of penalty.--If an individual with
respect to whom a penalty is imposed by this section
for any month–
(A) is a dependent (as defined in section 152)
of another taxpayer for the other taxpayer's taxable
year including such month, such other taxpayer shall
be liable for such penalty, or
(B) files a joint return for the taxable year including such month, such individual and the spouse of
such individual shall be jointly liable for such penalty.
(c) Amount of penalty.—
(1) In general.—The amount of the penalty imposed by this section on any taxpayer for any taxable
year with respect to failures described in subsection
(b)(1) shall be equal to the lesser of—
(A) the sum of the monthly penalty amounts
determined under paragraph (2) for months in the taxable year during which 1 or more such failures occurred, or
(B) an amount equal to the national average
premium for qualified health plans which have a
bronze level of coverage, provide coverage for the applicable family size involved, and are offered through
Exchanges for plan years beginning in the calendar
year with or within which the taxable year ends.
(2) Monthly penalty amounts.—For purposes
of paragraph (1)(A), the monthly penalty amount with
respect to any taxpayer for any month during which
any failure described in subsection (b)(1) occurred is
an amount equal to 1 /12 of the greater of the following amounts:

234a
(A) Flat dollar amount.—An amount equal
to the lesser of—
(i)
the sum of the applicable dollar
amounts for all individuals with respect to whom such
failure occurred during such month, or
(ii) 300 percent of the applicable dollar amount (determined without regard to paragraph
(3)(C)) for the calendar year with or within which the
taxable year ends.
(B) Percentage of income.—An amount
equal to the following percentage of the excess of the
taxpayer’s household income for the taxable year over
the amount of gross income specified in section
6012(a)(1) with respect to the taxpayer for the taxable
year:
(i)
ginning in 2014.

1.0 percent for taxable years be-

(ii)
ginning in 2015.

2.0 percent for taxable years be-

(iii) Zero percent for taxable years beginning after 2015.
(3) Applicable dollar amount.—For purposes
of paragraph (1)—
(A) In general.—Except as provided in subparagraphs (B) and (C), the applicable dollar amount
is $0.
(B) Phase in.—The applicable
amount is $95 for 2014 and $325 for 2015.

dollar

(C) Special rule for individuals under
age 18.—If an applicable individual has not attained
the age of 18 as of the beginning of a month, the applicable dollar amount with respect to such individual for

235a
the month shall be equal to one-half of the applicable
dollar amount for the calendar year in which the
month occurs.
[(D) Repealed. Pub.L. 115-97, Title I,
§ 11081(a)(2)(B), Dec. 22, 2017, 131 Stat. 2092]
(4) Terms relating to income and families.—
For purposes of this section—
(A) Family size.—The family size involved
with respect to any taxpayer shall be equal to the
number of individuals for whom the taxpayer is allowed a deduction under section 151 (relating to allowance of deduction for personal exemptions) for the
taxable year.
(B) Household income.—The term “household income” means, with respect to any taxpayer for
any taxable year, an amount equal to the sum of—
(i)
the modified adjusted gross income of the taxpayer, plus
(ii) the aggregate modified adjusted
gross incomes of all other individuals who-(I) were taken into account in determining
the taxpayer’s family size under paragraph (1), and
(II) were required to file a return of tax imposed by section 1 for the taxable year.
(C) Modified adjusted gross income.—
The term “modified adjusted gross income” means adjusted gross income increased by—
(i)
any amount excluded from gross
income under section 911, and

236a
(ii) any amount of interest received or
accrued by the taxpayer during the taxable year which
is exempt from tax.
[(D) Repealed. Pub.L. 111-152, Title I,
§ 1002(b)(1), Mar. 30, 2010, 124 Stat. 1032]
(d) Applicable individual.—For purposes of this
section—
(1) In general.—The term “applicable individual” means, with respect to any month, an individual
other than an individual described in paragraph (2),
(3), or (4).
(2) Religious exemptions.—
(A) Religious conscience exemptions.—
(i)
In general.—Such term shall not
include any individual for any month if such individual has in effect an exemption under section
1311(d)(4)(H) of the Patient Protection and Affordable
Care Act which certifies that—
(I) such individual is a member of a recognized religious sect or division thereof which is described in section 1402(g) (1), and is adherent of
established tenets or teachings of such sect or division
as described in such section; or
(II) such individual is a member of a religious
sect or division thereof which is not described in section 1402(g)(1), who relies solely on a religious method
of healing, and for whom the acceptance of medical
health services would be inconsistent with the religious beliefs of the individual.
(ii)

Special rules.—

(I) Medical health services defined.—
For purposes of this subparagraph, the term “medical

237a
health services” does not include routine dental, vision
and hearing services, midwifery services, vaccinations, necessary medical services provided to children,
services required by law or by a third party, and such
other services as the Secretary of Health and Human
Services may provide in implementing section
1311(d)(4)(H) of the Patient Protection and Affordable
Care Act.
(II) Attestation required.—Clause (i)(II)
shall apply to an individual for months in a taxable
year only if the information provided by the individual
under section 1411(b)(5)(A) of such Act includes an attestation that the individual has not received medical
health services during the preceding taxable year.
(B) Health care sharing ministry.—
(i)
In general.—Such term shall not
include any individual for any month if such individual is a member of a health care sharing ministry for
the month.
(ii) Health care sharing ministry.—The term “health care sharing ministry” means
an organization—
(I) which is described in section 501(c)(3)
and is exempt from taxation under section 501(a),
(II) members of which share a common set of
ethical or religious beliefs and share medical expenses
among members in accordance with those beliefs and
without regard to the State in which a member resides
or is employed,
(III) members of which retain membership
even after they develop a medical condition,
(IV) which (or a predecessor of which) has
been in existence at all times since December 31, 1999,

238a
and medical expenses of its members have been
shared continuously and without interruption since at
least December 31, 1999, and
(V) which conducts an annual audit which is
performed by an independent certified public accounting firm in accordance with generally accepted accounting principles and which is made available to the
public upon request.
(3) Individuals not lawfully present.—Such
term shall not include an individual for any month if
for the month the individual is not a citizen or national
of the United States or an alien lawfully present in the
United States.
(4) Incarcerated individuals.—Such term
shall not include an individual for any month if for the
month the individual is incarcerated, other than incarceration pending the disposition of charges.
(e) Exemptions.—No penalty shall be imposed under subsection (a) with respect to—
(1) Individuals who cannot afford coverage.—
(A) In general.—Any applicable individual
for any month if the applicable individual's required
contribution (determined on an annual basis) for coverage for the month exceeds 8 percent of such individual's household income for the taxable year described
in section 1412(b)(1)(B) of the Patient Protection and
Affordable Care Act. For purposes of applying this
subparagraph, the taxpayer's household income shall
be increased by any exclusion from gross income for
any portion of the required contribution made through
a salary reduction arrangement.

239a
(B) Required contribution.—For purposes of this paragraph, the term “required contribution” means—
(i)
in the case of an individual eligible
to purchase minimum essential coverage consisting of
coverage through an eligible-employer-sponsored
plan, the portion of the annual premium which would
be paid by the individual (without regard to whether
paid through salary reduction or otherwise) for selfonly coverage, or
(ii) in the case of an individual eligible
only to purchase minimum essential coverage described in subsection (f)(1) (C), the annual premium
for the lowest cost bronze plan available in the individual market through the Exchange in the State in
the rating area in which the individual resides (without regard to whether the individual purchased a
qualified health plan through the Exchange), reduced
by the amount of the credit allowable under section
36B for the taxable year (determined as if the individual was covered by a qualified health plan offered
through the Exchange for the entire taxable year).
(C) Special rules for individuals related
to employees.—For purposes of subparagraph (B)(i),
if an applicable individual is eligible for minimum essential coverage through an employer by reason of a
relationship to an employee, the determination under
subparagraph (A) shall be made by reference to required contribution of the employee.
(D) Indexing.—In the case of plan years beginning in any calendar year after 2014, subparagraph (A) shall be applied by substituting for “8
percent” the percentage the Secretary of Health and
Human Services determines reflects the excess of the

240a
rate of premium growth between the preceding calendar year and 2013 over the rate of income growth for
such period.
(2) Taxpayers with income below filing
threshold.—Any applicable individual for any month
during a calendar year if the individual's household
income for the taxable year described in section
1412(b)(1)(B) of the Patient Protection and Affordable
Care Act is less than the amount of gross income specified in section 6012(a)(1) with respect to the taxpayer.
(3) Members of Indian tribes.—Any applicable
individual for any month during which the individual
is a member of an Indian tribe (as defined in section
45A(c)(6)).
(4) Months during short coverage gaps.—
(A) In general.— Any month the last day of
which occurred during a period in which the applicable individual was not covered by minimum essential
coverage for a continuous period of less than 3 months.
(B) Special rules.—For purposes of applying this paragraph—
(i)
the length of a continuous period
shall be determined without regard to the calendar
years in which months in such period occur,
(ii) if a continuous period is greater
than the period allowed under subparagraph (A), no
exception shall be provided under this paragraph for
any month in the period, and
(iii) if there is more than 1 continuous
period described in subparagraph (A) covering months
in a calendar year, the exception provided by this paragraph shall only apply to months in the first of such
periods.

241a
The Secretary shall prescribe rules for the collection of the penalty imposed by this section in cases
where continuous periods include months in more
than 1 taxable year.
(5) Hardships.—Any applicable individual who
for any month is determined by the Secretary of
Health and Human Services under section
1311(d)(4)(H) to have suffered a hardship with respect
to the capability to obtain coverage under a qualified
health plan.
(f) Minimum essential coverage.—For purposes of
this section—
(1) In general.—The term “minimum essential
coverage” means any of the following:
(A) Government sponsored programs.—
Coverage under—
(i)
the Medicare program under part
A of title XVIII of the Social Security Act,
(ii) the Medicaid program under title
XIX of the Social Security Act,
(iii) the CHIP program under title XXI
of the Social Security Act or under a qualified CHIP
look-alike program (as defined in section 2107(g) of the
Social Security Act),
(iv) medical coverage under chapter 55
of title 10, United States Code, including coverage under the TRICARE program.
(v)
a health care program under chapter 17 or 18 of title 38, United States Code, as determined by the Secretary of Veterans Affairs, in
coordination with the Secretary of Health and Human
Services and the Secretary,

242a
(vi) a health plan under section
2504(e) of title 22, United States Code (relating to
Peace Corps volunteers); or
(vii) the Nonappropriated Fund Health
Benefits Program of the Department of Defense, established under section 349 of the National Defense
Authorization Act for Fiscal Year 1995 (Public Law
103-337; 10 U.S.C. 1587 note).
(B) Employer-sponsored plan.—Coverage
under an eligible employer-sponsored plan.
(C) Plans in the individual market.—
Coverage under a health plan offered in the individual
market within a State.
(D) Grandfathered health plan.—Coverage under a grandfathered health plan.
(E) Other coverage.—Such other health
benefits coverage, such as a State health benefits risk
pool, as the Secretary of Health and Human Services,
in coordination with the Secretary, recognizes for purposes of this subsection.
(2) Eligible employer-sponsored plan.—The
term “eligible employer-sponsored plan” means, with
respect to any employee, a group health plan or group
health insurance coverage offered by an employer to
the employee which is—
(A) a governmental plan (within the meaning of section 2791(d)(8) of the Public Health Service
Act), or
(B) any other plan or coverage offered in the
small or large group market within a State.

243a
Such term shall include a grandfathered health
plan described in paragraph (1)(D) offered in a group
market.
(3) Excepted benefits not treated as minimum essential coverage.—The term “minimum essential coverage” shall not include health insurance
coverage which consists of coverage of excepted benefits—
(A) described in paragraph (1) of subsection
(c) of section 2791 of the Public Health Service Act; or
(B) described in paragraph (2), (3), or (4) of
such subsection if the benefits are provided under a
separate policy, certificate, or contract of insurance.
(4) Individuals residing outside United
States or residents of territories.—Any applicable
individual shall be treated as having minimum essential coverage for any month—
(A) if such month occurs during any period
described in subparagraph (A) or (B) of section
911(d)(1) which is applicable to the individual, or
(B) if such individual is a bona fide resident
of any possession of the United States (as determined
under section 937(a)) for such month.
(5) Insurance-related terms.—Any term used
in this section which is also used in title I of the Patient Protection and Affordable Care Act shall have
the same meaning as when used in such title.
(g) Administration and procedure.—
(1) In general.—The penalty provided by this
section shall be paid upon notice and demand by the
Secretary, and except as provided in paragraph (2),
shall be assessed and collected in the same manner as

244a
an assessable penalty under subchapter B of chapter
68.
(2) Special rules.—Notwithstanding any other
provision of law—
(A) Waiver of criminal penalties.—In the
case of any failure by a taxpayer to timely pay any
penalty imposed by this section, such taxpayer shall
not be subject to any criminal prosecution or penalty
with respect to such failure.
(B) Limitations on liens and levies.—
The Secretary shall not—
(i)
file notice of lien with respect to
any property of a taxpayer by reason of any failure to
pay the penalty imposed by this section, or
(ii) levy on any such property with respect to such failure.

